<html>
<title> - H.R. 5504, IMPROVING NUTRITION FOR AMERICA'S CHILDREN ACT</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]





       H.R. 5504, IMPROVING NUTRITION FOR AMERICA'S CHILDREN ACT

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                          EDUCATION AND LABOR

                     U.S. House of Representatives

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

              HEARING HELD IN WASHINGTON, DC, JULY 1, 2010

                               __________

                           Serial No. 111-71

                               __________

      Printed for the use of the Committee on Education and Labor





<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                       Available on the Internet:
      http://www.gpoaccess.gov/congress/house/education/index.html




                  U.S. GOVERNMENT PRINTING OFFICE
57-099 PDF                WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001











                    COMMITTEE ON EDUCATION AND LABOR

                  GEORGE MILLER, California, Chairman

Dale E. Kildee, Michigan, Vice       John Kline, Minnesota,
    Chairman                           Senior Republican Member
Donald M. Payne, New Jersey          Thomas E. Petri, Wisconsin
Robert E. Andrews, New Jersey        Howard P. ``Buck'' McKeon, 
Robert C. ``Bobby'' Scott, Virginia      California
Lynn C. Woolsey, California          Peter Hoekstra, Michigan
Ruben Hinojosa, Texas                Michael N. Castle, Delaware
Carolyn McCarthy, New York           Vernon J. Ehlers, Michigan
John F. Tierney, Massachusetts       Judy Biggert, Illinois
Dennis J. Kucinich, Ohio             Todd Russell Platts, Pennsylvania
David Wu, Oregon                     Joe Wilson, South Carolina
Rush D. Holt, New Jersey             Cathy McMorris Rodgers, Washington
Susan A. Davis, California           Tom Price, Georgia
Raul M. Grijalva, Arizona            Rob Bishop, Utah
Timothy H. Bishop, New York          Brett Guthrie, Kentucky
Joe Sestak, Pennsylvania             Bill Cassidy, Louisiana
David Loebsack, Iowa                 Tom McClintock, California
Mazie Hirono, Hawaii                 Duncan Hunter, California
Jason Altmire, Pennsylvania          David P. Roe, Tennessee
Phil Hare, Illinois                  Glenn Thompson, Pennsylvania
Yvette D. Clarke, New York           [Vacant]
Joe Courtney, Connecticut
Carol Shea-Porter, New Hampshire
Marcia L. Fudge, Ohio
Jared Polis, Colorado
Paul Tonko, New York
Pedro R. Pierluisi, Puerto Rico
Gregorio Kilili Camacho Sablan,
    Northern Mariana Islands
Dina Titus, Nevada
Judy Chu, California

                     Mark Zuckerman, Staff Director
                 Barrett Karr, Minority Staff Director













                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on July 1, 2010.....................................     1

Statement of Members:
    Kline, Hon. John, Senior Republican Member, Committee on 
      Education and Labor........................................     5
        Prepared statement of....................................     6
    Kucinich, Hon. Dennis, a Representative in Congress from the 
      State of Ohio, submissions for the record:
        Article, ``Crisis in the Marketplace: How Food Marketing 
          Contributes to Childhood Obesity and What Can Be Done 
          About It,'' by Jennifer L. Harris, et al, Annual Review 
          of Public Health, Oct. 2008, Internet address to.......    27
        Article, ``Television viewing, computer use, obesity, and 
          adiposity in US preschool children,'' by Jason A. 
          Mendoza, et al, International Journal of Behavioral 
          Nutrition and Physical Activity, Sept. 25, 2007........    83
        Article, ``Television viewing, fast-food consumption, and 
          children's obesity,'' by Hung-Hao Chang and Rodolofo M. 
          Nayga, Jr., Contemporary Economic Policy, July 2009, 
          Internet address to....................................    92
        Article, ``Fast-Food Restaurant Advertising on Television 
          and Its Influence on Childhood Obesity,'' by Shin-Yi-
          Chou, et al, Journal of Law and Economics, Nov. 2008, 
          Internet address to....................................    93
    Miller, Hon. George, Chairman, Committee on Education and 
      Labor......................................................     1
        Prepared statement of....................................     3
        Additional submissions:
            Statement of the Food Research and Action Center.....    82
            Questions submitted for the record...................   114

Statement of Witnesses:
    Colicchio, Tom, chef and restaurateur........................    40
        Prepared statement of....................................    42
    Monroe, Paul D., major general, U.S. Army (ret.), on behalf 
      of Mission: Readiness......................................    64
        Prepared statement of....................................    66
    Rector, Robert, senior research fellow, the Heritage 
      Foundation.................................................    44
        Prepared statement of....................................    45
    Sanchez, Eduardo, vice president and chief medical officer, 
      Blue Cross and Blue Shield of Texas........................    58
        Prepared statement of....................................    60
        Responses to questions submitted for the record..........   124
    Vilsack, Hon. Thomas, Secretary, U.S. Department of 
      Agriculture................................................     7
        Prepared statement of....................................     9
        Responses to questions submitted for the record..........   116
    Weill, James D., president, Food Research and Action Center..    53
        Prepared statement of....................................    55
        Additional submissions:
            Child nutrition reauthorization materials............    93
            Letter, dated June 16, 2010, to the U.S. Senate 
              leadership.........................................    94

 
       H.R. 5504, IMPROVING NUTRITION FOR AMERICA'S CHILDREN ACT

                              ----------                              


                         Thursday, July 1, 2010

                     U.S. House of Representatives

                    Committee on Education and Labor

                            Washington, DC.

                              ----------                              

    The committee met, pursuant to call, at 9:21 a.m., in room 
2175, Rayburn House Office Building, Hon. George Miller 
[chairman of the committee] presiding.
    Present: Representatives Miller, Kildee, Scott, McCarthy, 
Tierney, Kucinich, Wu, Davis, Loebsack, Hirono, Clarke, 
Courtney, Shea-Porter, Fudge, Polis, Tonko, Titus, Chu, Kline, 
Petri, Castle, Ehlers, Biggert, Platts, McMorris Rodgers, 
Guthrie, Cassidy, Roe, and Thompson.
    Staff present: Andra Belknap, Press Assistant; Calla Brown, 
Staff Assistant, Education; Daniel Brown, Staff Assistant; Jody 
Calemine, General Counsel; Denise Forte, Director of Education 
Policy; Ruth Friedman, Senior Education Policy Advisor (Early 
Childhood); Jose Garza, Deputy General Counsel; David Hartzler, 
Systems Administrator; Liz Hollis, Special Assistant to Staff 
Director/Deputy Staff Director; Sadie Marshall, Chief Clerk; 
Bryce McKibbon, Staff Assistant; Alex Nock, Deputy Staff 
Director; Julie Peller, Senior Education Policy Advisor; 
Meredith Regine, Junior Legislative Associate, Labor; 
Alexandria Ruiz, Staff Assistant; Melissa Salmanowitz, Press 
Secretary; Gabrielle Serra, Education and Nutrition Policy 
Advisor; Dray Thorne, Senior Systems Administrator; Daniel 
Weiss, Special Assistant to the Chairman; Stephanie Arras, 
Minority Legislative Assistant; Kirk Boyle, Minority General 
Counsel; Allison Dembeck, Minority Professional Staff Member; 
Barrett Karr, Minority Staff Director; Alexa Marrero, Minority 
Communications Director; Brian Newell, Minority Press 
Secretary; Susan Ross, Minority Director of Education and Human 
Services Policy; Linda Stevens, Minority Chief Clerk/Assistant 
to the General Counsel; and Loren Sweatt, Minority Professional 
Staff Member.
    Chairman Miller [presiding]. The Committee on Education and 
Labor will come to order. Good morning to everyone, and welcome 
to our first witness, Secretary of Agriculture Tom Vilsack. We 
will be with you in a moment. We have a couple of opening 
statements.
    This morning we will discuss the new bipartisan child 
nutrition legislation we introduced earlier this month to 
address critical health and economic needs in this country. We 
are on the brink of a national health crisis that is affecting 
our youngest children.
    Childhood obesity has more than tripled in the past 30 
years. Nearly 1 in 3 children are obese. The frightening 
reality in many doctor's offices is very young children are 
presenting adult onset health problems like diabetes and heart 
disease.
    At the very same time, over 16 million children are hungry 
and live in households where families are struggling to put 
food on the table. In this economy, families are faced with the 
difficult and daunting choices of paying their bills and 
keeping the lights on or putting food on the table. They simply 
do not have enough resources to make ends meet.
    For these families, the federal child nutrition programs 
provide a nutritional safety net. They help parents avoid this 
painful choice between basic necessities. This makes the role 
of these programs increasingly important.
    We cannot ignore the fact that for millions of children the 
only meals that they can count on are those that they get at 
school or in childcare. Hunger affects every aspect of 
children's lives, including their ability to keep up with their 
peers to achieve academically.
    If children are hungry, they can't focus and they can't 
learn. And if we do nothing, if we allow these children's 
health to deteriorate, to jeopardize their success in school, 
we compromise their ability to grow into healthy, productive 
adults.
    Research shows that healthy eating and a child's ability to 
focus and benefit from classroom--and benefit from classroom 
time are absolutely linked. The federal child nutrition 
programs provide us with a tremendous opportunity to help 
change children's lives and the future of this country by not 
just feeding children healthier meals, but teaching them about 
the importance of healthy choices.
    If we educate our children about the importance of 
nutrition early, they can develop healthy habits that will 
translate into a lifetime of healthy eating and healthy living. 
This is why we need to place so much emphasis on healthy 
nutrition and education in childcare, and for mothers in the 
women and infants children's programs.
    This won't be the first time we look to the classroom to 
help stop national health crises. That is how we worked to get 
people to stop smoking. We educated children about the dangers, 
and they started talking and questioning their parents about 
it. With the use of seatbelts, we told children about the need 
for seatbelts, and they started asking their parents to buckle 
up and to make the car a safer place for them to ride in.
    Education has mastered many difficult problems in this 
country. If we work in the schools to both increase nutritional 
opportunities and educate children about the food they are 
eating, we have a chance to really dramatically drive down 
future health care costs. And we have a real opportunity to 
ensure our children will be able to reach for success and live 
healthier lives.
    At Dover Elementary and Richmond Elementary in my district, 
the kids help take care of the school garden. They use it for a 
biology class, they use it for zoology class, and they use it 
for an art class. But most importantly, they are eating the 
products of their garden, they are understanding the richness 
of fresh fruits and vegetables, and they are taking what they 
learn in the garden back home with them to teach their parents 
about healthy living.
    This is the type of program we want to replicate in the 
legislation we have introduced. We want to empower schools 
across the country to start their own gardens, to run green 
cafeterias, to accept nothing but the highest quality food in 
schools in the cafeteria and in the vending machines. We want 
to empower schools to help improve meal quality, to change 
children's lives, and take the issue of children's health 
seriously.
    The Improving Nutrition for America's Children Act will 
help accomplish this task by making four important improvements 
in America's child nutrition programs.
    First, we streamline and increase access for children to 
healthy nutritional food during the school day.
    Secondly, we work to improve food safety and the recall 
process in our schools for unsafe food.
    Third, we increase the reimbursement rate for the first 
time in 30 years to better support the schools' ability to 
offer healthy school meals.
    Lastly, we provide opportunities for year-round service, on 
the weekends, during vacation and holidays, and during the 
summer, because hunger and children's nutritional needs do not 
take a summer vacation.
    This is smart policy that responds to significant needs to 
help improve children's health.
    We have many partners in this effort, including health 
organizations, anti-hunger organizations, school and nutrition 
organizations, teachers and parents, who really want better 
nutrition in our schools.
    We also have the help of Michelle Obama. With her Let's 
Move initiative, the First Lady has lent her leadership, her 
vision, and her knowledge to help end the childhood obesity 
crisis and to bring national attention to the problems facing 
our country. This bill answers her call and moves us closer to 
meeting President Obama's challenge to end childhood hunger in 
America.
    The issues of child hunger and poor nutrition require 
immediate action and a joint effort between government, 
communities, families, schools, and the unwavering support of 
advocates.
    The nation's greatest treasure is at risk; our children 
deserve a chance to reach for more and to pursue opportunities 
that will drive this country to even greater heights. It is now 
clear that the time to get America's families and children back 
on the road to healthy eating and healthier living.
    Our witnesses today will tell us what is really at stake 
and why this bill is so absolutely critical.
    And I want to thank all of them in advance for being here 
and recognize the senior Republican at this morning's hearing, 
Mr. Kline.
    [The statement of Mr. Miller follows:]

          Prepared Statement of Hon. George Miller, Chairman,
                    Committee on Education and Labor

    Good morning.
    This morning we'll discuss the new bipartisan child nutrition 
legislation we introduced earlier this month to address critical health 
and economic needs in this country.
    We are on the brink of a national health crisis that is affecting 
our youngest children. Childhood obesity has more than tripled in the 
past 30 years.
    Nearly one in three children is obese.
    The frightening reality in many doctors offices is very young 
children presenting with adult onset health problems like diabetes and 
heart disease.
    At the same time, over 16 million children are hungry and live in 
households where families are struggling to put food on the table.
    In this economy, families are faced with the difficult and daunting 
choices of paying their bills and keeping the lights on or putting food 
on the table. They simply do not have enough resources to make ends 
meet.
    For these families, the federal child nutrition programs provide a 
nutritional safety net.
    They help parents avoid this painful choice between basic 
necessities. This makes the role of these programs increasingly 
important.
    We cannot ignore the fact that for millions of children, the only 
meals that they can count on are those they get at school or in child 
care.
    Hunger affects every aspect of children's lives, including their 
ability to keep up with their peers and achieve academically.
    If children are hungry, they can't focus and they can't learn. If 
we do nothing, if we allow these children's health to deteriorate, and 
jeopardize their success in school, we compromise their ability to grow 
into healthy, productive adults.
    Research shows that healthy eating and a child's ability to focus 
and benefit from classroom time are absolutely linked.
    The federal child nutrition programs provide us with a tremendous 
opportunity to help change children's lives and the future of this 
country by not just feeding children healthier meals but teaching them 
about the importance of healthy choices.
    If we educate our children about the importance of nutrition early, 
they can develop healthy habits that will translate in to a lifetime of 
healthy eating and healthy living.
    This is why we need to place so much emphasis on healthy nutrition 
and education in child care and for mothers in the Women, Infants and 
Children program.
    This won't be the first time that we took to the classrooms to help 
stop a national health crisis.
    How did we get people to stop smoking? We educated kids about the 
dangers of smoking and they talked about it with their parents.
    Why do people use seatbelts? Their kids were educated about it in 
school and then they came home and made sure their parents wore their 
seatbelts in their cars and now they do.
    Education has mastered many of the difficult problems in this 
country.
    If we work in the schools to both increase nutritional 
opportunities and educate kids about the food they're eating, we have a 
chance to really dramatically drive down future health care costs. And 
we have a real opportunity to ensure our children will be able to reach 
for success and live healthier lives.
    At Dover Elementary and Richmond Elementary in my district, the 
kids help take care of a school garden. They use it for the biology 
class, they use it for zoology class, and they use it for the art 
class.
    But most importantly, they're eating the products of their garden, 
they're understanding the richness of fresh fruits and vegetables and 
they're taking what they learned in the garden back home with them to 
teach their parents about healthy living.
    This is the type of program that we want to replicate in the 
legislation we introduced.
    We want to empower schools across the country to start their own 
gardens, to run green cafeterias, to accept nothing but the highest 
quality food in schools in the cafeteria and in vending machines.
    We want to empower schools to help improve meal quality, to change 
children's lives and take the issue of children's health seriously.
    The Improving Nutrition for America's Children Act will help 
accomplish this task by making four important improvements in America's 
children nutrition programs:
    First, we streamline and increase access for children to healthy 
nutritious food during the school day.
    Second, we work to improve food safety and the recall process in 
our schools.
    Third, we increase the reimbursement rate for the first time in 
over 30 years to better support schools ability to offer healthy school 
meals.
    Lastly, we provide opportunities for year-round service, on 
weekends, during vacation and holidays and during the summer because 
hunger and children's nutritional needs do not take a summer vacation.
    This is smart policy that responds to a significant need to help 
improve children's health.
    We have many partners in this effort including health 
organizations, anti-hunger organizations, school and nutrition 
organizations, teachers and parents, who really want better nutrition 
in their schools. We also have the help of Michelle Obama.
    With her ``Let's Move'' initiative, the First Lady has lent her 
leadership, her vision and her knowledge to help end the childhood 
obesity crisis and to bring national attention to the problems facing 
our country.
    This bill answers her call and moves us closer to meeting President 
Obama's challenge to end childhood hunger in America.
    The issues of child hunger and poor nutrition require immediate 
action, and a joint effort between government, communities, families, 
schools, and the unwavering support of advocates. The nation's greatest 
treasure is at risk and our children deserve the chance to reach for 
more and to pursue opportunities that will drive this country to even 
greater heights.
    It's clear now is the time to get America's families and children 
back on the road to healthy eating and healthier living.
    Our witnesses here today will tell us what is really at stake and 
why this bill is so absolutely critical.
    Thank you for being here today.
                                 ______
                                 
    Mr. Kline. Thank you, Mr. Chairman. Good morning to you and 
to the Secretary. Thank you for being with us here this 
morning.
    This morning's legislative hearing is the first public 
examination of H.R. 5504, the recently introduced Improving 
Nutrition for America's Children Act. The National School Lunch 
Program and the other initiatives that make up the Child 
Nutrition Act are designed to combat hunger and poor nutrition 
among low-income children and families.
    According to the Congressional Research Service, federally 
supported child nutrition programs reach more than 40 million 
children and 2 million lower-income, expectant and new mothers 
daily.
    Every 5 years or so, Congress has the opportunity to update 
and extend these programs, and that is exactly what we ought to 
be doing this year. We all recognize the role of nutritious 
school lunches, WIC supports, and other nutrition programs in 
preventing hunger and helping promote healthy children and 
families. We stand ready on this side of the aisle to 
reauthorize the programs and improve their effectiveness and 
efficiency.
    What has given us pause, however, is the almost $8 billion 
price tag attached to this bill.
    [Audio gap.]
    Our child nutrition programs are a worthy investment.
    [Audio gap.]
    This is a threat to our long-term economic security. It is 
also a threat to our national security.
    Admiral Mike Mullen, chairman of the Joint Chiefs of Staff, 
recently warned our national debt has become our greatest 
national security threat. As he noted, the interest on our debt 
is now roughly equal to the annual defense budget. Every dollar 
we spend and every program we create must be weighed against 
the crushing burden we are placing on future generations with 
this unchecked spending. This is a particularly valid question 
on legislation professing to improve our children's futures.
    Today's hearing will delve into specific detail about the 
proposed legislation. I hope we do not allow an important 
discussion about nutritional science and wellness policy 
reporting to detract from our larger obligation to prevent 
hunger and improve child nutrition responsibly.
    We can modernize these programs and improve their 
efficiency and reach without further bankrupting our nation. 
This is the approach to child nutrition reauthorization I would 
gladly support, and I look forward to hearing from our 
distinguished witnesses today about how we can do exactly that, 
and I yield back, Mr. Chairman.
    [The statement of Mr. Kline follows:]

   Prepared Statement of Hon. John Kline, Senior Republican Member, 
                    Committee on Education and Labor

    Thank you Mr. Chairman and good morning. This morning's legislative 
hearing is the first public examination of H.R. 5504, the recently 
introduced Improving Nutrition for America's Children Act.
    The National School Lunch program and the other initiatives that 
make up the Child Nutrition Act are designed to combat hunger and poor 
nutrition among low-income children and families. According to the 
Congressional Research Service, federally supported child nutrition 
programs reach more than 40 million children and two million lower-
income expectant and new mothers daily.
    Every five years or so, Congress has the opportunity to update and 
extend these programs. And that is exactly what we ought to be doing 
this year. We all recognize the role of nutritious school lunches, WIC 
supports, and other nutrition programs in preventing hunger and helping 
promote healthy children and families. We stand ready on this side of 
the aisle to reauthorize the programs and improve their effectiveness 
and efficiency.
    What has given us pause, however, is the $8 billion price tag 
attached to this bill. That's $8 billion the majority plans to spend--
on top of the nearly $20 billion we are already spending each year on 
these programs, on top of the more than half billion dollars in 
stimulus funds appropriated last year for nutrition, obesity, and other 
community wellness programs, on top of the $15 billion Congress added 
this year in the health care bill for community based prevention 
programs, including nutrition and exercise programs. Let me be clear: 
our child nutrition programs are a worthy investment, and one we will 
continue to prioritize. But at a time of record debts and deficits, 
creating new programs for green cafeterias and federalizing our local 
wellness policies and nutrition standards seems fiscally irresponsible.
    As introduced, the cost of H.R. 5504 is not offset; if enacted 
today, it would add to our deficit. And we all know that within this 
committee's jurisdiction, we do not have $8 billion for these purposes. 
That means we will be forced to move a bill through committee without 
paying for it, trusting the Speaker to find the money elsewhere or 
simply swipe our burgeoning credit card once again.
    Our nation's debts and deficits cannot be ignored as abstract 
concepts. The Congressional Budget Office announced this week the 
national debt will reach 62 percent of our gross domestic product by 
year's end. This is a threat to our long-term economic security. It's 
also a threat to our national security.
    Admiral Mike Mullen, chairman of the Joint Chiefs, recently warned 
our national debt has become our greatest national security threat. As 
he noted, the interest on our debt is now roughly equal to the annual 
defense budget. Every dollar we spend and every program we create must 
be weighed against the crushing burden we are placing on future 
generations with this unchecked spending. This is a particularly valid 
question on legislation professing to improve our children's futures.
    Today's hearing will delve into specific detail about the proposed 
legislation. But I hope we do not allow an important discussion about 
nutritional science and wellness policy reporting to detract from our 
larger obligation to prevent hunger and improve child nutrition 
responsibly.
    We can modernize these programs and improve their efficiency and 
reach without further bankrupting our nation. That is the approach to 
child nutrition reauthorization I would gladly support, and I look 
forward to hearing from our distinguished witnesses today about how we 
can do exactly that. I yield back.
                                 ______
                                 
    Chairman Miller. I thank the gentleman for his statement.
    Our first witness this morning will be the Honorable Tom 
Vilsack, who was appointed by President Barack Obama as the 
30th Secretary of the United States Department of Agriculture, 
where he is working to improve the health of America's 
children, targeting child hunger and obesity, with efforts to 
encourage balanced meals, nutritious eating, and increased 
physical activity. He has ordered a top-to-bottom review of 
USDA's food safety standards and has begun to implement policy 
changes to ensure the safety of America's food supply.
    Prior to his appointment, Secretary Vilsack served two 
terms as Governor of Iowa and was the first Democrat elected to 
that office in more than 30 years. He received a bachelor's 
degree from Hamilton College in 1972 and earned his law degree 
from Albany Law School in 1975.
    Mr. Secretary, welcome to the committee. You are now an old 
hand at testifying before congressional committees. As you 
know, when you begin, a green light will go on. You will have 5 
minutes for your opening statement, but you make sure that you 
are comfortable imparting the information that you think the 
committee needs to know.
    Welcome.

        STATEMENT OF HON. THOMAS J. VILSACK, SECRETARY,
                 U.S. DEPARTMENT OF AGRICULTURE

    Secretary Vilsack. Thank you very much, Mr. Chairman.
    And, Representative Kline, thank you, as well, and to all 
the committee members. I certainly appreciate the opportunity 
to be here this morning.
    I am going to not use the prepared text that my staff has 
prepared. I would like to speak from the heart about this issue 
today.
    When I was asked to serve as Secretary Obama's--Secretary 
of Agriculture by President Obama, the first thing that he 
asked me to do was to improve the nutrition available to our 
children. I was struck by that and recognized that that was my 
first instruction from my boss.
    I took and take that responsibility very seriously, and 
that is why I am here today, to encourage this committee and 
this Congress to take action now to improve the nutritional 
opportunities for our children.
    You have before you a bill that will provide ten 
improvements to the current system, a bill that will expand 
access to school breakfast, an extraordinarily important part 
of starting every child's day properly, an opportunity to 
improve the quality of the meals that are available to 
youngsters in schools across the country.
    The Institute of Medicine essentially did a study of the 
nutritional value of the meals that we are currently serving to 
our children and found that there was too much fat, too much 
sugar, too much sodium, not enough fruits, not enough 
vegetables, not enough whole grains, and not enough low-fat 
dairy. There is obviously room for improvement.
    You have an opportunity with this bill to also provide 
consistency in terms of the nutritional opportunities at 
schools by providing opportunities for us to create standards 
for vending machines and a la carte lines that are also 
consistent with nutrition.
    You have a chance and the opportunity to bridge the gap 
during weekends and summer programs in summer months. As the 
chairman rightly indicated, we can do all we can do for 5 days 
during the school year, but on weekends and during the summer, 
youngsters are often left to their own design.
    You can improve the equipment and the training that is 
available in schools. You can improve the safety of food that 
is being provided to our youngsters. You can place greater 
integrity in the system. You can reconnect youngsters with 
their food supply so there is a better understanding of what 
farmers and ranchers contribute to us every single day. You can 
provide better information for students and parents so they can 
make more informed decisions. And you can continue the 
commitment to early childhood so that youngsters get a healthy 
first start.
    All of this is important for the following reasons. One, 
the research is fairly clear. Youngsters who are hungry and 
youngsters who are dealing with weight issues have a difficult 
time learning, and our youngsters are now engaged in the most 
competitive circumstances we have ever seen. It is important 
that every single youngster be at the top of their game. That 
is why it is important for us to do what is right in terms of 
school nutrition.
    So it is educational achievement and attainment. It is also 
health care. Youngsters who are obese will carry that situation 
into adulthood and, with it, rising costs associated with 
diabetes, heart conditions, and certain cancers, so it is also 
a health care issue.
    You will also find out it is a national security issue. 
Today, only 25 percent of youngsters in America today, ages 19 
to 24, are fit for military service. And one of the principal 
reasons for that is that too many of our youngsters are 
overweight.
    And then there is the whole moral issue associated with 
this particular legislation. A country as strong, as rich, as 
powerful as ours, and yet we have youngsters who are hungry, 
hundreds of thousands of youngsters who are hungry? It is one 
of the reasons why Harry Truman in 1946 established the school 
lunch program, because he recognized the country was only as 
strong as its youth.
    So I am here today to urge action on this bill. There are 
many priorities that this Congress has faced, many complex 
issues, but I believe there is none more important than this. 
This is an opportunity for us to make a clear, unconditional 
statement about the importance of our children and their 
future.
    We are urging Congress not to delay, not to delay expanded 
access, not to delay increased food safety, not to delay 
improved quality, not to delay improvements in equipment and 
training, not to delay the connection between farm and school, 
not to delay an additional commitment to early childhood.
    I talk to a lot of folks around the country. And I 
appreciate that this Congress does a lot of important work. 
And, frankly, you deal with a lot of complex issues. Health 
care was a complex issue, regulatory reform a complex issue. 
Sometimes the rest of us don't quite understand all the details 
of those programs.
    But I will tell you this: There are moms and dads all over 
this country that understand precisely what this bill is about. 
It is about making sure their youngsters are treated right in 
school, and I certainly appreciate the fiscal challenges that 
we face. I understand the importance of dealing with deficits, 
and I am committed to working with this committee and this 
Congress to find the necessary offsets, if that becomes 
necessary, to make sure that we don't delay action on this 
bill.
    This is a top priority for USDA. It ought to be a top 
priority for the American people, and I believe it is.
    So, Mr. Chairman, I look forward to answering questions 
about this, but I want to impart to this committee: I know of 
no more important role or responsibility I have than the one 
that I am talking about today.
    There are tens of millions of children whose future depends 
on what we do here, tens of millions of children who will get a 
better deal in school, a better opportunity to succeed if we do 
our job right. I certainly encourage this committee to take 
this very seriously, as I know you do, and to encourage your 
colleagues to take the difficult steps to get this done this 
year.
    Thank you, Mr. Chairman.
    [The statement of Secretary Vilsack follows:]

         Prepared Statement of Hon. Thomas Vilsack, Secretary,
                     U.S. Department of Agriculture

    Mr. Chairman and members of the Committee, thank you for the 
opportunity to discuss the pending legislation to reform and 
reauthorize the Department of Agriculture's (USDA) Child Nutrition 
Programs and the Special Supplemental Nutrition Program for Women, 
Infants and Children (WIC) program. The first task that the President 
asked me to take on when I was first selected for this job was to 
provide our children with healthier, more nutritious meals. I pledged 
then and reaffirm now--the USDA will do everything it can to support 
the health of our children and the health of the school environment in 
thousands of schools across the country.
    I appreciate the Committee's leadership on this legislation and the 
efforts to date to pass a robust Child Nutrition bill. The 
Administration is strongly committed to passing legislation this year 
that reduces child hunger and improves the quality of school meals and 
the health of the school environment. The priorities that the 
Administration has unveiled for this legislation would transform our 
school meals programs by making it easier for eligible students to 
participate in the programs, expanding program coverage to gap periods 
like breakfast, after school, and summers when some children struggle 
to access healthy meals, and significantly improving the nutritional 
quality and health of school meals and the school environment through 
upgraded meal standards and targeted increases in meal reimbursement 
rates, new standards for competitive foods, and support for school food 
service professionals through training, certification, and investments 
in school food equipment.
    I am proud to be joined in my support for this effort by the First 
Lady of the United States, Michelle Obama, as well as Education 
Secretary Arne Duncan and the Secretary of Health and Human Services, 
Kathleen Sebelius. This showing of support underlines the fact that 
reforming these programs can have a significant positive impact on 
child obesity and nutrition, as well as health and education outcomes. 
The recently released White House Report on Childhood Obesity called 
for the passage of a robust Child Nutrition Reauthorization bill as a 
key strategy to combat child obesity.
    I thank Chairman Miller for his leadership on this issue. The 
legislation he recently introduced would achieve a number of the policy 
priorities of the Obama Administration. The legislation proposes to 
invest significant resources in these programs and would reduce 
barriers to participation, improve program access, and enhance the 
quality of school meals and the health of the school environment. There 
are a number of provisions in this proposal that mirror the legislation 
that was passed unanimously by the Senate Agriculture Committee and 
reported out in early May. The strong letter of support from 221 
Members of the House of Representatives for a robust Child Nutrition 
Reauthorization, along with the bipartisan Senate action and the 
Chairman's bill show that there is broad support for this important 
legislation.
    As the number of remaining legislative days continues to get 
smaller, I urge this Committee to continue your work and to act quickly 
and forcefully on this legislation in order to provide all of our 
children with the healthy meals that are so important to their health 
and education. If we are going to support our children, we must pass a 
strong bill this year.
Background
    A discussion of the importance of reauthorizing the Child Nutrition 
and WIC programs must begin with the recognition that these programs 
are some of the largest and most important enterprises in our nation to 
invest in and support a healthy future for our children. Operating in 
over 100,000 schools in nearly every community in America, the school 
meals programs touch the lives of millions of children every school day 
and represent a partnership between the Federal and State governments 
and local schools.
    The meals served through the National School Lunch Program (NSLP) 
and the School Breakfast Program are the main nutrition intervention in 
elementary and secondary schools. The lunch program is available to 90 
percent of the 55 million American children enrolled in elementary and 
secondary schools--that is 75% of all Americans under age 18. And these 
meals are a substantial and important part of the diets of many school 
children. For schools to contribute effectively to reshaping eating 
behaviors, the meals offered at schools must model healthful choices 
and contribute effectively to healthful dietary intakes.
    The National School Lunch Act, now the Richard B. Russell National 
School Lunch Act, (NSLA) was enacted in 1946 as a necessary response to 
the widespread malnutrition-related health problems revealed among 
young draftees during World War II. Leaders in Congress also recognized 
that nutritious lunches would contribute to success in schools. Yet, 
now--over 60 years later, a recent report showed that 75 percent of 
Americans ages 17 to 24 are not fit for military service. Unlike the 
malnurishment problems of the 1940s, today, being overweight is the 
leading medical reason that young Americans are rejected from military 
service. Our understanding of the links between nutrition, health, and 
education have grown over time, and the program has responded with 
changes that make the program more accessible to low-income children, 
and improve the content of meals to reflect the day's nutrition 
science. Through these changes, the core nutrition and education 
mission behind school meals remains just as important, if not more 
important, today; but, there is more that we can and must do to 
continue making important and necessary changes to the programs.
    Over the years, USDA has made a number of changes to bring school 
meals into alignment with the most current Dietary Guidelines for 
Americans. Given the scope and complexity of the 2005 Dietary 
Guidelines recommendations, USDA contracted with the National 
Academies' Institute of Medicine (IOM) to provide evidence and science-
based recommendations for the foods offered in these programs. Last 
Fall, the IOM issued recommendations, including----
    <bullet> increase the amount and variety of fruits, vegetables, and 
whole grains;
    <bullet> set a minimum and maximum level of calories; and
    <bullet> increase the focus on reducing the amounts of saturated 
fat and sodium provided.
    I am pleased to report that we will be ready to publish proposed 
changes to the school meal nutritional requirements based on IOM's 
recommendations as soon as later this year. Stakeholders and the public 
will have ample opportunity to comment on USDA's proposed rule. After 
all public comments are considered, USDA will issue a final rule to 
implement changes to school meals.
    In the meantime, USDA will continue to provide technical assistance 
to schools to increase the availability of the food groups recommended 
by the Dietary Guidelines (fruits, vegetables, whole grains, and low-
fat/fat-free dairy products) in the lunch and breakfast menus.
    USDA's HealthierUS School Challenge is also helping schools move in 
the direction of the recommendations of the 2005 Dietary Guidelines. 
The awards criteria have been updated to reflect the 2005 Dietary 
Guidelines. To date, over 700 schools have received Challenge awards 
and we are working towards increasing the number of award winners to 
3,000 by fiscal year 2012.
    As we improve school meals to ensure they are promoting good 
health, we must improve other foods, sold in competition with school 
meals, as these foods can displace these more balanced meals and 
undermine healthy choices. Nutrition education, food service settings, 
and operational constraints, along with other aspects of the school 
environment, should also be strengthened.
    To sustain a food and nutrition environment that fosters children's 
healthful behaviors, we need your help to support improvements in the 
nutritional content of school meals to meet updated standards; changes 
in other foods available to ensure that all food sold at school support 
healthful diets and revisions to policies and practices in the Child 
and Adult Care Food Program (CACFP) and the WIC Program to ensure that 
key childhood programs also support healthy eating.
    We know that healthy eating habits are established early in the 
lives of young children, and quality food and nutrition in child care 
and after school can be a sound, effective foundation. The CACFP 
provides healthful meals through preschool child care and also includes 
after school care programs, along with other community settings. 
Currently serving about 3.2 million children on an average day in child 
care homes and centers, CACFP supports the health and education of the 
children that participate in these programs, and enhances the ability 
of child care providers to ensure quality care. We have asked the IOM 
to recommend improvements to nutrition standards for CACFP just as they 
did for the school meal programs. We expect the expert panel to issue 
their findings this Fall.
    Finally, WIC continues to serve as both a supplemental nutrition 
program and as a gateway to the health care system. WIC provides 
supplemental foods to pregnant, postpartum and breastfeeding women, 
infants and children. WIC reaches nearly 9.1 million people each month. 
About half of the infants in the United States participate and benefit 
from the WIC program.
    I am pleased to report that the new food packages now include 
fruits, vegetables and whole grains, and less fat, along with other 
changes to reflect the latest nutrition recommendations. Contracting 
with IOM to review and recommend changes to the WIC food packages 
proved invaluable in improving the supplemental foods offered under 
WIC.
    WIC offers a critical opportunity to intervene early to reduce the 
likelihood of childhood obesity. We know children who are breastfed 
during the first nine months of life are at reduced risk of childhood 
or adolescent obesity. Studies have found that the likelihood of 
obesity is 22 percent lower among children who were breastfed. The 
strongest effects were observed among adolescents, meaning that the 
obesity-reducing benefits of breastfeeding extend many years into a 
child's life.
    Despite these health benefits, although most (74%) babies start out 
breastfeeding, within three months, two-thirds (67%) have already 
received formula or other supplements. By six months of age, only 43 
percent are still breastfeeding at all, and less than one quarter (23 
percent) are breastfed at least 12 months.
    While breastfeeding is not a viable alternative for all mothers and 
babies, it can be more widespread than it is today. WIC provides an 
opportunity to increase breastfeeding initiation and duration rates. 
Providing recognition and financial incentives to State agencies and 
clinics that support breastfeeding will complement Congress' support of 
breastfeeding peer counseling in the FY 2010 appropriations.
    Given the reach of the Child Nutrition and WIC Programs and the 
substantial investment Congress has made to the national nutrition 
safety net, the tools to become an active part of the solution are 
within our grasp. Yet, absent a robust reauthorization bill, we cannot 
move forward.
    Schools need resources to improve the quality of school meals and 
to increase the number of needy children participating in the programs. 
USDA needs the authority to set nutrition standards for all food sold 
in schools. And we need funding to improve wellness activities in 
schools and in child care centers and to encourage breastfeeding in the 
WIC program.
Challenges
    There are compelling reasons to act now. This reauthorization comes 
at a time of significant challenges. Addressing them boldly and 
decisively is critical to the future of our country.
    Our most fundamental challenge is a health crisis of the first 
order--the epidemic of obesity among our children. One in every three 
children and adolescents in the United States is overweight or obese, 
with particularly high rates among certain populations, such as 
Hispanic boys, African-American girls, and American Indian/Native 
Alaskan children. This has a negative impact on children's health and 
well-being today, and even more serious consequences for their future.
    Research shows that children and adolescents with this condition 
are more likely to be overweight or obese as adults. And that obesity 
increases health risks for coronary heart disease, Type 2 diabetes, 
cancer, stroke, and a range of other serious conditions--and causes an 
estimated 112,000 deaths per year in the United States. Experts 
forecast that one third of all children born in the year 2000 could 
develop diabetes during their lifetime.
    These devastating health impacts result in substantial economic 
costs. Excess weight is costly during childhood, estimated at $3 
billion per year in direct medical costs, and far more costly in future 
years. Obese adults incur an estimated $1,429 more in annual medical 
expenses than their normal-weight peers. Overall, medical spending on 
adults attributed to obesity topped approximately $40 billion in 1998, 
and by 2008, increased to an estimated $147 billion. We cannot let 
these costs continue to grow at a time when we must reduce health care 
costs to remain competitive. Absenteeism and lost productivity at work 
are additional costs of obesity that our nation cannot afford.
    The second major challenge we face is the need to ensure that our 
children have access to the healthful, nutritious food they need to 
support educational achievement. As the members of this Committee know 
as well as anyone, a successful educational experience for every child 
is critical to our nation's future. President Obama has said that what 
matters is what we do to lift up the next generation--and that few 
issues speak more directly to our long term success as a nation than 
the education we provide to our children.
    Yet we know that for too many families in our country, hunger 
remains a real problem. In over 500,000 families with children in 2008, 
one or more children simply did not get enough to eat--they had to cut 
the size of their meals, skip meals, or even go whole days without food 
at some time during the year. This costs us more, not to mention the 
suffering and deprivation of those families. Ask any teacher how 
students who fail to eat a healthy breakfast or lunch perform in class. 
Hungry kids don't learn as well. In fact, the damage extends beyond the 
hungry children. We want and need our children to be fully prepared for 
a competitive world and global economy. We will not succeed if our 
children are not learning as they should because they are hungry, and 
cannot achieve their potential because they are unhealthy.
    Finally, the problem of poor nutrition among our children 
represents a challenge to our nation's military readiness. As I noted 
previously, during World War II, the health effects of malnutrition 
were a common disqualifier for military service. Our leaders understood 
the importance of investing in good nutrition to ensure that the 
country would never want for healthy, strong young people to serve in 
uniform. And so, in 1946, President Harry Truman signed the National 
School Lunch Act, declaring that ``in the long view, no nation is 
healthier than its children.''
    Today, the nutrition problems are different, but the impact on 
preparedness for the military remains. A recent report showed that 75 
percent of adults age 17-24 are not physically fit for military 
service. One of the top disqualifiers for service is obesity. Because 
of these troubling statistics, a coalition of retired generals and 
admirals has formed to advocate for a strong Child Nutrition 
reauthorization bill that ensures that the programs can address today's 
nutrition issues as effectively as possible. I thank them for their 
leadership and welcome their efforts to promote this important 
legislative initiative.
    The Child Nutrition Programs can do more to address these 
challenges:
    <bullet> We are working to update school meals nutrition standards 
based on recommendations from the Institute of Medicine. We must use 
the opportunity of reauthorization to strengthen our work with schools 
to improve the content of the meals they serve in ways that make them 
appealing as well as nutritious.
    <bullet> We need to ensure that all food sold in school supports 
good nutrition and health by creating the statutory authority to set 
national standards for these foods.
    <bullet> We must ensure, simplify, and expand access to programs 
when and where children need them
    <bullet> And we must make physical activity a natural and 
compelling choice for our children, so that they can strengthen their 
bodies and develop good habits that can last a lifetime.
    So today, President Truman's belief that a healthy nation depends 
on healthy children remains as true as ever. We must respond as past 
generations have before us to improve child nutrition. Our children 
deserve more and our country's better and brighter future depends upon 
it. And with the reauthorization of the Child Nutrition Programs 
scheduled this year, now is the time to act boldly.
Priorities
    For all of these reasons, we must take steps to streamline access, 
improve the quality of school meals, increase participation, and work 
to eliminate childhood hunger in this country. For many children in our 
programs, school lunch and breakfast represents the only healthy food 
that they eat all day. We must work to ensure access to nutrition 
assistance for children, when and where they need it, particularly 
during the ``gap periods,'' when we know children struggle to receive 
the nutrition they need--summer months, during breakfast, and in after-
school environments.
    Bold action with reauthorization must include the following 
elements:
    1. Improving access to the school nutrition programs must be a 
priority. States and local communities need to be fully engaged as 
partners in our efforts to identify innovative strategies to ending 
child hunger. We cannot rest while so many of our young children 
struggle with access to food, which is why I'm calling on Congress to 
provide tools to increase participation, streamline applications, and 
eliminate gap periods. Quite simply, we must do everything we can to 
ensure that eligible children have access to these critically important 
programs. I call on you to fund a new program of State Hunger Challenge 
Grants for States willing to take strides to reduce and eliminate 
hunger in their communities. With authorization and funding, we will 
provide competitive grants to Governors for them to implement creative 
and innovative approaches to eliminating hunger. We want States to be 
the laboratories for successful strategies and that means freeing them 
up to be creative and providing resources for innovative models that 
match program delivery with evaluation, so that we can learn what works 
and what does not. These steps will include policy modifications to 
existing nutrition programs, enhanced outreach efforts, improved 
coordination between nutrition assistance programs and family 
supportive services, such as emergency housing, child care, and family 
preservation services, counseling and support services, and work with 
community and non-profit organizations to coordinate services and 
resources. Competitive grants would be provided to States with 
comprehensive and innovative plans for reducing hunger, applications 
that target communities with higher prevalances of hunger, especially 
among children, and projects that reflect collaboration with a wide 
range of partners.
    In addition, we should offer grants to states and non-profit 
organizations to develop web-based or other systems to streamline the 
application process and expand efforts to enroll eligible students 
through direct certification. If a child already qualifies for other 
assistance programs, there is no reason why their parent should have to 
fill out one more application to qualify for school breakfast or lunch. 
Bonus payments should be offered to states and school districts that 
effectively use direct certification to enroll children who currently 
qualify but who are not participating. The object should be to ensure--
particularly in communities where children are at high risk for 
hunger--that every child eats the food they need. I am also calling on 
Congress to provide USDA with the tools necessary to establish 
paperless application programs in school districts with very high rates 
of children with free and reduced price-eligible students. In these 
districts, the cost of paperwork and the risk of lost of forms far 
outweigh any benefits. We must ensure that communities across the 
country have access to these types of solutions in order to get more 
kids into the program and reduce the bureaucracy of filling out forms. 
Through these reforms, I believe that we will be able to increase 
participation in these programs by one million children in the next 
five years.
    2. Increasing financial support and expanding participation in 
School Breakfast is a vital part of reauthorization. I view breakfast 
as one of the critical gap periods when children struggle to access 
nutritious meals. On school days, almost two-thirds of children who 
participate in the lunch program do not participate in the school 
breakfast program. While School Lunch is served in around 100,000 
schools, the breakfast program is only available in 88,000. A healthy 
breakfast is critically important to educational achievement. No child 
should go without fueling up at the beginning of the day. Innovative 
approaches like breakfast in the classroom have been shown to reduce 
stigma and improve participation rates. This reauthorization is an 
opportunity to reduce stigma and promote participation in the breakfast 
program. The Institute of Medicine's recommendations show that the 
biggest gap between current Federal support and what will be needed to 
support healthy meals is for the breakfast program. I call on Congress 
to increase the reimbursement rate for school breakfasts and combine 
that support with USDA-purchased foods to give more children the option 
of a healthy breakfast. And, I call on K-12 organizations and States to 
work with USDA to aggressively promote the breakfast option and to 
ensure that policies and practices are in place to reduce stigma.
    3. Our efforts to combat hunger cannot end when the school bell 
rings on the last day of the school week or year. More children report 
going hungry during the summer--which is when we see a significant drop 
in participation in our programs. Working with local governments, 
nonprofit organizations and community groups, USDA must continue to 
help bridge the nutrition gap when school is out. We need to encourage 
more schools, community centers and organizations to provide meals 
during the summer, and to increase the number of days they make meals 
available. And we should expand the existing authority of the Child and 
Adult Care Food Program to all 50 states to provide after-school meals 
to at-risk kids. This important program currently provides additional 
nutrition assistance to eligible children in 14 States--it is a 
successful and popular program and there is no reason it should be 
limited to only a handful of States. This reform will increase access 
to another 140,000 school children. I commend Congress for providing 
$85 million in the in the fiscal year 2010 agriculture appropriations 
bill to test innovative methods to improve access to healthy foods 
during the summer. We have already awarded projects to two States--
Arkansas and Mississippi--to test ways of increasing the number of 
sponsors, sites, and children served through the Summer Food Service 
Program (SFSP) with incentives to extend the duration of operations and 
funding to support improved enrichment activities. Next summer, we 
expect to award additional state projects.
    4. But no matter how many children we reach, we do them a 
disservice if we are not offering them meals that help them be their 
best. Reauthorization must substantially improve the nutritional 
quality of the meals being served to our children, which plays a 
central role in the First Lady's effort to solve childhood obesity in a 
generation. The recent Institute of Medicine study commissioned by USDA 
sounded an alarm about the nutritional value of school meals. The study 
concluded that our children are eating too much sugar, salt, and fats 
and too few fruits, vegetables, whole grains, and low fat dairy 
products. This mix may help explain why one half of the calories 
consumed by children ages 6-11 in this country are ``empty'' calories. 
USDA is working as aggressively as possible to implement the Institute 
of Medicine recommendations to better align our meals with the Dietary 
Guidelines, but we also know that the improved foods will increase 
costs for local schools. The very same Institute of Medicine report 
showed that increases in reimbursement rates, training, school 
equipment, and technical assistance will be necessary to implement this 
package. This assistance is critically important if we expect schools 
and school food service professionals to successfully implement the new 
standards and our enhanced expectations for the program.
    That is why I am calling on Congress to improve meal quality by 
increasing reimbursements for schools that meet the new nutritional 
standards and providing funding for equipment upgrades and additional 
training. We must empower our schools to take important steps toward 
enhanced nutrition. Higher reimbursement rates, tied to performance, 
will help schools purchase the whole grains, fruits, vegetables, and 
low fat and fat-free dairy products that our children need to grow 
strong and healthy. At the same time, Congress should provide USDA with 
the tools we need to ensure that the reimbursements we are providing 
for schools are being used appropriately for the program, so that all 
kids have access to healthy meals. And, it is our responsibility to 
work together with schools to ensure they are serving the most 
nutritious meals possible.
    Recognizing that many schools do not have the equipment in place to 
improve food selections, our hope is that Congress will build upon the 
investments in equipment made by the American Recovery and Reinvestment 
Act and the FY10 appropriations act, and provide funding to improve 
school kitchens so schools can provide meals that meet the Dietary 
Guidelines and offer fresh fruits and vegetables. At the same time, we 
should create a credentialing program for school food service 
directors, and support school food service providers with resources for 
the critical training they need to do their jobs.
    5. The reauthorization effort should ensure that all foods served 
in schools are healthy and nutritious. A 2006 study showed that outside 
the cafeteria, children are three times more likely to be able to 
purchase cookies, cakes, pastries, and high fat salty snacks than 
fruits or vegetables. Foods served in vending machines, the a la carte 
line, and other school settings should not undermine our efforts to 
enhance the health of the school environment. That is why USDA must 
have the capacity to set standards for all foods sold in schools. It 
does not mean the end of vending machines in schools--it just means 
filling them with nutritious offerings to make a healthy choice the 
easy choice for our nation's children. Though many in the media have 
portrayed this as an area of conflict, I will tell you that I have 
heard nothing but broad support for efforts to establish standards for 
food sold in schools. From food service professionals to the National 
PTA to the food industry, there is support for this authority, and it 
is an essential component of the reauthorization bill.
    6. We also believe that every lunchroom ought to double as a 
classroom--and that schools should be challenged to make meals a 
learning experience. That is why it is important for us to build on the 
step taken in the 2004 Reauthorization bill to establish school 
wellness policies in every school by strengthening the requirement and 
raising the standard. Schools should work in consultation with parents 
to develop and implement a strong wellness policy centered on healthy 
eating, nutrition education and physical activity.
    7. Making sure that parents and students have correct and complete 
nutritional information about foods being served in schools must be 
part of the reauthorization effort as well. With better information and 
simple assessments, parents will know what is available in their 
child's cafeteria and can better assist their children in making the 
right nutritional choices. And, in addition to transparency, we also 
need to work on being smarter about how we serve food: Steps as simple 
as putting the fresh fruit in a more prominent place in the cafeteria 
can help kids eat healthier. And we should promote new approaches based 
on the most recent research.
    8. Strengthening the link between local farmers and school 
cafeterias must also remain a priority in this legislation. Supporting 
farm-to-school programs will increase the amount of produce available 
to cafeterias and help to support local farmers by establishing 
regular, institutional buyers. Many schools have found farm-to-school 
programs an important component of nutrition education and I call on 
education leaders and our State and local partners to embrace farm to 
cafeteria programs and school gardens.
    9. Guaranteeing the integrity of the nutrition programs remains 
central to a credible reauthorization. We should fund periodic studies 
to eliminate erroneous payments in the meals programs. Support for new 
technology will help schools avoid inaccuracies in eligibility 
determinations, and maintain the confidence that our help is provided 
to those who truly need it.
    In his first year in office, President Obama pulled us back from 
the brink of the greatest economic crisis since the Great Depression 
and worked to lay a new foundation for economic growth. He identified 
three key strategies to building that lasting prosperity: innovation, 
investment, and education. All three strategies require the next 
generation to be the healthiest and best educated in our history. The 
health of our nation--of our economy, our communities, and our national 
security--depends on the health of our children. We will not succeed if 
our children are not learning as they should because they are hungry, 
and cannot achieve their dreams because they are unhealthy.
    When our future was on the line after World War II, our nation's 
leaders understood the importance of well-fed and healthy youngsters. 
We would do well to remember that lesson today, and to act on it once 
again.
    Again, I would like to thank the Committee for the opportunity to 
appear before you this morning to discuss the reauthorization of the 
USDA's Child Nutrition Programs and I look forward to answering any 
questions that you may have.
                                 ______
                                 
    Chairman Miller. Thank you very much, Mr. Secretary, and 
certainly thank you so much for your leadership on these issues 
of child nutrition and the health of our children.
    As one who was pretty deeply involved in the health care 
debate, no matter whether I met with doctors or insurance 
companies or academics on the issue of our national health 
status, the question of childhood obesity, the question of how 
that then moves to adult onset illnesses, both in children and 
later in those children as adults, if they don't adopt a 
healthier eating pattern, as a major driver of health care 
costs was just explained over and over and over and again.
    And you see some of the larger health organizations 
struggling, including corporations, trying to get people to 
adopt a wellness policy, a healthy lifestyle policy, a dietary 
policy, an exercise regime, all of those things combined 
together, because we now know--and whether it is the business 
community or families trying to push--that those are the 
drivers, the big drivers in that cost.
    And yet we have the--as you point out--the ability to--with 
these children in this lunch program to not only feed them 
better and healthier, but also to give them information so they 
will understand what it means to them as they grow up and to 
their families.
    One of the questions I wanted to raise with you is, 
obviously, we are trying to use all our resources as best we 
possibly can. And as we go through and we look at the various 
programs that are on campus at any given time, between free and 
reduced-price lunches and paid meals and a la carte services 
and how costs get apportioned out, I just would like you to 
talk a little bit--that you have looked at that, USDA has 
looked at the relationship between paid meals and subsidized 
meals, and what you can tell us about that. Because I think 
there is a growing concern that perhaps the a la carte line and 
the paid meals are really infringing upon some of the costs 
that we would use for the free and reduced price meals.
    Secretary Vilsack. Well, Mr. Chairman, first of all, let me 
acknowledge the obvious, which is that schools are struggling 
because of state and local budgets and their own budgets. And 
so oftentimes what you see is the food budget, obviously, being 
in place where they look to either gain resources or to 
increase opportunities.
    We have taken a look at the issue of paid meals and 
recognizing the importance of making sure that every youngster 
has a fair shake. What we found is that about 80 percent of our 
reimbursement rate is the cost of a paid meal.
    In other words, school districts put out about 80 percent 
of what we reimburse for a meal for paid meals, which would 
suggest to us that there is some degree of subsidization 
between what we are providing to the free and reduced lunch 
program and what is being provided generally on the paid meal 
side.
    And, you know, that raises the question that you all will 
have to answer, in terms of whether or not that is a fair 
allocation of resources and whether that is appropriate. If you 
decide that there needs to be a rebalancing of this, obviously, 
I think you will take a look at trying to do this over a long 
period of time so that whatever adjustments are made are 
reasonable and effective and fair. But right now, there is 
about a 20 percent subsidization that takes place.
    Chairman Miller. That study was done over what population? 
Or was that looking at a number of different districts or 
states or----
    Secretary Vilsack. It was an effort to basically get a real 
sense around the country of how school districts are--I mean, 
we are dealing with over 100,000 school districts, so everyone 
has a slightly different approach. But we tried to get some 
general recognition of the extent of this, and this is what we 
came up with from the study and review.
    And I think it is important also, in terms of the a la 
carte line, that that subsidy gives the school district a lot 
of flexibility, in terms of what it does with that a la carte 
line and in terms of whether or not there are more appropriate 
choices or that, for that matter, choices that aren't as 
appropriate.
    And one of the things we want to do is make sure that there 
is consistency in what is being supplied in the a la carte 
lines, in the vending machines, and in the school lunch program 
so that there is no encouragement of a less nutritious snack or 
a less nutritious meal.
    Chairman Miller. Thank you. I think that that is helpful. 
So you think that that was a fair look across the country?
    Secretary Vilsack. Yes, it was a national sample that 
spanned the 2005-2006 school year.
    Chairman Miller. Just quickly, a local concern. In my area, 
we still--I have a pretty suburban area, but we still have a 
significant number of small farmers. And they are really, I 
think, working now with the University of California at Davis, 
but trying to figure out how they can get their products that 
are grown locally into the local programs.
    We talk about that in this legislation. We try to encourage 
that. But I think it is not just my area. As I travel around, I 
see more and more interest in this and connecting young people 
with how food is produced, but also providing some additional 
market space for those local farms.
    What is your department doing here on----
    Secretary Vilsack. Mr. Chairman, we have a program called 
Know Your Farmer, Know Your Food. It is an effort to try to 
reconnect people with agriculture of all sizes, both smaller 
commercial operations, as well as production agricultural 
operations.
    And part of that program is to create tactical teams. We 
call them tactical teams. There are 15 of them right now, and 
we are having these teams go out to 15 different school 
districts and work with them to encourage them to have a better 
understanding of what is grown and raised in their area.
    We find that there are schools that are interested in 
potentially linking up with local producers, but don't know who 
they are, don't know where they are, don't know what they 
produce, and don't know how to go about creating the quantity 
necessary to be able to do this on a regular, consistent basis. 
We are providing that kind of assistance and help.
    We are also using our rural development resources to the 
extent that we can to create the supply chain infrastructure--
the slaughtering houses, the warehousing, the cold storage 
facilities--that are necessary to congregate enough product so 
schools, as I say, have a consistent supply.
    This is extremely important, because the rest of the 
country has got to reconnect with what farmers and ranchers do 
for them every single day. We have an extraordinary story here 
of success in agriculture that is often underappreciated, and 
it gives all the rest of us tremendous flexibility in terms of 
our take-home pay, because we spend so little for food than 
other developed nations and developing nations.
    So this is extremely important, not only to improve the 
quality of the meals, but also to reconnect people with their 
food supply.
    Chairman Miller. Thank you very much.
    Mr. Kline?
    Mr. Kline. Thank you, Mr. Chairman.
    Mr. Secretary, thank you again for being with us today. It 
is sometimes confusing to people across America and perhaps 
even us here--we are the Education Committee, and we have got 
the Secretary of Agriculture here, and so there are a lot of 
complicated ways we try to get at things.
    One thing that is not really complicated is we do have 
solid bipartisan agreement that these child nutrition programs 
are not only worthwhile, they are important, they are 
essential.
    But as I said in my opening remarks, there are concerns on 
both sides of the aisle, by many members of Congress, and I 
think by the American people that we don't have enough money to 
do everything we want to do.
    And so I have been hearing from the folks in the Minnesota 
Farm Bureau, for example, and most of them have kids. They are 
living on farms. They are very concerned about these programs. 
They are interested in farm to school and all of that.
    But they are looking at suggesting out of the Senate that 
in order to pay for this, you take $2.5 billion out of the 
Environmental Quality Incentive Program, EQIP, and they are not 
happy about that.
    That is something in your jurisdiction, as well. Have you 
got any thoughts about that as a way to pay for this?
    Secretary Vilsack. Well, Representative, this is--you know, 
it is very much like asking me which of my two sons I love the 
most.
    Mr. Kline. Exactly.
    Secretary Vilsack. And these are difficult issues. But let 
me say on the conservation side that I think it is important 
for us to be able to adequately fund conservation, but to do it 
in a way where we can justify to the taxpayers that resources 
are being spent appropriately and wisely.
    I am thinking of the audit that was recently done of NRCS 
suggesting that perhaps we would sort of outpace the capacity 
of the personnel at NRCS to adequately monitor and adequately 
provide oversight in some of these programs. So what we are 
trying to do is match up appropriately the personnel that we 
have and the capacity that we have to do things right in terms 
of conservation.
    Having said that, you know, we are obviously anxious and 
interested in preserving as many of those dollars as we can. 
There may be other areas in our budget which I am more than 
happy to sit down and visit with folks about. There may be 
other places in the large federal budget that might be 
available.
    The bottom line from my perspective is that I can't think 
of anything more important than getting this done this year. So 
if we have got to figure something out within our budget, if we 
are given a target, a directive from Congress, we are more than 
happy to assist in trying to figure out how this gets paid.
    This is extremely important. And I don't underestimate the 
difficulties of your job here. And I absolutely understand the 
whole issue of deficits.
    I was a governor. I dealt with balanced budgets for 8 
consecutive years. It is not easy to do.
    Having said that, if we don't do this, this year, this is 
not going to get any easier. It is going to get much, much 
tougher in the future, and there will be 1 more year of delay 
in terms of improving the quality and nutritional value of what 
we are feeding our children.
    The Institute of Medicine study was a wake-up call for me, 
Representative. I mean, it was a wake-up call suggesting that 
we are not doing right by our kids.
    So I am committed to finding the resources wherever that 
might be and making sure that we do it in a fair and equitable 
and balanced way.
    Mr. Kline. So I think what I heard out of that is that 
taking the $2.5 billion from EQIP is probably okay with you. Is 
that right?
    Secretary Vilsack. I don't think--I think it would not be 
fair to say it is okay, because there may be--you know, $2.5 
billion, $1 billion, $500 million, $250 million, not from EQIP, 
from some other program, I think the point of this is, you give 
us a target, you basically say to us this is the target that we 
have to--we have to meet in order to get this bill through the 
process, and we will work with you to find that resource.
    Mr. Kline. Actually, I agree with that, and that is the 
point. We need to figure out what that target is--right now, it 
looks to be close to $8 billion--and make those decisions now 
before we push this legislation through out of this committee 
and onto the floor. We need to make those decisions.
    And a lot of it is going to come back on your committee--I 
mean, on your department. There is just no question about this. 
This is a suggested $2.5 billion. You are suggesting maybe 
there are other places inside of Ag where we ought to be 
looking for ways to pay for this bill.
    And it is going to be tough for all of us. I just think we 
need to be doing it now and making those tough decisions now 
and not pushing this thing through unpaid for.
    Secretary Vilsack. Here is one concern I have about that. 
This was some months ago. There was another proposal that we 
had where we offered up a series of offsets from our budget to 
try to fund it. What happened was, the proposal that was 
beneficial to USDA didn't get passed through the Congress, but 
the offset was taken for something else.
    So with due respect, Representative, let's make a deal 
here.
    Mr. Kline. Let's make a deal. [Laughter.]
    Secretary Vilsack. We get this through the committee, we 
get it on the floor, we will help you find the resource.
    Mr. Kline. All right.
    I yield back, Mr. Chairman.
    Chairman Miller. I thank you.
    Mr. Courtney?
    Mr. Courtney. Thank you, Mr. Chairman.
    And thank you, Mr. Secretary, for being here today.
    First of all, I just want to say that, you know, this 
committee has established its credibility in terms of pay-fors, 
pay-as-you-go budgeting. When we passed the Student Aid and 
Fiscal Responsibility Act, about $700 billion in new financing 
for Pell Grants, and for helping students with lower interest 
rates, we paid for every penny of it by reducing wasteful 
spending, in terms of bank loan origination fees.
    So I agree with Mr. Kline that this has got to be a paid-
for measure. Under our PAYGO rules, it has to be. And I think 
everybody on this side of the aisle certainly recognizes that 
and acknowledges that.
    But on the other hand, we also have to make sure that we 
get the policy right. We have an epidemic of obesity in this 
country. The military's advice about readiness, in terms of 
young people for our--and I serve on the Armed Services 
Committee--is clearly an indication that we are not getting it 
right now and we have to make necessary changes.
    One comment that you made regarding beverages during your 
opening remarks is that low-fat milk is something that your 
department recognizes as a component of trying to get to a 
balanced, healthy meal for kids that--in breakfast and lunch.
    And I was wondering if you could comment on that. We are 
obviously seeing in the last 20 years, it is exactly the same 
time that obesity rates are climbing, that the consumption of 
soda by young teenagers is now twice as much as milk, low-fat 
milk in schools. It was reversed approximately 20 years ago. 
And I just wonder if you could maybe embellish a little bit on 
those comments.
    Secretary Vilsack. Well, you know, I think, Representative, 
it is important for us to distinguish between, as they say, 
everyday foods and sometimes foods. And I think basically milk, 
low-fat milk is an everyday food. It is nutritionally dense, 
which means that you get more bang for your caloric buck, and I 
think it is important for us to continue to look for ways in 
which we can make sure that our calorie intake is appropriate 
and that we get the kind of nutrition we need from calories.
    The problem with some of our school programs is that there 
are a lot of empty calories associated with what is available 
to youngsters, and therefore it adds to the obesity issue, and 
it doesn't necessarily give them the kind of energy that they 
need to be able to be good students.
    At the same time, we also want these youngsters to be 
physically active. That requires strong bones. It requires 
nutrition that matters. And so low-fat milk is one way of us, 
together with whole grains, fruits and vegetables, that we can 
improve these programs.
    We are asking for the capacity to provide consistency in 
the schools by basically taking a look at what is available in 
the vending machines and what is available on the a la carte 
line and make sure that we are sending the right set of 
messages.
    If families want pop or soda to be available to their 
youngsters as a treat, there is no problem with that. But on a 
day-to-day regular basis, on an everyday basis, we want to make 
sure that they get adequate supplies of wholesome, nutritious 
food. And low-fat dairy is certainly one of the ways to do 
that.
    Mr. Courtney. Well, thank you. And I think, you know, Mr. 
Miller's comment about trying to strengthen the farm to 
cafeteria connection with school lunches, I mean, obviously the 
dairy component is a place that, from Maine to California, you 
can, I think, find almost school district that opportunity.
    In addition, I just would note that a number of us have a 
Healthy Milk and Dairy Choices in Schools Act, which would 
encourage a low-fat cheese meals, pizza, which obviously is, 
you know, number one, I think, across the board, as a way, 
again, of trying to introduce healthy consumption of dairy, 
again, on a low-fat basis. And hopefully you will take a look 
at that as one of the changes we can maybe make to this 
legislation.
    Lastly, I just wanted to say, the requirement for 
eligibility, the test which is now 50 percent eligibility for 
school lunch, the bill proposes lowering that to 40 percent in 
rural areas. I would just say, from a state like Connecticut, 
you know, we would like to, you know, see if we can get 
involved in that 40 percent threshold, as well, because there 
are a lot of school districts that are being excluded right now 
with that 50 percent threshold, which in historic terms is a 
higher standard and excludes more kids than certainly in the 
past. And, again, I hope that is a piece that we can work with 
the department to try and make more across the board.
    And with that, I would yield back, Mr. Chairman.
    Chairman Miller. Thank you.
    Mr. Castle?
    Mr. Castle. Thank you, Mr. Chairman.
    And thank you, Mr. Secretary, for being here and for your 
wisdom in this area. And I agree with you on almost all of what 
you are saying.
    But I have one problem I would like to ask you about. I 
don't know, you know, what your knowledge in the area is, but 
in Delaware, in my schools, I have gone to the schools. I 
remember one particular school I went to, and they were very 
proud of how they were meeting all the nutritional standards, 
et cetera.
    And then at the end of the food line, they had a series of 
other choices that were not particularly nutritional, shall we 
say. And the kids see--and I just watched it for a while, and 
the kids seemed to be taking from that.
    My question to you is not what is in this bill and not what 
you necessarily enforce in the Department of Agriculture, but 
how it is carried out in the schools. We have good nutritional 
people in Delaware and that kind of thing, but my impression 
is--and not just the vending machines, but even in the 
cafeteria lines there are offerings that are not as healthy as 
is in this legislation or as you would advocate or as any 
health nutritionist would advocate.
    Can you tell me what oversight you have--and I am not 
saying we have to demand what people serve or whatever--what 
oversight you have or what guidance you have, as far as schools 
are concerned, in terms of what they are actually serving and 
what children are actually eating in the schools.
    Secretary Vilsack. Well, Congressman, we want to establish 
a set of standard that are consistent with the Institute of 
Medicine study so that that gives school districts an 
understanding and appreciation for precisely what they need to 
be focused on, which is making sure that these calories count, 
and making sure, as I have said before, that they change the 
mix of what is available.
    We also think that this bill provides additional resources 
for training and equipment. Oftentimes, schools want to do the 
right thing, but because of budget cuts in the past or because 
of decisions made in the past, they may not have the equipment 
necessary to provide steamed vegetables, for example, but they 
may have fryers that makes French fries more readily available, 
that type of thing.
    And we also want to make sure that youngsters and parents 
have better information about what is actually being served. I 
mean, our view is that if you educate parents and you educate 
youngsters about the choices that they have to make that they 
are going to make the right set of choices more times than not 
and that they are going to demand and request of the school 
board and of the school administrators that there be a better 
mix or better, more appropriate menu for youngsters.
    Right now, in some schools, you just don't know how many 
calories you are consuming. And I think youngsters are becoming 
much more astute to this, and there has been a lot of 
discussion because of the First Lady's Let's Move initiative a 
lot of conversation nationally about this.
    We have got, as you will see in your next panel, major 
chefs, personalities who are very engaged in food--engaging 
themselves in local school districts to try to help educate.
    And then, finally, we want to make sure that folks have 
information available to them that will help them improve the 
choices they make, in terms of menus. We can do a much better 
job of providing information to schools about how to basically 
stretch that food dollar, to come up with innovative and 
creative ways to make vegetables and fruits and so forth 
delicious and appealing.
    And so there are a whole series of things that we can do to 
significantly improve, by providing standards, by providing 
equipment assistance, by providing training, by providing more 
information to children and parents.
    Mr. Castle. But do your--I don't know if agents are the 
right word--but either people who work for your department or 
others have any oversight of what is actually happening in the 
schools? Or has that all become local, once they get their 
equipment and they get their dollars or whatever it may be, or 
does--I mean, who is actually monitoring to see if the things 
that we are talking about and we put in the legislation that we 
passed 6 years ago and we are going to pass again are actually 
occurring?
    Secretary Vilsack. Well, we have within our food and 
nutrition service the capacity to check and make sure that 
folks are living up to the standards. You know, obviously, 
there are over 100,000 school districts, which means that there 
are many, many, many different places that have to be looked 
at.
    So I think the candid answer is that we have got to rely 
heavily not just on our own resources, but on the capacity of 
local school administrators to understand the significance of 
this and the importance of it.
    Candidly, I think food for many was a revenue source, and 
we need to change that mindset a bit to, hey, this is an 
important part of the school day. You have got to do it right 
if you want your youngsters to perform well.
    I mean, if we are going to hold people accountable for 
results, then nutrition is part of what we should be holding 
them accountable for. And by providing parents more 
information--I will tell you--I don't know about your 
experiences--but as I travel and talk to parents, they are very 
engaged in this issue. There is an understanding, a basic 
understanding we have got to do a better job.
    Mr. Castle. Well, my time is up.
    Chairman Miller. Mr. Loebsack?
    Mr. Castle. I yield back, Mr. Chairman.
    Chairman Miller. Thank you.
    Mr. Loebsack. Thank you, Mr. Chair.
    And first of all, I did want to thank the chairman for 
working with me to make sure that we incorporate some 
provisions into this bill that I have offered on direct 
certification and expanding access to nutrition programs. So I 
really do appreciate that, Mr. Chairman, for your incorporation 
of those provisions into the bill.
    And, Mr. Secretary, it is still hard for me not to think of 
you as my governor. It is really wonderful to see you here 
today. I really appreciate all the great work you are doing on 
this.
    I do want to also at the outset just talk a little bit 
about the fiscal issue. We are all concerned, obviously, at the 
moment about whether we can pay for this and how we are going 
to pay for this. But I think all too often in this body we 
think in short term. We have a short-term perspective as 
politicians, especially trying to get re-elected every 2 years.
    We have to think, obviously, right now, about the fiscal 
issues that are confronting this, but I think that, when you 
talk about and others talk about how this is a long-term issue, 
especially as it relates to chronic diseases, preventing 
chronic diseases, when we talk about health care costs, long-
term health care costs, I think it is really critical that we 
think not in the short term, and I think that is what you are 
advocating today, as well.
    This is an investment that we can make in the short term so 
that we can actually save a lot of money, I think, in the long 
term by preventing the development of chronic diseases, so it 
is a health care issue, and it is a fiscal issue, but not just 
in the short term--in the long term, as well.
    This is an issue near and dear to my heart, first of all, 
in terms of access, because as somebody who grew up in poverty 
myself, I am very determined to make sure that all those kids 
out there in America who deserve to be in this program get into 
this program. That is why I offered the direct certification 
legislation.
    So it is very important to me, and I have gone around and 
talked to a number of folks and a number of schools in my 
district over the course of this spring and into the summer.
    And I think there is so much that we can do here. You have 
already talked about, sort of, how complex this problem is and 
this issue is.
    If you would just elaborate a little bit more, this is 
really the only issue that I want to discuss with you today, 
although it may take the form of a follow-up, we will see. But 
you talked about the role of agriculture, and both traditional 
and non-traditional.
    A lot of my friends are involved in community-supported 
agriculture in Iowa. And you are very aware of what that 
program is. That is part of the farm-to-school effort or could 
be part of the farm-to-school effort.
    Can you talk to us, elaborate a little bit about 
traditional, as well as non-traditional agriculture, and the 
contributions that those two sectors can make to making sure 
that we have good, quality food in our schools?
    Secretary Vilsack. Sure. Well, I mean, I think it is 
important to recognize that all sides of agriculture 
contribute. There are--I am just thinking of your congressional 
district, of which I am quite familiar, because my home area is 
there.
    I mean, there are turkey producers, for example, in your 
district, in your congressional district. There is no reason in 
the world why those producers can't be providing lean, low-fat 
protein for school lunch programs.
    What we may need is to make sure that there is a supply 
chain available. We may make sure that--need to make sure that 
school districts that are maybe 50 miles away from those 
producers understand and appreciate that turkeys are being 
raised in Henry County, Iowa, in the southeastern part of the 
state of Iowa. They may not know that.
    The same thing may be true for pork, opportunities there 
for production agriculture to participate, but we need to make 
the connection. People just aren't thinking about that. And we 
need to make sure that we have, as I say, the supply chain.
    On the other hand, you have got folks who are transitioning 
some of their property to orchards, to vegetable production 
systems. They, too, need to be connected. And there I think the 
key is to make sure that there is sufficient numbers of them so 
that school districts have some predictability and consistency 
that they can rely on.
    I think the benefit that they currently have under the 
system is that they can order fruits and vegetables. They may 
travel 1,000 miles to get to them, but they know that they will 
always have a supply.
    Mr. Loebsack. That is right.
    Secretary Vilsack. And here, the growing season--depending 
upon the growing season--there may be some limitations. But, 
again, consistency is important.
    And then making sure that the safety issues are addressed, 
so it is about setting up a system and an infrastructure which 
we are prepared to do and anxious to do. We want to reconnect.
    It is also--as the chairman indicated--encouraging schools 
to have their own gardens. These are tremendous learning 
experiences and opportunities. I mean, it is amazing what a 
science teacher, a math teacher, an environmental teacher can 
do with a small garden, and it is amazing to see children's 
reaction when that tomato occurs or when that green bean is 
picked or that pea is consumed, and they see it in the lunch 
line. They have a sense of pride and ownership.
    So there are a multitude of ways in which we can do this 
and should be doing it. And if we do it right, all parts of 
agriculture can be connected and benefit. And most importantly 
of all, then the rest of us can better understand and 
appreciate exactly what our farmers and ranchers do, whether 
they are small commercial operations or very, very large 
production agriculture operations, they are providing something 
extraordinary to us.
    And, you know, candidly, they are very underappreciated, in 
my view, in this country.
    Mr. Loebsack. Thank you so much.
    Thank you, Mr. Secretary.
    And thank you, Mr. Chairman.
    Chairman Miller. Congresswoman Biggert?
    Mrs. Biggert. Thank you, Mr. Chairman.
    And, Mr. Secretary, thank you for being here. One thing 
that is very important to me and I think goes along with the 
nutrition--and I think there is something in this bill to 
complement the nutrition--and that is physical education.
    And I come from Illinois, which is the only state that 
mandates P.E. every day. And I think all of the people from the 
other states are amazed at that, but I have continued to push 
for that since I was in the state legislature, because I think 
it has to go hand in hand with the nutrition, if we are going 
to solve this problem.
    But my question really is about the--is not about that, but 
that is just my commercial.
    In your estimation, about how many schools would be 
required to change their menus to comply with these new 
standards? I know I have gone into my schools, too, and they 
have really been working hard to provide the nutrition, but 
then they will have kind of that backup of probably low-
nutrition calories and foods that the kids will pick up because 
they won't try the others.
    Secretary Vilsack. Well, I think, first of all, if I can 
respond to your commercial, I think you are absolutely right. I 
think people would be surprised how few schools actually have 
any kind of recess or physical education component on a regular 
basis, and that is important.
    It is one of the reasons why we have teamed up with the NFL 
and the Dairy Council to the Fuel Up to Play 60 program, to get 
kids outdoors and active for 60 minutes a day.
    I think it is fair to say that every school will be 
impacted by this legislation and about what we are trying to do 
here. Every school will be challenged to re-think what they are 
doing and how they are doing it.
    For some schools, it may be a very small adjustment. For 
some schools, it may be a fairly significant shift. But we want 
to be there to be of help and assistance in making that shift.
    Again, it is important for all the reasons we have talked 
about before. I mean, educational achievement, I will tell you, 
personally I know what it is like when you are overweight and 
you are in a school and you are made fun of. I mean, that was 
my early life, and I--you know, I didn't perform as well.
    You know, I have told this story before. I can remember 
when my fourth-grade teacher accused me of not being able to do 
a math problem because I was fat. I mean, that still sticks 
with me today, and that is quite a few years ago, right?
    So this is really important for every school to understand 
the significance of this period of time in the school day, and 
I think, you know, we sort of ignored this for a long time. And 
fortunately, as a result of your work and as a result of the 
First Lady's work and of a lot of other people, we are finally 
putting the focus back on this important time during the school 
day. So I think every school is going to be impacted by this.
    Mrs. Biggert. Thank you.
    Then, you know, as a former school board president, I was--
I have always been a fierce defender of local control. And if 
the bill passes, how will you ensure the flexibility to provide 
meals based on local tastes and preferences?
    For example, years and years ago, I volunteered for the 
Head Start program one summer. It was the first year of the 
program. And I was in an area in Chicago that was completely 
Hispanic, and I can remember that they would bring in the food 
for the kids, and it had, you know, nothing to do with their 
culture.
    And so for a week, the food would be there, and the kids 
wouldn't eat it. I mean, they were afraid to eat it or 
whatever, but finally, after a week, they said, ``Well, this is 
silly,'' and they brought in food that was part of their 
culture.
    So will these standards focus on, you know, just--will they 
have the flexibility for the cultures?
    Secretary Vilsack. Well, I think they will. In fact, I am 
confident that they will.
    For example, when we say more fruits and vegetables, while 
it would be terrific if every school district all year round 
had access to fresh fruits and vegetables, the reality is that 
there are many school districts where that won't be the case 
because of weather.
    And so we don't preclude frozen fruits, frozen vegetables 
from being used or canned fruits and vegetables. The point of 
this is getting that back into the mix.
    I don't think we are so prescriptive that local tastes, 
local culture would be ignored. In fact, we would hope that 
they would be integrated in the education component of this.
    I mean, every culture has wonderful food. And the diversity 
of it is what makes this really exciting. And every culture has 
the capacity to provide nutritious meals consistent with the 
culture, so I don't think this is about prescribing that you 
have to eat, you know, so many items from a list of things. It 
is basically, here are the standards from a caloric standpoint 
and from a--you need more fruits and vegetables and whole 
grains. How you get that mix is going to be up to you.
    Mrs. Biggert. Thank you.
    I yield back.
    Chairman Miller. Thank you.
    Mr. Kucinich?
    Mr. Kucinich. Thank you very much, Mr. Chairman.
    Secretary Vilsack, thank you for your commitment and for 
the chairman's--I want to thank the chairman for his commitment 
in this very important socioeconomic issue and health issue.
    We know that the Centers for Disease Control has estimated 
that one-third of children are obese or overweight. And we also 
know that, according to the American Public Health Association, 
that at current obesity rates, obesity will add nearly $344 
billion to the nation's annual health cost by 2018.
    Now, Franklin said a penny saved is a penny earned, while 
billions saved would be billions earned when we look at a very 
aggressive effort at targeting the root causes of childhood 
obesity.
    And, Mr. Chairman, I ask unanimous consent to include the 
following scholarly articles in support of this legislation. 
The first is ``Crisis in the Marketplace: How Food Marketing 
Contributes to Childhood Obesity and What Can Be Done About 
It.'' This reviews scientific literature that documents food 
marketing to children is massive. It expands in number of 
venues, such as product placement, videogames, the Internet, 
cell phones. It is composed almost entirely of messages for 
nutrient-poor, calorie-dense foods and having harmful effects.
    I ask unanimous consent to submit that.
    Chairman Miller. Without objection, that will be part of 
the file of this hearing. Thank you.
    [The information may be accessed at the following Internet 
address:]

        http://edlabor.house.gov/documents/111/pdf/publications/
                      20100701hearingarticle2.pdf

                                 ______
                                 
    Mr. Kucinich. Thank you. From the International Journal of 
Behavioral Nutrition and Physical Activity, a research article 
on television viewing, computer use, obesity, and adiposity in 
U.S. preschool children. It says that, in U.S. preschool 
children, 2 hours a day of TV or video is associated with a 
higher risk of being overweight or at risk for overweight and 
higher adiposity.
    There is another--without objection, Mr. Chairman, if that 
could be in--another one, television viewing, fast food 
consumption, and children's obesity, speaks to a number of 
studies that have examined the association between children's 
hour TV viewing or the fast food consumption and childhood 
obesity. And it says the government should encourage the food 
industry to limit TV advertising with less healthy food items 
or junk foods targeted to children.
    Finally, a scholarly article on fast food restaurant 
advertising on television and its influence on childhood 
obesity. It cites the 1997 National Longitudinal Survey of 
youth to estimate the effects of television fast foot 
advertising on children and adolescents with respect to being 
overweight. It says a ban on these ads would reduce the number 
of overweight children ages 3 to 11, and a fixed population by 
18 percent would reduce the number of oversight adolescents 
ages 12 to 18 by 14 percent.
    It says the elimination of tax deductibility of this type 
of advertising would produce smaller declines of between 5 
percent and 7 percent in these outcomes. These are all the UC 
matters, Mr. Chairman.
    We are aware, Mr. Secretary--and I know you have worked 
closely with the First Lady in the announcement of the White 
House Task Force on Childhood Obesity and the report to the 
President--that pointed out that food and beverage advertising 
to children is a big business and is a primary contributor to 
childhood obesity and calls for a shift away from marketing 
unhealthy foods to children.
    The Institute of Medicine in 2004 estimated that 
approximately $10 billion was spent on food advertising 
directed at children. So you have the federal government 
actually helping to contribute to this preying on children by 
granting a tax write-off for expenses associated with this 
advertising.
    And I know so much of this discussion is going to come down 
to budget issues. And we know that marketers and advertisers 
spend billions of dollars a year to research the developmental 
vulnerabilities of children, to exploit those vulnerabilities, 
and they do it because it is extraordinarily profitable for 
them to do so.
    So, Mr. Secretary, do you think it is fair that taxpayers 
should subsidize that marketing and advertising like they are 
now? And I would ask if you would be congenial to studying H.R. 
4310, which actually amends the IRS code to protect children's 
health by denying any deduction for advertising and marketing 
directed at children to promote the consumption of food at fast 
food restaurants or foods that are poor nutritional quality and 
to re-channel that money--it could be as much as $10 billion--
into paying for this program?
    Mr. Secretary?
    Secretary Vilsack. Representative, in terms of the 
advertising issue, our focus has been working with the Federal 
Trade Commission to basically figure out how to better educate 
the marketplace and better educate all of us about what is 
appropriate in terms of advertising, what is appropriate in 
terms of directing information to youngsters.
    I mean, our focus here has been primarily on an education 
component. We are working, for example, with ``Sesame Street'' 
and the workshop to focus on early childhood and young parents, 
to get them a textbook, if you will, or a manual for how they 
might be able to make better decisions for their children with 
better information. It is in both English and Spanish. It was 
distributed to 3 million WIC mothers.
    That is the kind of thing that we are focused on. We are 
focused on making sure that we use PSAs to focus on the dietary 
guidelines that we are in the process of reviewing. And by the 
end of this year, we will probably have revisions to those. We 
will be aggressively promoting that through the media.
    We are working on making sure that we use our SNAP-Ed 
program to, again, better educate parents, particularly parents 
who are in that program, of how they might be able to do a 
better job of stretching their dollar.
    So the focus for us is on education. I honestly have not 
had a chance to look at your bill. I would be more than happy 
to look at it. And it probably wouldn't be appropriate for me 
to comment on it without looking at it, but I will tell you 
that we are focused on this issue, at least from the standpoint 
of an educational component of it.
    Mr. Kucinich. Thank you, Mr. Chairman. I look forward to 
working with you to find the money to fund this program.
    Chairman Miller. The gentleman's time has expired.
    Mr. Guthrie?
    Mr. Guthrie. Thank you, Mr. Chairman.
    Thank you, Mr. Secretary. This may get a little bit off the 
subject, but it is tied to it. And it is tied. It is a 
different committee's jurisdiction, but the issue we are 
looking at is kids--and I like what the chairman said, was we 
have to educate kids, because when we educate kids, they got 
their parents--picked on their parents for smoking and things 
like that, and that is perfect.
    The problem is--or bigger problem, after they leave school, 
they are with their parents. You know, it is--and a lot of us 
have philosophical problems with trying to tell parents how to 
raise their kids.
    But the one thing that your department does do that we have 
spent taxpayer money on--I always say, if you take the dollar, 
then you should take the implications of it--is with the food 
stamp program. And I paid my way through--well, high school, I 
didn't pay my way through high school, but summer college, 
before I went to military, working in grocery stores, and back 
then you had the old paper dollar, so you really couldn't put a 
lot of restrictions on food stamp purchases, because it would 
just be difficult for the retailer to do.
    But now with the cards and the swiping and so forth, is 
there talk about--when I was--I mean, you would see sugar 
drinks, you would see potato chips, you would see things bought 
with food stamps that would go home for the kids to eat and the 
families to eat, where we could make them have fresh 
vegetables, fresh--you know, I am not saying you don't do, you 
know, canned corn, but tying more nutritional value to the food 
stamp program that would help these kids when they go home? 
Because not every reduced lunch has food stamps. I know that. 
But some of them do.
    Secretary Vilsack. Well, part of the challenge is, even 
though we have got electronic benefit cards available to many 
of the SNAP recipients, and even though we are trying to 
encourage them to use them at farmer's markets to access fruits 
and vegetables, the problem is that there are over 300,000 
items in grocery stores across the country, and another 12,000 
new items are introduced every single year in grocery stores.
    I mean, you used to be able to go to the store and get a 
box of Triscuits and that is what you got was a box of 
Triscuits. Well, now there are 48 varieties of Triscuits. And 
so there is an operational issue here.
    Secondly, there is no indication that even if you were to 
create some kind of system, and even if it were somehow 
feasible to do it, that that would necessarily result in those 
items not being purchased. It is possible that the small amount 
of discretionary income that those folks have would be used for 
those purposes.
    And then, finally, how do you distinguish between the 
family that understands that these are treats and special 
occasion foods and those who don't? I mean, I think--to your 
point, I don't think it is--I think if we educate, we have to 
trust that people will make the right set of decisions for 
their family and for their children.
    You know, I don't know of very many parents who don't 
really at the end of the day want to make what is the right set 
of decisions for their children.
    Mr. Guthrie. Oh, I agree. And I appreciate the difficulty 
of it. I don't think that is the problem.
    But even though they would--and I think they should buy, if 
they choose with discretionary income, snacks, and the kids 
should have snacks. You said it perfectly. You said everyday 
food versus sometime food, and I think sometime food is fine 
for some time, you know, as you said.
    But they could still do that with discretionary. But if 
they were allotted so much money and only could buy fresh 
fruits--and I know the difficulty of----
    Secretary Vilsack. Well, let me say what we are----
    Mr. Guthrie [continuing]. And that they would bring those 
home, because that is what they would be able to buy.
    Secretary Vilsack. Let me say what we are trying to do, 
which is to focus on an incentive-driven program. We are 
taking--by virtue of the farm bill, we are taking resources 
this year and we are challenging states to come up with point-
of-sale incentives to encourage fruits and vegetables, so that 
when you swipe the card and you are buying a head of 
cauliflower, instead of it being $1, which is what the grocer 
will get for that cauliflower, your card only credits you 70 
cents. You get a 30 percent discount, if you will, if you buy 
fruits and vegetables. It is a way of encouraging them to 
stretch the dollars.
    Then when you add to that the educational component of, 
``Here is how you can use nutritious food to stretch your food 
dollar and do the right thing for your family,'' the 
combination of those two things, I think, could potentially be 
powerful in getting people to make the right set of choices 
with those SNAP resources.
    Mr. Guthrie. And I agree. And I am going to yield back, 
because I am almost losing time anyway, because we need to 
focus on this, but that would have the same technological 
issue. If you could do that technologically, you could do the 
other, as well, couldn't you?
    Secretary Vilsack. Well, except that there is----
    Mr. Guthrie. There are fewer items----
    Secretary Vilsack [continuing]. You are only talking about 
a few items. That is----
    Mr. Guthrie. I will yield back, because I know we need to 
get back on this----
    Chairman Miller. We are going to send you two guys to the 
lab to work this out.
    In the meantime, Congressman McCarthy has time.
    Mrs. McCarthy. Thank you, Chairman Miller. And thank you 
for having this hearing.
    And welcome, Mr. Secretary. I am the chairwoman on the 
Subcommittee on Healthy Families and Communities. And we have 
actually been working on this for a number of years, and I want 
to thank, certainly, my chairman for having a number of our--my 
standalone legislation going into 5504.
    Let me say one thing. When Nancy Pelosi was made Speaker of 
the House, the day she got her gavel, she said that--and she 
brought all the children up that were there and said that my 
administration and her work here would have to do with 
children.
    And, as one of my colleagues said, we will find the money, 
because we can't afford not to find the money. My background is 
as a nurse and a number of years ago the Pediatric Association 
came out and said that children from the age of 13 to 16 
basically had arteries of those who were 40, 45 year old.
    Our military has already said that our young people are not 
fit to come into the military. As far as I am concerned, this 
is a national security--because if we don't have a healthy 
country for the future, we cannot certainly be a productive 
country.
    So with that being said, again, I want to thank George 
Miller. We had introduced the Food Marketing in Schools 
Assessment Act, and it calls for the Secretary of Agriculture 
to conduct a study on the extent and types of marketing of 
foods and beverages in elementary and secondary schools.
    One of the things that my other colleague had mentioned 
that--we have a couple of model programs in my district. And it 
is not like the--you know, we are going to go in and say, 
``Okay, you have got to change all your whole food program 
here.''
    What the schools have done--and it took them a year--was 
introduce one side of a peanut butter and jelly sandwich with 
white bread and the other side with whole wheat. And over a 
year's time, all of the other junk food kind of things that 
they would eat were gone, and the kids really, really enjoyed 
it. It is an educational program.
    One of the things that is also in the bill is the 
Breastfeeding Support Act, mainly because we find that, if we 
can educate women to breastfeed, their children are actually 
off to a much better start.
    The Start Healthy Habits Early Act, commonsense action by 
establishing nutrition requirements for childcare, because that 
is where we want to get, the youngest children in the 
beginning, and to also educate the parents, and the Partnership 
for Wellness Act, which we can do all the nutrition that we 
want, but if we don't have physical activity that goes with it, 
and there are so many great programs.
    Again, in my district, we have five models from 
kindergarten all the way to fifth grade, and the children 
exercise 10 minutes a day, 3 times a day. They don't waste that 
time. The kids could not do it when they first started the 
physical program at their--you know, next to their desk.
    One of our hospitals came up with a great program, so it is 
an educational piece, also, while they are exercising. Those 
that are in third grade now can do more than 10 minutes 3 times 
a day, so we know that this works.
    We, as the responsibility of this committee, certainly for 
the future, take this very seriously. And I certainly want to 
thank Mrs. Obama for bringing national attention to this.
    I just wanted to ask you a question. On the next panel, in 
the testimony of one of the witnesses, basically states that 
there is little or no evidence suggesting that government 
spending on child nutrition programs can be a cost effective 
means of reducing overweight and obesity. Instead, reducing 
consumption of low--energy-dense foods may be promising means 
to limit weight gain among children.
    I think people are missing the point, and I guess I would 
like your opinion on that.
    Secretary Vilsack. Well, when you realize that many 
youngsters in this country today get one and possibly two meals 
of the three that they get or perhaps only the two meals that 
they get in a school setting, and you realize that there are 
some studies that suggest that there is a significant number of 
empty calories that are currently being provided in some of our 
schools in breakfast and the school lunch program, it is hard 
for me to understand how we couldn't have a positive impact on 
this if we altered and structured this with more fruits and 
vegetables and whole grains and low-fat dairy and less fat, 
less sodium, and less sugar.
    I mean, it just seems to me common sense that you are going 
to have some impact and effect on this. If you also provide an 
educational component, then these youngsters will begin making 
more informed decisions for themselves outside of school and, 
as you say, physical education is extraordinarily important. It 
is one of the reasons why we think 60 minutes a day of physical 
activity is really important for youngsters.
    We want kids to get outdoors. They spend 6 to 7 hours in 
front of a TV and a computer screen. They could get plenty of 
computer time. That is fine. But they also need to get outdoors 
and need to reconnect with Mother Nature.
    So the combination of those things, I think, can and will 
have an impact. And then if you educate parents and if you 
start early with the WIC program and with the SNAP program and 
with some of the things that we are doing, breastfeeding, as 
you outlined, all of those things cumulatively will have a 
tremendous impact.
    And if we--we raise this to a point where youngsters 
realize that it is part of their commitment to their country--
you know, I remember being raised in the 1960s when John 
Kennedy said physical fitness was part of what students were 
supposed to do. It was part of our responsibility to our 
country.
    It is what Harry Truman recognized when the school lunch 
program was established. So with due respect to scholarly 
studies, I think it will have an impact, and I think it will 
make a difference. And I will tell you, if it makes a 
difference in one child's life, it is important.
    Mrs. McCarthy. Looking forward to working with you.
    I yield back the balance of my time.
    Chairman Miller. Mr. Thompson?
    Mr. Thompson. Thank you, Mr. Chairman, Ranking Member.
    Secretary Vilsack, good to see you. Just different to see 
you outside the realm of the Ag Committee, where we normally 
get together, and very proud of the fact that sitting before me 
is the former Iowa Governor and the Secretary of Agriculture 
who got a start in Pennsylvania.
    Secretary Vilsack. That is right.
    Mr. Thompson. I want to just thank you for your support of 
nutrition. Obviously, nutrition is extremely important. It is 
an underpinning for health and wellness, which leads to 
prevention, and that is the most cost-effective care that we 
can provide, obviously, is prevention, when it comes to disease 
and illness.
    And I also really appreciate your commitment for assisting 
with the offsets. And I say assisting because I know what an 
impact $8 billion would have on the agriculture budget. For 
what agriculture provides, you know, for what--it is very cost-
effective for what we invest in it.
    And wearing two hats, this committee and obviously the 
Agriculture Committee, the fact that production agriculture 
really provides us the quality and the affordability of food is 
fundamental to the nutrition of all Americans. We are blessed 
with what we have in this country.
    So I am confident, as you work with us, to find the $8 
billion offsets, and we need to do that. That is the right 
thing to do, that we will keep that in mind, the importance of 
production agriculture and make sure that we are doing our best 
to continue to provide--meet the nutrition needs of everyone.
    You had talked about some of the national partnerships on 
nutrition, which were really interesting, the NFL, Dairy 
Council, very exciting. My question is, when it comes to the 
USDA nutrition programs, have you reached out to organizations 
such as the National School Board Association, that really 
represents those who truly have the governing responsibility in 
our schools, in terms of either education or advocacy or, you 
know, preparing those policy--the ones that really are the 
policymakers. That is the local elected school board members.
    Is that something USDA has done or are there plans to do 
that?
    Secretary Vilsack. We have made an effort to reach out to 
anybody and everyone who might have a connection with this 
particular issue to see if we could get them to support this 
effort, from school administrators to school boards, to folks 
who are responsible for the food preparation in schools to 
teachers.
    Everyone in the school system--and by that, I include the 
school board members--understand and appreciates the importance 
of nutrition in terms of educational achievement.
    You cannot learn if you are hungry. You cannot learn if you 
are worried about your self-image. And the reality is, we have 
got too many kids in both of those categories, and one way we 
can address that is by passing a bill that provides significant 
resources to change the direction of our school lunch and 
school breakfast programs.
    I am concerned, Representative, that we have over 100,000 
schools participating in school lunch, but only 88,000 
participating in school breakfast. What do we need to help 
those additional 13,000, 14,000 schools to get into the school 
breakfast program? Because you know and I know, that is really 
important. Youngsters have got to have a good start.
    And how do we create a system where school breakfast 
doesn't create a stigma? You know, everyone goes to the 
cafeteria for school lunch. Not everybody goes or needs school 
breakfast. So if you have it in the cafeteria as opposed to the 
classroom, are you creating the kind of situation where you are 
discouraging kids from participating?
    So these--it is a set of complex issues, and it absolutely 
requires everyone, from the teacher, the food preparation 
folks, to the school board to be engaged.
    Mr. Thompson. All right. With the USDA proposed nutrition 
programs, I mean, the past year-and-a-half, I don't know what 
the total is, but I think the ranking member actually in his 
opening remarks really covered well the amount of just 
tremendous--billions of dollars in investments we have made 
related whether it was a stimulus or the patient protection 
care act.
    And much of that--a lot of that was slated at nutrition. 
Have we assessed--do we have mechanisms in place to assess how 
effective those--obviously, some of those have not been 
implemented yet, but some of those have gone into operation. 
Have we assessed the baseline of what difference those have 
made?
    I think that--to me, that seems to be important 
information, as we look at a new bill that looks at investing 
$8 billion, to make sure we know where the baseline is, in 
terms of need, and we have done a tremendous amount of 
investment up to this point. I think measuring that 
effectiveness to know where we truly are in a baseline seems to 
be important.
    Secretary Vilsack. Well, the stimulus resource was 
primarily in three categories. It was additional support for 
WIC, which I think this committee is well aware of. It was 
additional SNAP payments. And it was also primarily equipment 
money for schools. And it was a relatively--given the need--a 
relatively small amount in the stimulus that went to school 
districts for upgrading their equipment.
    If memory serves me correct, for every dollar that we had 
available, there was four or five or six dollars of 
applications. And that is one of the reasons why part of this 
component is to help schools with the equipment needs, because 
if you have a French fryer, but you don't have something that 
can steam or produce vegetables, it just makes it a little bit 
more difficult for you to comply.
    So I am not sure that those resources go to the issue here. 
The issue here is, how do we help school districts be able to 
afford the cost of fruits and vegetables, recognizing that 
there may be some additional costs associated with those items?
    They may be a little bit more expensive than some of the 
processed food that can be purchased that is high in calories, 
has high fat content, high sodium, sugar, and so forth. So I 
think it is sort of apples and oranges here.
    We have invested the resources and equipment. We know that 
that is making a difference, but it is a very small part of a 
very large set of issues that we are dealing with here.
    Mr. Thompson. Okay, thank you.
    Chairman Miller. It is the intent of the chair to go--we 
now have a vote on the floor of the House, to go as deep into 
this vote as our little legs will carry us and not to miss it.
    So next I have Ms. Titus, Mr. Cassidy, hopefully back to 
Ms. Chu, but when we do leave for the vote, I--the Secretary 
will be done. I will not ask him to wait through the vote to 
come back.
    And then as soon as we come back from the vote, we will 
begin with our next panel.
    Ms. Titus?
    Ms. Titus. Thank you, Mr. Chairman.
    Mr. Secretary, in the remarks that you have made over the 
past year regarding the Obama administration's priorities for 
reauthorization of this act, you have noted that you are 
concerned that too many low-income children lack access to food 
when school is out, when they go home on the weekend or during 
the holidays or during the summer.
    This is certainly a problem in southern Nevada. We have got 
45 percent of the schoolchildren who rely on free lunch. That 
is why I am pleased that a bill that I have sponsored is part 
of this act. It is called the Weekends Without Hunger Act, has 
22 bipartisan co-sponsors of it.
    It would establish a 5-year pilot program. In that program, 
we would provide commodities to eligible institutions like 
schools or food banks that could do backpacks that you could 
take--children could take home over the weekend, and that would 
help to feed them, be sure they get their nourishment when they 
are not at school, where they depend so much on those meals.
    I just wonder if you would comment on that, if you would be 
supportive of that kind of program.
    Secretary Vilsack. Representative, that is a very important 
component of this. You know, we can do everything right for 5 
days, but if we don't do everything right for 7 days, we may 
not get it right.
    The sad reality is that there are a lot of youngsters who 
are living in families where they are not necessarily going to 
get nutritious snacks and/or meals during the weekend. And then 
they come to school very, very hungry and not able to perform.
    So programs like the one you are talking about that will 
help us bridge that gap are important. It is equally important 
for us to focus on the summer months, which is one of the 
reasons why we are working hard to take resources that are 
available to us to create demonstration projects to try to 
figure out where the best practices in the country are.
    There are a number of communities that are doing this, and 
we need to make sure that we get the best practice models out. 
We need to engage the faith-based organizations. We had a 
meeting with them recently, how they can help and assist us in 
bridging these gaps, very, very important.
    And so my hope would be that we do make a commitment to 
programs like the one that you are sponsoring.
    Ms. Titus. Well, I appreciate that. In southern Nevada, we 
have Three Square that is doing a good job. It is just that in 
these economic times, when they depend on charitable 
contributions, sometimes they can't spread their resources as 
far as they are needed, so some support would be helpful.
    Secretary Vilsack. We have seen food banks very, very 
stretched during this difficult time.
    Ms. Titus. Thank you.
    I will yield back.
    Chairman Miller. Mr. Cassidy?
    Mr. Cassidy. Thank you, Secretary Vilsack.
    I am going to follow up with where Mrs. McCarthy spoke of. 
I am not advocating these positions, but I think intellectually 
we have to consider it.
    It does seem the more money we put at food stamps, the more 
money we put at this program, the worst nutritional outcomes we 
get. I mean, empirically, our kids are heavier now than they 
used to be, as we are putting more money towards food stamps 
and more money towards school nutrition programs.
    I think when you were in--I forget if I said this--when you 
were in Ag Committee and we were discussing the Food Stamp 
Program, but I keep on thinking of the Pogo quote, ``We have 
met the enemy and he is us.''
    So how would we--you know, it is a correlation. It may not 
be causal, but it still seems to be a correlation. What would 
be your response to someone pointing out that the evidence is, 
the more money we put here, the worse results we get?
    Secretary Vilsack. Well, I think it is a combination of a 
lot of things. Part of it is the fact that we are asking 
schools to do a tremendous amount, and it makes it more 
difficult for them to squeeze the time out of the school day 
for physical education. That is clearly an issue.
    We have got to get our kids more physically active. That is 
why the First Lady's initiative is very important.
    And I think more schools are recognizing that. I think that 
getting the relationships with the NFL and the Dairy Council to 
heighten the awareness of folks about this.
    I think, secondly, it is how we use our food dollars. It 
isn't so much the fact that we have increased the resources, 
that we have increased the resources because food costs have 
gone up, doesn't--but now what we need to do is make sure that 
people understand how they can stretch those dollars more 
effectively and get more nutritional value out of those 
dollars, and that hasn't necessarily been part of the equation 
until recently.
    Mr. Cassidy. Is it possible that the more federal control 
we put in there, the less--and going back to what Ms. Biggert 
said--the more federal control we put in there, the less--the 
more hidebound the program becomes, the less able it is to 
adapt to local circumstances, buy local foods, for example.
    Secretary Vilsack. I don't think so. I think basically what 
we need to be able to do is have a set of guidelines and a set 
of standards that everybody understands are important. I mean, 
when you have got an Institute of Medicine study that says you 
have got too much sodium, too much salt, too much sugar in what 
we are feeding youngsters, then it is pretty obvious that we 
need to do a better job of reducing those and increasing fruits 
and vegetables and whole grains.
    The problem is that there are resource issues associated 
with that. When you have more fruits and vegetables and whole 
grains and you want to integrate more fresh fruit and 
vegetables and more local products, there can be a cost 
associated with that, which is why we are asking for some 
additional resources here.
    My sense is that we are approaching this in a much more 
comprehensive and cohesive way. Instead of bits and pieces, 
this is a holistic approach to this. It is about physical 
education. It is about bridging the gap between weekends and 
summer. It is about making sure that fruits and vegetables and 
whole grains are associated with the diets. It is about 
education of parents and students. It is about providing the 
local producers an opportunity to engage. It is about expanding 
significantly the knowledge of how you can do a better job of 
making and preparing food that is more nutritious.
    And it is about making sure that the country understands 
that national security is an issue, health care costs in the 
future an issue, educational achievement is an issue. And we 
haven't really talked about the fact that there are still 
500,000 to 600,000 youngsters who are living in families where 
they absolutely don't get fed at some point in time during the 
month.
    Mr. Cassidy. Well, there is a little bit of a discordance 
here, because we are speaking concomitantly of obesity and 
hunger. Now--and I--you know, I mean, you mentioned that, and I 
have no doubt that there are kids who go to school hungry, but 
I have to admit, you know, every time I hear that we have an 
obesity problem and everybody is going hungry, how do you 
reconcile those two?
    Secretary Vilsack. Well, the hunger and obesity may have 
the same parent. I think if you study both of them, you are 
going to find that there is a correlation between low-income 
families that are trying the best they can to take care of 
their children and stretch scarce food dollars by focusing on 
foods that are processed, foods that are, you know, bulk, if 
you will, and youngsters who are just flat-out not getting fed 
because their parents don't have the resources to feed them.
    Mr. Cassidy. I am not quite sure I follow. Obviously, if 
somebody is eating red beans and rice, they can eat a very, you 
know, full meal. And so--now, if you want to say there is a 
correlate between poor food decisions and obesity and poverty, 
I will accept that correlate, but since we are integrating 
these two as a rationale, I am still not----
    Secretary Vilsack. It is not so much poor decisions as it 
is we need to do a better job of educating folks about the 
decisions that they make and give them an understanding that 
there is a way in which they can stretch those food dollars 
more effectively and still not compromise the nutritional 
quality and value of what they are feeding their youngsters.
    I mean, it is hard for parents. I mean, parents are working 
a couple jobs, you know, part-time jobs.
    Mr. Cassidy. Well, I accept that.
    Secretary Vilsack. There is also the issue of----
    Mr. Cassidy. I accept that, but I am still not sure I 
figured out how hunger and obesity are both goals that we are 
achieving here.
    Secretary Vilsack. Well, the hunger issue----
    Mr. Cassidy. I yield back. Thank you very much.
    Chairman Miller [continuing]. Mr. Cassidy.
    Congresswoman Chu?
    Ms. Chu. Thank you, Mr. Chair.
    Secretary Vilsack, I appreciate your comments regarding the 
prices charged to children who don't qualify for the free or 
reduced-price meals, and you referred to the study that found 
that the average charge for paid lunches is approximately 75 
cents less than the federal reimbursement for free meals.
    Now, on the surface, there is a simple logic to asking 
families who can afford to pay it to pay at least the full cost 
of the meal that they are receiving. At the same time, there is 
an argument to be made that many families at 185 percent of the 
poverty line can't even afford these subsidized prices for 
these paid meals, and that is particularly true in areas like 
Los Angeles, which is an area I represent, where the cost of 
living is well above the national average.
    So given these competing interests, how can we balance 
protecting the financial solvency of the free and reduced lunch 
program with the needs of school districts to price meals so 
that they are affordable for all families in a school district, 
considering the variation and the cost of living across this 
country?
    Secretary Vilsack. Well, you know, we are not--I don't know 
that there is a great deal of data that will tell us precisely 
what the impact will be if you were to adjust over time a more 
equitable distribution between paid meals and the federal 
reimbursement.
    In other words, if we ask some of those parents to pay more 
over time, I don't know that we necessarily know that there 
will be less participation or families will find it difficult 
to afford it, depending upon how we phase this in and how we do 
it.
    I think at the--on the other end, if we are trying to 
improve the capacity for all of these youngsters to have a 
better opportunity, then there obviously has to be some degree 
of equity in the system. And whether it is competitive foods 
that are being subsidized by the free and reduced program or 
whether it is the paid meals that are being subsidized, I think 
there needs to be some rebalancing here, but doing it in a fair 
way and doing it in appropriate way and making sure that we are 
sensitive to folks who are sort of on the bubble.
    A substantial percentage of the folks--a majority of the 
folks we are talking about are probably at 300 percent or more 
of poverty that would be impacted by this, and they might--that 
is a--you know, a family of four is about $66,000, so they may 
be able to afford just, you know, a little bit more, but I 
think we need to be sensitive in terms of how we address this 
and how we phase it in, if this is ultimately the decision you 
make.
    Ms. Chu. In fact, can you give me a sense of the diversity 
of prices that schools are charging for paid meals, why they 
are charging the different prices, and what that means for the 
quality of food offered? And is there any school district that 
is charging 100 percent of the subsidized price that the 
federal government pays?
    Secretary Vilsack. You know, I don't know the answer to 
that question. If I can have permission to get you a written 
response to that, I will be happy to. I am sure that there are 
schools that are doing the right thing and have the right 
balance. Today, as I testify, I can't give you a school 
district, but we will find them for you.
    Ms. Chu. Okay, thank you.
    I yield back.
    Chairman Miller. Thank you.
    Thank you, Mr. Secretary, for your testimony and for the 
time before the committee and the willingness to respond to 
members' questions. There may be members who have questions who 
are not able to articulate them in this hearing, but we will 
submit them to you, and we would appreciate you responding to 
those questions that the committee would submit.
    With that, the committee will recess for the purposes of 
meeting these votes on the floor. As soon as we return, we will 
begin with our second panel.
    [Recess.]
    Chairman Miller. The committee will reconvene, and thank 
you again for your patience. It is a part of our multitasking, 
voting and trying to hold hearings and cover important 
subjects.
    I want to welcome the second panel. Our first introduction 
will be made by Congresswoman Titus of Nevada.
    Ms. Titus. It is my pleasure and privilege to introduce and 
welcome to our committee today Chef Tom Colicchio. Chef 
Colicchio is a world-renowned culinary chef and restaurateur. 
He has also served as the lead judge on the hit television 
series ``Top Chef,'' and he has cooked at many of the prominent 
New York restaurants.
    Chef Colicchio's talents and skills have been recognized 
with top awards in his highly competitive field. These include 
the James Beard Foundation's Best Chef New York Award, the 2010 
Outstanding Chef Award, as well as the Best New Restaurant 
Award for Craft, his restaurant in New York. And I am proud to 
say that we have one of Mr. Colicchio's restaurant in Las 
Vegas, Craftsteak at MGM Grand.
    Mr. Colicchio's mother worked in a school cafeteria, so he 
has come by his calling in a very natural way. He also learned 
at a very early age the importance of the school lunch program 
and good nutrition for children. As a result, not only is he 
known for his restaurants and his cooking, but also for his 
charity.
    He and his restaurants have given back to the community by 
supporting such charities as Share Our Strength, Children of 
Bellevue, City Meals on Wheels, City Harvest, Pediatric AIDS 
Foundation, HealthRight International, and Groove with Me. I am 
curious to know more about Groove with Me.
    Mr. Chairman, I and the committee thank Chef Colicchio for 
all his good works and for being here to lend his celebrity to 
help us highlight the need for this important legislation to 
promote nutrition and fight obesity among our children.
    Thank you, Chef, for being here.
    Chairman Miller. Thank you, Congressman Titus, for that 
introduction.
    I am going to introduce the rest of the panel, and then we 
will hear from Chef Colicchio as our first witness on this 
panel.
    And welcome to the committee, Mr. Colicchio.
    Robert Rector is well known to this committee. He is a 
senior research fellow on welfare and family issues at the 
Heritage Foundation. Mr. Rector has authored two books and over 
100 articles and research studies on these topics. He joined 
Heritage Foundation in 1984 and previously worked as 
legislative assistant to the Virginia House of Delegates and as 
a management analyst at the U.S. Office of Personnel 
Management. Mr. Rector has served as Commissioner on the 
congressionally mandated Millennial Housing Commission.
    James Weill is the president of the Food Research and 
Action Committee, known on the Hill as FRAC, a leading anti-
hunger public policy group in America. Prior to joining FRAC, 
he was at Children's Defense Fund as program director and 
general counsel. Mr. Weill is also the chair of the board of 
directors of the Alliance for Justice Action Council and is a 
member of the board of OMB Watch and the National Center on 
Youth Law.
    Dr. Eduardo Sanchez is a vice president and chief medical 
officer at Blue Cross Blue Shield of Texas. Prior to this, he 
was the director of the Institute of Health Policy at the 
University of Texas School of Public Health. Dr. Sanchez also 
chairs the advisory committee to the director--to the director 
of the Centers for Disease Control and Prevention and as chair 
of the National Commission on Prevention Priorities. He has 
also served on the Institute of Medicine Committee on Progress 
and Preventing Childhood Obesity and currently serves on the 
Institute of Medicine's Standing Committee on Childhood 
Obesity.
    Major General Paul D. Monroe, Jr., serves as executive 
advisory council on Mission: Readiness, Military Leaders for 
Kids, a nonprofit bipartisan organization of more than 100 
senior retired military leaders. Mission: Readiness was founded 
in 2008 to ensure continued American security and prosperity 
into the 21st century by calling for smart investments in the 
upcoming generation of American children.
    Mr. Monroe is a retired major general, having served 46 
years in the U.S. Army and the California Army National Guard. 
He is a distinguished and decorated Army officer who has 
performed a variety of high-level command and staff positions 
during his career.
    Welcome to the committee. Thank you for taking your time. I 
am sorry for the interruptions and the vote. I think we are 
going to have another vote in a while, but we are going to try 
to make sure we get your testimony in.
    And, Chef Colicchio, we are going to begin with you. As you 
may have heard me explain, when you begin to testify, a green 
light will go on. When you have a minute remaining, an orange 
light, and then you could think about starting to sum up, but 
do it in a manner in which you convey your thoughts and your 
topics to the committee.
    Welcome.
    I am going to have you push your microphone, the----

       STATEMENT OF TOM COLICCHIO, CHEF AND RESTAURATEUR

    Mr. Colicchio. There we go.
    Thank you, Chairman Miller.
    And thank you, Representative Titus, for the introduction.
    My restaurant in Las Vegas also supports Three Square in 
your district, as well, so thank you for doing the work that 
you do there.
    Ladies and gentlemen of the Education and Labor Committee, 
I am here today to express my support for the Improving 
Nutrition for America's Children Act, sponsored by Chairman 
Miller, and to urge you to follow--urge you and your fellow 
representatives to do everything in your power to find the 
funds to push this crucial piece of legislation through.
    I am wearing a few different hats today at this hearing. 
First off, there is my public one. As host and judge of a 
popular television program, I find myself in the slightly 
surreal position of being able to comment on issues of 
importance to me and a public willing to listen.
    I have decided to use this advantage to the millions of 
American children who rely on school, preschool, after-school, 
and summer feeding programs for adequate nutrition, children 
who don't have lobbyists with deep pockets at their disposal 
for advocating on their behalf.
    I am also here as a chef. There was a time when my job 
wasn't public at all. The chef stayed in the kitchen. Early in 
the next morning, they would trawl farmer's markets and stalls 
and fish markets to choose today's food, the day's food. Nobody 
really cared what we had to say, just cared what we did on our 
plates.
    Today that is changed a bit. Chefs are frequently called 
upon to cook at fundraisers or food pantries, food-based 
charities to help meet the needs of those who struggle with 
hunger. As a group, chefs have never been more active and never 
raised more money than we do now, and yet studies show that 
more people are hungry or food insecure in this country today, 
more than any other time in history.
    It is frustrating, and has spurred me to ask a question, 
why? Why in this great country, where we produce enough food, 
are children going hungry every day?
    I am also here as a business owner. At my restaurants, I 
have dozens of employees who work long hours, and I understand 
how urgently many of them need to know that their kids receive 
healthy nutrition at schools and daycare centers where they 
spend a large part of each day.
    It is hard enough to make a living in today's economy. No 
working parent should have to worry whether their child has 
enough to eat.
    I am encouraged that Chairman Miller's bill allows for 
additional meals for children who are in daycare longer than 8 
hours, as so many are, or spending time in after-school 
settings.
    Chairman Miller's bill supports working families. I will 
say that again: This bill supports working families.
    In addition, this bill makes important strides to ensure 
that low-income children don't go hungry during summer months 
when school is out.
    I am also here as a father to 17-year-old, Dante, and to an 
11-month-old, Luka. My children, like children everywhere, are 
more than happy to slurp down junk food with empty calories: 
pizza, sodas, candy, and deep-fried anything. But the fact that 
they would eat this whenever doesn't give me permission to 
shrug my shoulders and say, ``Well, that is what they want.'' 
It is my job as a parent to make sure that they have a variety 
of real, nutritious foods served to them at every meal so that 
they grow into robust, healthy kids capable of meeting their 
full potential in life.
    And yet, I hear people say, ``We would like to improve the 
school lunch program, but the kids, all they want to do is eat 
pizzas and burgers. If we give them good food, they won't 
eat.''
    Come on, people. We are adults here. It is up to us to do 
better. My kids would happily live in front of the Xbox and 
never take a shower for as long as they live, but that is not 
going to happen, either.
    When I give them healthy, delicious food, they eat it with 
gusto.
    On a recent ``Top Chef'' episode, we challenged our 
contestants to prepare healthy, nutritious lunch for 
schoolchildren right here in D.C. What do you know? The kids 
ate it, they asked for seconds, they asked for thirds.
    I am also here as the son of a lunch lady. My mother, 
Beverly Colicchio, worked for decades as a cafeteria supervisor 
in Elizabeth, New Jersey, where I was born. Elizabeth is not a 
wealthy town, and at the high school where she worked, almost 
70 percent of the students qualified for free or reduced-price 
breakfast and lunch.
    My mother told us that often the meals she served those 
kids was the only food they got to eat all day. It was 
upsetting to her that the budgetary constraints imposed by low 
federal reimbursements meant that schools couldn't afford much 
in the way of fresh fruits and vegetables, whole grains, 
legumes, and high-quality proteins.
    The cheapest food, contracted out to the lowest bidder, was 
usually the food that was on the menu, and the kids who ate it, 
and they didn't have a choice or an option of refusing.
    On a diet that may have met the nutritional guidelines 
without being truly healthy and whole, we expect our kids to 
learn, behave, socialize appropriately, and develop into 
healthy teens and adults, and we are quick to label and punish 
them when they don't.
    Without regular exposure to real food--made from whole 
ingredients in a variety of textures, shapes, and colors--these 
children never develop a preference for healthy food and thus 
perpetuate a cycle of poor nutrition that can lead to a 
lifetime of costly, debilitating health problems, like obesity 
and diabetes, not to mention their lost potential as active, 
healthy citizens.
    Schools today are forced to supplement their meager budgets 
with vending machines that supply empty calories from soft 
drinks and junk food. I ask you: How many of here today--how 
many of you here today would be content to let the bulk of your 
children's daily calories come from soda, chips, or branded 
fast food? And yet we are sitting by and allowing that to 
happen for families who are struggling and who rely on us to do 
better.
    As thinking adults, as fellow parents, this is an egregious 
abdication of our responsibility towards kids. And if it is at 
all within our means to fix it--and I believe it is--I urge you 
to make it right now.
    Let's fund school lunch programs and breakfast programs at 
a spending level that significantly raises the quality and 
variety of what schools can afford and get rid of the junk food 
in vending machines once and for all.
    Let's fund healthy snacks and meals in daycare centers and 
after-school programs.
    Let's expand access by broadening area eligibility 
requirements for summer feeding programs and expanding direct 
certifications to eliminate redundant paperwork for families 
and schools.
    There could be no better investment, no better stimulus to 
our economy than feeding this nation's children healthy and 
well. If we give kids in this country delicious, nutritious 
food, we will instill in them a lifetime preference for eating 
healthy that will translate into vast savings in health care 
costs down the line.
    Providing the building blocks for millions of children to 
grow and develop as they should, this will mean a population of 
robust, productive adults and a more competitive America.
    Malnourished kids are not capable of vision and ideas. And 
without that, we are relegating this great nation to a future 
of mediocrity and poor health. I think we could do better, and 
I urge you today to get behind Chairman Miller's bill and make 
it happen.
    Thank you for the opportunity.
    [The statement of Mr. Colicchio follows:]

       Prepared Statement of Tom Colicchio, Chef and Restaurateur

    Ladies and Gentlemen of the Education and Labor Committee: I am 
here today to express my support for the Improving Nutrition for 
America's Children Act sponsored by Chairman Miller, and to urge you 
and your fellow Representatives to do everything in your power to find 
the funds to push this crucial piece of legislation through.
    I'm wearing a few different hats at this hearing today: First off, 
there is my public one; as host and judge of a popular television 
program, I find myself in the slightly surreal position of being able 
to comment on issues of importance to me to a public willing to listen. 
I've decided to use this to the advantage of the millions of American 
children who rely on school, preschool, after-school and summer feeding 
programs for adequate nutrition, who don't have lobbyists with deep 
pockets at their disposal advocating on their behalf.
    I'm also before you as a chef. Once upon a time my job wasn't 
public at all--we stayed in the kitchen cooking, and then early the 
next morning we trolled the farmer's stalls and fish markets to choose 
the day's food. Nobody gave a hoot what we had to say, just what we 
sent out on the plate. Today that's changed a bit, and chefs are 
frequently called upon to cook at fundraisers for food pantries and 
food-based charities to help meet the needs of those who struggle with 
hunger. As a group, we chefs have never been more active and never 
raised more money than we do now, and yet studies show that more people 
are hungry or food insecure in this country today than at any other 
time in history. It's frustrating, and has spurred me to ask * * * why?
    I'm here, too, as a business owner. At my restaurants, I have 
dozens of employees working long hours, often more than one shift. I 
understand how urgently many of them need to know that their kids are 
receiving healthy nutrition at the schools and day care centers where 
they spend a big part of each day. It is hard enough to make a living 
in today's economy; no working parent should also worry whether their 
child has had enough to eat. I am encouraged that Chairman Miller's 
bill allows for additional meals for children who are in day care 
longer than 8 hours, as so many are, or spending time in after-school 
settings. In addition, Chairman Miller's bill makes important strides 
to ensure that low-income kids don't go hungry during the summer months 
when school is out.
    I'm here before you as a father to 17 year-old Dante and 11 month-
old Luka. My kids, like kids everywhere, are more than happy to slurp 
down junk food and empty calories--pizza, sodas, candy and deep-fried 
anything. But the fact that they would eat this whenever doesn't give 
me permission to shrug my shoulders and say, `well, that's what they 
want!' It's my job as a parent to make sure they have a variety of 
real, nutritious foods served to them at every meal so that they grow 
into robust, healthy kids capable of meeting their full potential in 
life. And yet, I hear people say, ``we'd like to improve school lunch, 
but all the kids want to eat are pizzas and burgers. If we give them 
good food they won't eat it'' Come on, people! We're the adults. It's 
up to us to do better. My kids would also happily live in front of the 
Xbox and never take another shower as long as they live. Not gonna 
happen. When I give them healthy, delicious food they eat it, with 
gusto. On a recent Top Chef episode, we challenged our contestants to 
prepare healthy, nutritious lunch for schoolchildren here in D.C. that 
was also delicious. What do you know? The kids ate it, happily, and 
they asked for seconds and thirds.
    I'm also here before you as the son of a ``lunch lady.'' My mother, 
Beverly Colicchio, worked for decades as a cafeteria supervisor in 
Elizabeth, NJ, where I was born. Elizabeth is not a wealthy town, and 
at the High School where she worked, almost 70% of the students 
qualified for free or reduced price breakfast and lunch. My mother told 
us that often the meals she served those kids was the only food they 
got all day. It was upsetting to her that the budgetary constraints 
imposed by low federal reimbursements meant that the schools couldn't 
afford much in the way of fresh fruits and vegetables, whole grains, 
legumes and high quality proteins. The cheapest food, contracted out to 
the lowest bidder, was usually what was on the menu, and the kids who 
ate it didn't have the option of refusing. On a diet that may have met 
nutritional guidelines without being truly healthy and whole, we expect 
our kids to learn, behave, socialize appropriately, and develop into 
healthy teens and adults, and we are quick to label and punish them 
when they don't. Without regular exposure to real food--made from whole 
ingredients in a variety of textures, shapes, and colors--these 
children never develop a preference for healthy food, and thus 
perpetuate the cycle of poor nutrition that can lead to a lifetime of 
costly and debilitating health problems like obesity and diabetes, not 
to mention their lost potential as active, healthy citizens. Schools 
today are forced to supplement their meager budgets with vending 
machines that supply empty calories from soft drinks, and junk food. I 
ask you: how many of you here today would be content to let the bulk of 
your children's daily calories come from soda, chips, or branded fast 
food? And yet, we are sitting by and allowing that to happen for 
families who are struggling and relying on us to do better. As thinking 
adults, as fellow parents, this is an egregious abdication of our 
responsibility towards kids, and if it is at all within our means to 
fix it--and I believe it is--than I urge you now to make it right.
    Let's fund school lunches and breakfasts at a spending level that 
significantly raises the quality and variety of what schools can 
afford, and get rid of the junk food in vending machines once and for 
all. Let's fund healthy snacks and meals in day care centers and after 
school programs. Let's expand access by broadening area eligibility 
requirements for summer feeding programs, and expanding direct 
certification to eliminate redundant paperwork for families and 
schools.
    There can be no better investment--no better stimulus to our 
economy--than feeding this nation's children healthily and well. If we 
give the kids in this country delicious and nutritious food, we will 
instill in them a lifetime preference for healthy eating that will 
translate into vast savings in health care costs down the line. 
Providing the building blocks for millions of kids to grow and develop 
as they should, will mean a population of robust and productive adults, 
and a more competitive America. Malnourished kids aren't capable of 
vision and ideas, and without that we are relegating this great nation 
to a future of mediocrity and poor health. I think we can do better, 
and I urge you today to get behind Chairman Miller's bill and make it 
happen.
    Thank you.
                                 ______
                                 
    Chairman Miller. Thank you.
    Mr. Rector?

STATEMENT OF ROBERT RECTOR, SENIOR RESEARCH FELLOW, WELFARE AND 
             FAMILY ISSUES, THE HERITAGE FOUNDATION

    Mr. Rector. Thank you for the opportunity to be here.
    This hearing is to examine proposals to expand spending on 
school nutrition programs. However, it is misleading to examine 
spending on one or two government programs in isolation. In 
fact, the federal government creates over 71 and funds 71 
different means-tested programs assisting low-income families, 
providing cash, food, housing and medical care.
    Most families that receive subsidized school meals and WIC 
and other programs also receive benefits from many other 
programs. A proposal to expand funding on a single program must 
be examined holistically in the context of the overall growth 
of extraordinary government spending.
    It is therefore important to consider school nutrition 
spending in the context of overall means-tested assistance to 
low-income families with children. In fiscal year 2011, such 
means-tested aid will come to an astonishing $475 billion. This 
is over $30,000 in assistance for each family with children in 
the lowest-income third of the population.
    I have spent my entire career on this type of population 
and this type of spending, and I can tell you, I have 
absolutely no idea where all that money goes. And before you 
propose spending even more money, you ought to at least have a 
reasonable accounting of where this money is currently going in 
70 different programs, all of them going effectively to the 
same population.
    At the same time, the federal budget in fiscal year 2011 
will be--the deficit will be 1.2 trillion, or 8.3 percent of 
the gross domestic product. As the national debt is now raising 
very rapidly toward 100 percent of GDP, it is quite clear that 
we are marching toward natural bankruptcy, and therefore to 
call for additional permanent increases in spending at this 
time in that budget context is extraordinarily irresponsible.
    A few other points I would like to make. There will be a 
lot of talk here about food insecurity. Food insecurity is a 
problem, but among children, it is relatively limited.
    For example, according to the last data we have, about 1 
child in 150 will miss even a single meal in a given month 
because of lack of resources within the family. Also, when you 
go to try to explain why food insecurity is occurring in 
particular families, you have to also explain why other 
families with even less income during the same period do not 
have food insecurity, and there really has been no effort to 
try to understand or explain this.
    I would also say that there is considerable evidence that 
all of the federal nutrition programs, food stamps, the school 
programs, WIC and so forth, are actually associated with 
increased obesity. The evidence on this is mixed, but there is 
a lot of research that goes in that direction.
    And even if you were to take the most positive evidence, 
which would be--on school programs, which would be the 
Mathematica study of the school breakfast program, what you 
find is that that program concluded that school breakfast had 
no effect in reducing obesity, school lunch had no effect. 
School breakfast did have a very modest effect in reducing body 
mass index, but it is equivalent to taking maybe three pounds 
off of a middle school child, and that is not a cumulative 
effect. You have to fund it over and over and over again, year 
after year.
    So what we are talking about there is the most positive 
effect that you could get from that program--and other studies 
show the opposite--but the most positive effect is that you 
would spend up to $4,000 subsidizing school breakfast in a 
population from kindergarten through high school, and the 
effect of that would be that you would get about three or four 
pounds reduction in weight each year non-cumulative.
    That is an extraordinary rate of spending, and I wonder how 
many middle-class parents would be willing to spend $4,000 over 
the course of life of the childhood in order to just take three 
or four pounds off.
    But we will find that is that that kind of empirical fact 
that shows very low effectiveness in any of these programs will 
be put up against grandiose claims about their effectiveness.
    I would say that, in respect to all of these programs, that 
the evidentiary base here is extraordinarily flimsy. In 
particular, in reviewing for this testimony, I was quite 
shocked to find that there are, in fact--even though there are 
continuing claims that school breakfast programs increase 
academic performance, there are, in fact, no studies with 
control groups that show that whatsoever, zero.
    I might contrast that to other programs here in Congress, 
such as the federal abstinence education program, where there 
are--where over 20 studies with control groups, 16 of which 
showed positive effects, and Congress just abolished those 
programs for lack of scientific evidence.
    But here we have a program that has been going for decades, 
not a single scientific study that I could find with a control 
group, let alone with random assignment, showing any kind of 
effect from this program.
    I think that that is not a legitimate basis, and it is 
irresponsible to call for greater spending in these programs 
without a better evidentiary base.
    Thank you.
    [The statement of Mr. Rector follows:]

      Prepared Statement of Robert Rector, Senior Research Fellow,
                        the Heritage Foundation

    My name is Robert Rector. I am a Senior Research Fellow at The 
Heritage Foundation. The views I express in this testimony are my own, 
and should not be construed as representing any official position of 
The Heritage Foundation.
    This hearing is to examine proposals to expand spending on school 
nutrition programs. However, it is misleading to examine spending in 
one or two government program in isolation. Most families receiving 
subsidized school meals also receive benefits from many other programs. 
Proposals to expand spending in a single program must be examined 
holistically, in the context of overall growth of government spending.
    It is therefore important to consider school nutrition spending in 
the context of overall means-tested assistance to low income families 
with children. In FY 2011, such means-tested aid will reach around $475 
billion, or roughly $33,000 for each family with children in the lowest 
income third of population.
    At the same time, the federal budget deficit in FY2011 will be $1.2 
trillion, or 8.3 percent of the gross domestic product. As the national 
debt rises rapidly toward 100 percent of GDP, it is clear that the 
current growth of government spending is unsustainable. In that 
context, calls for long-term increases in spending on school meal 
programs are irresponsible.
Understanding the Means-tested Welfare System
    Since the beginning of the War on Poverty, government has spent 
vast sums on welfare or aid to the poor; however, the aggregate cost of 
this assistance is largely unknown because the spending is fragmented 
into over 70 separate programs. (See the table at the end of this 
testimony for a list of these programs.)
    Even before the present recession, means-tested welfare or aid to 
poor and low-income persons was the third most expensive government 
function. Its cost ranked below support for the elderly through Social 
Security and Medicare and below government expenditures on education, 
but above spending on national defense. Prior to the current recession, 
one dollar in seven in total federal, state, and local government 
spending went to means-tested welfare.
    Means-tested welfare spending or aid to the poor consists of 
government programs that provide assistance deliberately and 
exclusively to poor and lower-income people. By contrast, non-welfare 
programs provide benefits and services for the general population. For 
example, food stamps, public housing, Medicaid, and Temporary 
Assistance to Needy Families (TANF), the Women Infants and Children 
Food program (WIC), the Child and Adult Care Food Program (CACFP) and 
the Summer Food Program are means-tested aid programs that provide 
benefits only to poor and lower-income persons. The free meals and 
reduced price components of the National School Lunch Program (NSLP) 
and the School Breakfast Program (SBP) are also means-tested. On the 
other hand, Social Security, Medicare, police protection, and public 
education are not means-tested; they provide services and benefits to 
persons at all income levels.
    In the typical year, around 71 percent of means-tested spending 
comes from federal funds and 29 percent from state funds. Nearly all 
state means-tested welfare expenditures are matching contributions to 
federal welfare programs. Ignoring these matching state payments into 
the federal welfare system results in a serious underestimation of 
spending on behalf of the poor.
    In FY 2008, 52 percent of total means-tested spending went to 
medical care for poor and lower-income persons, and 37 percent was 
spent on cash, food, and housing aid. The remaining 11 percent was 
spent on social services, training, child development, targeted federal 
education aid, and community development for lower-income persons and 
communities. Roughly half of means-tested spending goes to disabled or 
elderly persons. The other half goes to lower-income families with 
children, most of which are headed by single parents.
Growth of the Welfare State
    Welfare spending has grown enormously since President Lyndon B. 
Johnson launched the War on Poverty. Welfare spending was 13 times 
greater in FY 2008, after adjusting for inflation, than it was when the 
War on Poverty started in 1964. (See chart 1.) Means-tested welfare 
spending was 1.2 percent of the gross domestic product (GDP) when 
President Johnson began the War on Poverty. In 2008, it reached 5 
percent of GDP. Over the next decade, total means-tested spending is 
likely to average roughly 6 percent of GDP.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Annual means-tested welfare spending is more than sufficient to 
eliminate poverty in the United States. The U.S. Census Bureau, which 
is in charge of measuring poverty and inequality in the nation, defines 
a family as poor if its annual income falls below official poverty 
income thresholds. If total means-tested welfare spending were simply 
converted into cash benefits, the sum would be nearly four times the 
amount needed to raise the income of all poor families above the 
official poverty line.
    Since the beginning of the War on Poverty, government has spent 
$15.9 trillion (in inflation-adjusted 2008 dollars) on means-tested 
welfare. In comparison, the cost of all other wars in U.S. history was 
$6.4 trillion (in inflation-adjusted 2008 dollars).
Welfare Spending Increases under the Obama Administration
    Table 1 shows the growth in means-tested spending over recent 
years. In FY 2007, total government spending on means-tested welfare or 
aid to the poor was a record high $657 billion. By fiscal year 2011, 
total government spending on means-tested aid will rise to $953 
billion, nearly a fifty percent increase.

                                    TABLE 1.--GROWTH IN MEANS-TESTED SPENDING
                                            [In billions of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                   Federal
                                                                   Spending      State Spending   Total Spending
----------------------------------------------------------------------------------------------------------------
FY 2007......................................................          $468.7           $189.2           $657.9
FY 2008......................................................          $522.3           $191.6           $714.1
FY 2009......................................................          $612.7           $167.2           $779.9
FY 2010......................................................          $695.3           $192.7           $888.0
FY 2011......................................................          $735.4           $218.0           $953.4
----------------------------------------------------------------------------------------------------------------

    President Obama's increase in federal means-tested welfare spending 
during his first two years in office is two and a half times greater 
than any previous increase in federal welfare spending in U.S. history, 
after adjusting for inflation.
    Supporters of the President's spending might counter that these 
spending increases are merely temporary responses to the current 
recession. But that is not the case; most of Obama's spending increases 
are permanent expansions of the welfare state. According to the long-
term spending plans set forth in Obama's FY 2010 budget, combined 
federal and state spending will not drop significantly after the 
recession ends. In fact, by 2014, welfare spending is likely to equal 
$1 trillion per year.
    According to President Obama's budget projections, federal and 
state welfare spending will total $10.3 trillion over the next 10 years 
(FY 2009 to FY 2018). This spending will equal over $100,000 for each 
taxpaying household in the U.S.
Means-Tested Welfare Spending on Lower-Income Persons
    With more than 70 overlapping means-tested programs serving 
different low-income populations, it is difficult to determine the 
average level of benefits received by low-income persons. One way of 
estimating average welfare benefits per recipient would be to divide 
total means-tested spending by the total number of poor persons in the 
United States. According to the Census Bureau, there were 39.8 million 
poor persons in the U.S. in 2008, the most recent year for which data 
are available. An additional 1.5 million persons lived in nursing 
homes. (These individuals, though mostly poor, are not included in the 
annual Census poverty and population survey.) Total means-tested 
spending in 2008 was $708 billion. If this sum is divided by 41.3 
million poor persons (including residents in nursing homes), the result 
is $17,100 in means-tested spending for each poor American.
    However, this simple calculation can be misleading because many 
persons with incomes above the official poverty levels also receive 
means-tested aid. Although programs vary, most means-tested aid is 
targeted to persons with incomes below 200 percent of poverty. Thus, a 
more a accurate sense of average total welfare spending per recipient 
can be obtained, if total welfare aid is divided among all persons 
within this larger group. Dividing total means-tested aid by all 
persons with incomes below 200 percent of poverty results in average 
welfare spending of $7,700 per person, or around $30,000 for a family 
of four.
Means-tested Spending on Families with Children
    Another way of examining spending levels is to look at welfare 
spending on families with children. In FY 2011, total means-tested 
spending will be $950 billion. About half of this spending ($475 
billion) will go to families with children. (Around one-third of this 
spending will go to medical care.)
    If the $475 billion in welfare spending were divided equally among 
the lowest income one third of families with children (around 14 
million families), the result would be around $33,000 per low income 
family with children.
    In addition, most of these lower-income families have earned 
income. Average earnings within the whole group are typically about 
$16,000 per year per family (though in the midst of a recession, 
earnings will be lower). If average welfare aid and average earnings 
are combined, the total resources is likely to come to between $40,000 
and $46,000 for each lower-income family with children in the U.S. It 
is very difficult to reconcile this level of spending with conventional 
claims that millions of lower-income families are chronically hungry, 
malnourished, or ill-housed.
Food Insecurity in America
    Last November, the U.S. Department of Agriculture (USDA) released 
its annual report on household food security in the United States. 
According to USDA, some 17 million households, or 14.6 percent of all 
households, experienced ``household food insecurity'' at some point in 
2008 and some 49 million people lived in households with some form of 
food insecurity.\1\ Most of these households were low income.
    While these numbers sound ominous, it is important to understand 
what ``food insecurity'' means. According to the USDA, ``food 
insecurity'' is usually a recurring and episodic problem rather than a 
chronic condition.\2\ In 2008, around two-thirds of food insecure 
households experienced ``low food security,'' meaning that these 
households managed to avoid any disruption or reduction in food intake 
throughout the year but were forced by financial pressures to reduce 
``variety in their diets'' or rely on a ``few basic foods'' at various 
times in the year.\3\
    According to the USDA, the remaining one-third of food insecure 
households (around 6 percent of all households) experienced ``very low 
food security,'' meaning that at least once in the year their actual 
intake of food was temporarily reduced due to a lack of funds for food 
purchase.\4\ At the extreme, 1.5 percent of all adults in the U.S. went 
an entire day without eating at least once during 2008 due to lack of 
funds for food.\5\
    Poor children are generally shielded from food insecurity. Around 
one million children, or 1.5 percent of all children experienced ``very 
low food security'' and reduced food intake at least one time during 
2008.\6\ Around one child in 150 missed at least one meal in the 
preceding month due to food shortages in the household.\7\ One child in 
a thousand went a whole day without eating at least once during the 
year because the family lacked funds for food.\8\
    Political advocates proclaim that the USDA reports suggest there is 
widespread chronic hunger in the U.S.\9\ But the USDA clearly and 
specifically does not identify food insecurity with the more intense 
condition of ``hunger,'' which it defines as ``discomfort, illness, 
weakness, or pain * * * caused by prolonged involuntary lack of food.'' 
\10\
Food Insecurity and Obesity
    While temporary food shortages are a concern, what is rarely 
discussed is that the government's own data show, paradoxically, that 
the overwhelming majority of food insecure adults are, like most adult 
Americans, overweight or obese. Among adult males experiencing food 
insecurity, fully 70 percent are overweight or obese.\11\ Nearly three-
quarters of adult women experiencing food insecurity are either 
overweight or obese, and nearly half (45 percent) are obese. Virtually 
no food insecure adults are underweight.
    Food insecure men are slightly less likely to be overweight or 
obese than men who are food secure (70 percent compared to 75 percent). 
But food insecure women are actually more likely to be obese or 
overweight than are women who are food secure (73 percent compared to 
64 percent).
    Thus, the government's own data show that, even though they may 
have brief episodes of reduced food intake, most adults in food 
insecure households actually consume too much, not too little, food, 
over the long term. To improve health, policies must be devised to 
encourage these individuals to avoid chronic over-consumption of 
calories and to spread their food intake more evenly over the course of 
each month to avoid episodic shortfalls.
Eating Too Much, Not Too Little
    Yet most proposed policy responses to food insecurity call for 
giving low-income persons more money to purchase food despite the fact 
that most low-income persons, like most Americans, already eat too 
much. Such policies are likely to make the current situation worse, not 
better. One commonly proposed policy, for example, is to expand 
participation in the Food Stamp program. Participation in the Food 
Stamp program, however, does not appear to reduce food insecurity. 
Households receiving food stamps do not have improved food security 
compared to similar households with the same non-food stamp income who 
do not participate in the program.\12\ Moreover, participation in the 
Food Stamp program does not appear to increase diet quality. Compared 
to similar households who do not receive food stamps but have the same 
non-food stamp income, households receiving food stamps do not consume 
more fruits and vegetables but do, unfortunately, consume more added 
sugars and fats.\13\
    While the Food Stamp program has little positive effect on food 
quality, considerable evidence indicates that the program has the 
counter-productive effect of increasing obesity. For example, a recent 
study funded by USDA found that low-income women who participate in the 
Food Stamp program are substantially more likely to be obese than women 
in households with the same non-food stamp income who did not receive 
food stamps. Over the long term, food stamp receipt was found to 
increase obesity in men as well.\14\ While other research has failed to 
confirm this link between food stamps and obesity, the possibility that 
this program has harmful effects remains quite real.\15\
    Similarly, the research on the relationship between school meal 
programs and obesity is mixed and cautionary. Some research indicates 
that participation in the National School Lunch Program (NSLP) leads to 
higher obesity among young students in kindergarten and first 
grade.\16\ Other studies have found this effect for the School 
Breakfast Program (SBP) but not for the NSLP.\17\
Dispelling Misconceptions
    Developing a rational policy on nutrition and poor Americans will 
require dispelling common misconceptions concerning poverty and 
obesity. For example, one common misconception is that poor people 
become obese because they are forced, due to a lack of financial 
resources, to eat too many junk foods that are high in fat and added 
sugar. According to this theory, poor persons struggle to obtain 
sufficient calories to maintain themselves and are forced to rely on 
junk foods as the cheapest source of calories, but because junk foods 
have high ``energy density'' (more calories per ounce of food content), 
these foods paradoxically induce a tendency to overeat and thereby 
cause weight gain.\18\
    One problem with this theory is that junk foods are not a 
particularly cheap source of calories. For example, soft drinks are 
high in added sugar and are generally associated with weight gain, but 
as a source of calories, brand name soft drinks such as Coca-Cola and 
Pepsi are often more expensive (in terms of calories per dollar) than 
milk. Snack foods such as potato chips and donuts cost two to five 
times more per calorie than healthier staples such as beans, rice, and 
pasta. Financially strained families truly seeking to maximize calories 
per dollar of food expenditure would focus not on junk and snack foods 
but on traditional low-cost staples such as beans, rice, flour, pasta, 
and milk. These foods are not only less expensive but actually have 
below-average energy density and therefore a lower potential to promote 
weight gain.\19\
    In reality, poor people are increasingly becoming overweight for 
the same reason that most Americans are becoming overweight: They eat 
too much and exercise too little. Like the rest of America, the poor 
appear to eat too many high-fat foods and foods with added sugars, but 
they do this for the same reason the average American over-consumes 
these foods: They are highly palatable. While it would be desirable for 
poor people (like all Americans) to drink fewer soft drinks and eat 
more broccoli, simply expanding the Food Stamp program and other 
nutrition programs would not accomplish that goal.
Child Nutrition Programs and Childhood Obesity
    As noted, research on the effects of school meal and child 
nutrition programs on children's weight is mixed, with some studies 
showing harmful effects. The most positive study of the effects of 
child nutrition programs on children's weight was conducted by 
Mathematica Policy Research.\20\ This analysis found that participation 
in the National School Lunch Program had no overall effect on 
children's weight, but participation in the School Breakfast Program 
(SBP) did have positive effects.
    The study found that participation in the school breakfast program 
had no impact on obesity per se, but did reduce the average body mass 
index (BMI) of students. The research concluded that the BMI of full 
time participants in the School Breakfast Program (SBP) was 0.75 lower 
than the BMI for similar non-participating students. This BMI reduction 
is equivalent to 3 to 4 pounds for a middle school student.
    Unfortunately, the cost of the SBP (around $325 per student per 
school year) is quite large when compared to the weight loss achieved. 
This means it costs over $300 per student to produce a weight reduction 
of three to four pounds. Moreover, this weight reduction is neither 
permanent nor cumulative. A student must participate in the SBP in each 
subsequent year in order to maintain the small effect.
    The full cost for a student to participate in the SBP each year 
through primary and secondary school would be over $4,000. While the 
Mathematica study suggests that participating students may weigh a few 
pounds less in each year, $4,000 is a high price to pay for that modest 
impact. One wonders how many middle class parents would pay more than 
$4,000 so that their child could weigh a few pounds less during primary 
and secondary school. One wonders, as well, whether there are more cost 
effective means to achieve this same result.
Limiting School Distribution of Low Nutrient Energy Dense Foods
    One promising alternative is simply to limit the amount of low 
nutrient energy dense (LNED) foods, such as soft drinks, candy, chips 
and french fries that schools provide or make available to students. 
There is accumulating evidence that the consumption of LNED foods may 
lead to weight gain among children and youth. A logical response is for 
local schools to limit the amount of LNED food offered to students. 
(There should be no limit on the choices parents make in providing food 
for their children.) Changing the composition of foods offered by 
schools may have positive results on children's weight and would not 
impose added costs on the taxpayer.
    A great many schools are already adopting this sort of policy. What 
is needed here is flexibility and experimentation. There is, no need 
for mandatory national standards, nor for the U.S Congress to assume 
the role of national ``cookie czar'', dictating food policies for local 
schools. Such a usurpation of power would be unwise and unwarranted.
Conclusion
    Fiscal policy with respect to the poor must be viewed holistically. 
It is misleading to examine a few nutrition programs in isolation as if 
no other aid were given to low income children. This is particularly 
important since financial resources are fungible within each household. 
One extra dollar in government spending on food and child nutrition 
programs for a family will rarely result in one extra dollar of food 
expenditure by the family. Instead, the main effect may be to displace 
cash spending on food within the household.
    The federal government operates 71 different means-tested aid 
programs, providing cash, food, housing, medical care, and social 
services to poor and low income families. In FY2011, government will 
spend around $475 billion on means-tested aid for families with 
children. This amounts to over $30,000 for each low income family with 
children. At the same time, the federal budget deficit in FY2011 will 
be $1.2 trillion, or 8.3 percent of gross domestic product. The nation 
simply cannot afford the current level of spending. In this context, 
the call for even more funding for school nutrition programs is 
unsupportable.
    Moreover, there is little or no evidence suggesting that government 
spending on child nutrition programs can be a cost effective means of 
reducing overweight and obesity. Instead, reducing consumption of low 
nutrient energy dense foods may be a promising means to limit weight 
gain among children. Schools can accomplish this by limiting the amount 
of such food they provide to students. This can be accomplished without 
added costs to taxpayers. The implementation of such policies should be 
determined by local schools and should not be mandated by the federal 
government.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                endnotes
    \1\ Mark Nord, Margaret Andrews, and Steven Carlson, Household Food 
Security in the United States, 2008., ERR-83 U.S Department of 
Agriculture, Economic Research Service, November 2009
    \2\ Ibid., p. 9.
    \3\ Ibid., p. 4.
    \4\ Ibid.
    \5\ Ibid., p.45.
    \6\ Ibid., p.7.
    \7\ Ibid., p. 47.
    \8\ Ibid,p.42.
    \9\ See Food Research Action Council, ``Hunger in the United 
States,'' January 17, 2007, at www.frac.org/html/hunger--in--the--us.
    \10\ Nord et al., ``Household Food Security in the United States, 
2008,'' p. 52.
    \11\ The shares of food secure and food insecure individuals who 
are underweight, overweight, and obese was calculated using body mass 
index (BMI) data and food security data from the 2003--2004 National 
Health and Nutrition Examination Survey (NHANES). The BMI cutoff points 
for underweight, normal weight, overweight, and obese were calculated 
using the BMI ranges for adults as reported by the Centers for Disease 
Control. Specifically, an adult with a BMI of less than 18.5 is 
underweight; between 18.5 and 24.9 is within the normal weight range; 
between 25 to 29.9 is considered overweight; and at or above 30 is 
obese. See Centers for Disease Control, ``National Health and Nutrition 
Examination Survey,'' November 2007, at www.cdc.gov/nchs/nhanes.htm, 
and Centers for Disease Control, ``About BMI for Adults,'' May 22, 
2007, at www.cdc.gov/nccdphp/dnpa/bmi/adult--BMI/about--adult--BMI.htm.
    \12\ Craig Gunderson and Victor Oliveira, ``The Food Stamp Program 
and Food Insufficiency,'' American Journal of Agricultural Economics, 
November 2001.
    \13\ Parke E. Wilde, Paul E. McNamara, and Christine K. Ranney, 
``The Effect of Income and Food Programs on Dietary Quality: A 
Seemingly Unrelated Regression Analysis with Error Components,'' 
American Journal of Agricultural Economics, November 1999.
    \14\ Charles Baum, ``The Effects of Food Stamps on Obesity,'' U.S. 
Department of Agriculture, Contractor and Cooperator Report No. 34, 
September 2007.
    \15\ Michele Ver Ploeg, Lisa Macino, Biing-Hwan Lin, Food and 
Nutrition Assistance Programs and Obesity:1976-2002, ERR-48, U.S 
Department of Agriculture, Economic Research Service, September 2007.
    \16\ Diane Whitmore Schanzenbach, ``Do School Lunches Contribute to 
Childhood Obesity?'' Chicago Illinois, Harris School Working Paper 5-
13, October 2005.
    \17\ D.T. Millimet et al., ``School Nutrition Programs and the 
Incidence of Childhood Obesity,'' IZA DP:3664, Bonn Germany, August 
2008
    \18\ Adam Drewnowski and S.E. Spencer, ``Poverty and Obesity: The 
Role of Energy Density and Energy Costs,'' American Journal of Clinical 
Nutrition, January 2004, pp. 6--16.
    \19\ Barbara Rolls and Robert A. Barnett, The Volumetrics Weight-
Control Plan (New York: HarperCollins, 2000), pp. 124--25.
    \20\ Phillip Gleason, et al., School Meal Program Participation and 
Its Association with Dietary Patterns and Childhood Obesity, Final 
Report, Mathematica Policy Research Inc. July 2009.
                                 ______
                                 
    Chairman Miller. Thank you.
    Mr. Weill?

            STATEMENT OF JAMES D. WEILL, PRESIDENT,
              FOOD RESEARCH & ACTION CENTER (FRAC)

    Mr. Weill. Yes, good morning.
    Mr. Chairman, Ranking Member Kline, members of the 
committee, we at the Food Research and Action Center are 
pleased to have been invited to testify here today. We believe 
that the introduction of H.R. 5504 is a huge step toward 
getting a strong reauthorization this year, and this hearing 
today should create more momentum to move this important 
process forward. It is important to the nation's children--and 
to the nation's future--to move expeditiously to strengthen the 
programs.
    Those programs, of course, already are very strong. There 
is a huge research base which I don't have time to go into this 
morning on the health, early childhood development, and 
educational impacts of the program. These programs are among 
the very best public investments that this nation has. Study 
after study has shown their positive effects on reducing 
childhood hunger, but also improving health, reducing obesity, 
and improving school achievement.
    These multifaceted strengths of the program have led to 
their very wide support by the American public and also their 
bipartisan support in Congress, some of which has been 
discussed this morning. Indeed, both the House and the Senate 
bills introduced this year by the committee chairs have the 
support of the ranking member of the subcommittee, in the case 
of the House, and of the full committee, in the case of the 
Senate.
    And in the last reauthorization, then-Chairman Boehner and 
you, Mr. Chairman, as ranking member then, teamed up to produce 
a bill that passed the House unanimously. In this cycle, 341 
members of the House voted in favor of a sense of the House 
resolution supporting the president's full funding request.
    But as good as the programs are, they need to be 
strengthened. They have to be more effective to address the 
problem that nearly 1 in 5 of the nation's children lives in a 
household struggling with food insecurity. Seventeen million 
kids in the most recent data live in such households, and the 
evidence is substantial that that has negative effects on 
children's health, mental health, and learning.
    And the programs have to be strengthened to be more 
effective, because the nation also has a very serious 
persistent and growing childhood obesity problem. A strong bill 
will reduce childhood hunger and reduce childhood obesity.
    Given the short amount of time I have, I am going to focus 
on the hunger and access and participation side of the 
equation, but I want to note at the outset that getting 
children participating in the programs independently 
contributes to healthier eating. This also has been shown by a 
raft of research, has been recognized by the White House Task 
Force on Obesity in its report last month, and has been pointed 
out by the Institute of Medicine.
    So for all of these reasons, it is essential to increase 
participation by children in these programs. For example, right 
now, of every 100 low-income children who eat school lunch 
every day, only 47 eat breakfast, and only 16 children get a 
summer food program, summer food lunch on a typical summer day.
    There are a number of excellent steps in H.R. 5504 that 
will address these particular problems. I am going to go 
through a number of them just very, very briefly.
    We applaud the provisions that allow schools in high 
poverty areas to offer free meals to all students without 
collecting paper applications, that provide competitive grant 
funds to promote the expansion of school breakfast, that 
improve direct certification from SNAP and Medicaid to school 
meals, which reduces red tape while getting more children who 
are already eligible participating in the programs, provisions 
that lower the area eligibility tests for summer food to 40 
percent in rural areas, letting the schools provide meals after 
school, on weekends, and on school holidays, adding the option 
which hasn't been mentioned this morning of serving an 
additional meal or snack to children who are in childcare for 
more than 8 hours a day, strengthening policies to prevent the 
overt identification of low-income children who do participate 
in the meal programs, and reducing paperwork and simplifying 
program requirements in CACFP and in WIC.
    There also, of course, are a number of nutrition provisions 
that we support that will improve the health and well-being of 
children such as giving the Secretary the authority to 
establish nutrition standards for competitive foods. These all 
are excellent steps, and we do urge that some of them be 
expanded further. Some of the provisions in the bill are 
authorized only for a limited number of states, and we will be 
seeking as the process goes forward to get broader coverage, to 
reach more states.
    And the summer food area eligibility provision only applies 
to rural areas. We believe that it should be broadened out to 
suburban and urban areas, as well, as Mr. Courtney discussed 
earlier this morning.
    And one particular priority for us which also is in 
Secretary Vilsack's written testimony as a priority as the bill 
moves forward is expanding to all states the after-school meal 
program that currently is available only in 13 states and the 
District of Columbia.
    Children whose parents are working long or non-traditional 
hours, perhaps in a restaurant, and who are struggling often 
with low wages, need access to nutritious suppers when the 
children are in care late in the day and on weekends and during 
school holidays.
    But ultimately the key point here is that 5504 is an 
excellent bill, and we applaud your work, Mr. Chairman. We urge 
you, Mr. Chairman and the committee members, to mark up and 
report out the bill and to include the additional program 
improvements we have indicated as soon as possible. This bill 
will move the nation towards the goals we all have of ending 
childhood hunger and dramatically reducing childhood obesity, 
and we need it this year.
    Thank you.
    [The statement of Mr. Weill follows:]

            Prepared Statement of James D. Weill, President,
                    Food Research and Action Center

    Mr. Chairman and members of the Committee: We at the Food Research 
and Action Center are pleased to have been invited to testify today on 
key issues in Child Nutrition Reauthorization. The introduction of H.R. 
5504, in particular, is a huge step toward getting a strong 
reauthorization this year, and having this hearing at this juncture 
will hopefully create strong momentum to move the process forward and 
finish it with the best possible outcome.
    As the Committee knows, it is important to the nation's children--
and to the nation's future--to move expeditiously to strengthen the 
child nutrition programs. Those programs, of course, already are very 
strong, with a range of positive outcomes--they are among the very best 
public investments in children that this nation has.
    Study after study has shown that the programs not only reduce 
childhood hunger, but they improve health, early child development and 
school achievement.
    <bullet> For low-income schoolchildren, the school lunch and 
breakfast programs reduce hunger and obesity, provide a substantial 
share of the key nutrients children need each day, reduce school nurse 
visits and improve attendance, student behavior, educational 
achievement, and test scores.
    <bullet> The out-of-school time nutrition programs (summer food and 
afterschool food) draw hungry children into school-based and community-
based programs that keep them safe and engaged, reduce obesity, and 
provide basic nutrients at key times when children can't get them from 
school meals programs. Food insecurity among families with children 
increases in the summer, as does children's weight gain. The summer 
food program helps avert these bad summer outcomes. Afterschool and 
summer food dollars help make out-of-school time programming 
sustainable.
    <bullet> The Child and Adult Care Food Program (CACFP) pays for 
food for low-income children in Head Start, child care centers, and 
family child care. It improves preschoolers' nutrition, reduces 
obesity, strengthens the quality of care, and, in some states, is the 
only monitor of family child care for many children.
    <bullet> Participation of women, infants and young children in the 
WIC program boosts rates of prenatal care, reduces low birthweight and 
infant mortality, reduces childhood anemia and obesity, and saves money 
in health systems.
    It would take a few days rather than a few minutes to go through 
the research on this, so I will just point to the most recent example--
a report last week in the Journal of Policy Analysis and Management by 
Dr. Peter Hinrichs finding that participation in the National School 
Lunch Program leads to a significant increase in educational attainment 
and opportunity.
    The versatile strengths of the programs have led to their very wide 
support by the American public, as seen most recently in the poll by 
the Child Nutrition Initiative, which found that 83 percent of 
Americans support or strongly support expanding the Child Nutrition Act 
to cover more children and provide healthier food, and have led as well 
to broad bipartisan support among policymakers. Indeed, it is not an 
accident that both the House and the Senate bills introduced this year 
by the committee chairs have the support of the ranking member of the 
subcommittee (in the House) and of the committee (in the Senate). That 
is a testament to great personal leadership in both parties, but it is 
also a manifestation of the importance of the reach and positive impact 
of the programs.
    This bipartisanship is a tradition in child nutrition. Indeed, in 
the last reauthorization then-Chairman Boehner and then-Ranking Member 
Miller teamed up to produce a bill that passed the House unanimously. 
In this reauthorization cycle, 341 members of the House recently voted 
in favor of an amendment expressing the sense of Congress supporting 
President Obama's $10 billion over 10 years funding request for child 
nutrition reauthorization.
    But the programs, as good as they are, need to be strengthened 
further. They have their shortcomings, and those problems need to be 
fixed both because America's children need stronger programs, and 
because the existing structural strengths give them the potential to do 
more with extraordinary payoff for the nation.
    America's children need this first because there is far too much 
childhood hunger and food insecurity. Even before the recession 12.4 
million children in the U.S. lived in food insecure households, 
according to the official federal data. In 2008, at the front end of 
the recession, that number rose to 16.7 million. The government hasn't 
released 2009 data yet, but the Food Research and Action Center's 
analysis of a large Gallup poll showed that in 2009, 24.1 percent of 
households with children reported that there have been times in the 
past twelve months when they did not have enough money to buy food that 
they or their family needed.
    ``Reading, Writing and Hungry,'' a report written by FRAC and 
Children's Health Watch for the Partnership for America's Economic 
Success, points out that ``[f]ood insecurity in early childhood can 
limit a child's cognitive and socio-emotional development, ultimately 
impairing school achievement and thus long-term productivity and 
economic potential.'' The report continues, that ``[d]ata has shown 
that, by the third grade, children who had been food insecure in 
kindergarten saw a 13% drop in their reading and math test scores 
compared to their food-secure peers. Hungry children are also more 
likely than their non-hungry peers to suffer from hyperactivity, 
absenteeism, generally poor behavioral, and poor academic 
functioning.''
    In Feeding America's, ``Child Food Insecurity in the United States: 
2005--2007,'' report author John Cook, Boston Medical Center and Boston 
University School of Medicine, states that ``[c]hild hunger is robbing 
us of the best of America's imagination and ingenuity.'' He continues, 
``[t]he impact of child hunger is more far reaching than one might 
anticipate. Child food insecurity creates billions of dollars in costs 
to our society. Child hunger affects a child's health, education and 
job readiness.''
    At the same time that the nation has a serious, persistent and 
growing child hunger problem, the nation also has a serious, persistent 
and growing childhood obesity problem. Childhood obesity has more than 
tripled in the past 30 years. About a quarter of 2-5 year olds and one-
third of school-age children (including adolescents) are overweight or 
obese. Childhood obesity has both immediate and long-term health 
impacts, including increased risk factors for cardiovascular disease, 
such as high cholesterol or high blood pressure, and greater risk for 
bone and joint problems, sleep apnea, and social and psychological 
problems such as stigmatization and poor self-esteem.
    A strong reauthorization will reduce childhood hunger and reduce 
childhood obesity. To do that, it is important that Congress both reach 
many more children with the benefits of these programs, and make the 
nutrition provided through the programs healthier. We strongly support 
provisions that will reach both of these goals.
    Given the short amount of time I have, I will focus today on the 
access/participation side of the equation. But at the outset I would 
point out that getting more children enrolled in the programs 
independently contributes to healthier eating--greater access means 
less obesity.
    <bullet> Just this past March, an analysis published in the journal 
Health Affairs reported that, for young children, ``subsidized meals at 
school or day care are beneficial for children's weight status, and we 
argue [in this paper] that expanding access to subsidized meals may be 
the most effective tool to use in combating obesity in poor children.'' 
*
---------------------------------------------------------------------------
    *Rachel Kimbro and Elizabeth Rigby, ``Federal Food Policy and 
Childhood Obesity: A Solution or Part of the Problem?'' Health Affairs 
29(3), 411-418.
---------------------------------------------------------------------------
    <bullet> The White House Task Force on Childhood Obesity final 
report, unveiled by the First Lady in May, pointed out that to 
``[i]ncrease participation rates in USDA nutrition assistance 
programs'' is itself a key aspect of reducing childhood obesity. To 
support the success of this recommendation, the Task Force proposed 
that action be taken to ``ensure ready access to nutrition assistance 
program benefits, especially for children.''
    <bullet> The Institute of Medicine's report, Local Government 
Actions to Prevent Childhood Obesity, recommendations also included a 
strategy to ``[i]ncrease participation in federal, state, and local 
government nutrition assistance programs (e.g., WIC, School Breakfast 
and Lunch Programs, the Child and Adult Care Food Program, the 
Afterschool Snacks Program, the Summer Food Service Program, SNAP).''
    <bullet> A FRAC analysis issued earlier this year which reviewed 
``How Improving Federal Nutrition Program Access and Quality Work 
Together to Reduce Hunger and Promote Healthy Eating'' ** summarized 
the ways in which increasing participation in school breakfast and 
lunch, WIC, the Child and Adult Care Food Program and afterschool and 
summer food can help reduce obesity.
---------------------------------------------------------------------------
    **Food Research and Action Center Issue Briefs for Child Nutrition 
Reauthorization, Number 1, February 2010, available at http://frac.org/
pdf/CNR01--qualityandaccess.pdf
---------------------------------------------------------------------------
    Given these strengths, it is crucial to boost participation. For 
every 100 low-income children eating school lunch each day, only 47 eat 
school breakfast. For every 100 low-income children eating school lunch 
each day during the regular school year, only 16 get to have a summer 
lunch on a typical summer day. This past Tuesday FRAC released a new 
report focusing on the struggles of summer nutrition programs and 
showing that, scandalously, the nation has been losing ground during 
the recession in feeding children in the summer. When summer food 
participation needed to be rising, there instead was a dip of 2.5 
percent--or 73,000 low-income children--from July 2008 to July 2009.
    So, what are the key ways to increase participation?
    Many of them are embodied in H.R. 5504:
    <bullet> Lowering the area eligibility test for Summer Food to 40 
percent in rural areas. The current 50 percent threshold is higher than 
it was in the programs' earlier stages and keeps many communities with 
significant numbers of low-income children from qualifying.
    <bullet> Creating a year-round program allowing community-based 
sponsors to serve summer food and afterschool food during the school 
year through a unitary program with a single set of paperwork. The 
provision will significant reduce administrative work and red tape, 
causing more community organizations to run the program, which will 
increase the number of low-income children who receive nutritious meals 
and snacks after school, on weekends, on school holidays, and during 
the summer.
    <bullet> Allowing schools in high-poverty areas to offer free meals 
to all students without collecting paper applications. This will 
increase the number of low-income children who receive the benefits of 
participating in the School Breakfast and National School Lunch 
Programs, and it will significantly reduce administrative work for the 
schools.
    <bullet> Improving direct certification from SNAP to school meals 
and authorizing direct certification from Medicaid. This will allow 
many more eligible children to receive free meals and bypass the paper 
application process, making the process easier for both families and 
schools.
    <bullet> Providing competitive grant funds to promote the expansion 
of the School Breakfast Program. Less than half of the low-income 
students who eat school lunch every day eat school breakfast. The 
grants will increase school breakfast participation, which boosts 
academic performance and reduces absenteeism, nurse visits, discipline 
problems, and obesity.
    <bullet> Expanding the afterschool meal program so that schools can 
provide meals after school, on weekends, and school holidays through 
the National School Lunch Program. The program is needed to ensure that 
low-income children can access adequate, nutritious food at their 
afterschool programs which run into the late afternoon and evening in 
order to provide care while their parents work and commute long hours 
and hold non-traditional jobs.
    <bullet> Requiring school food authorities to coordinate with 
Summer Food sponsors on developing and distributing Summer Food 
outreach materials. This provision will help increase summer food 
outreach so that more children participate.
    <bullet> Adding the option of serving an additional meal or snack 
to children who are in child care for more than eight hours/day. This 
will ensure that young children who are spending more of their waking 
hours in child care on work days as parents work longer hours to make 
ends meet will receive the full complement of meals they need while in 
care.
    <bullet> Strengthening policies to prevent overt identification of 
low-income children in school meal programs. This will help ensure that 
stigma/embarrassment does not keep low-income children from receiving 
the nutritious school meals that their bodies need.
    <bullet> Reducing paperwork and simplifying program requirements in 
CACFP. By reducing red tape in CACFP, more low-income children will 
have access to the nutritious meals and snacks they need while they are 
in child care.
    <bullet> Allowing state WIC agencies the option to certify children 
for up to one year. This will increase access for children and reduce 
paperwork for families and WIC administrators.
    In addition to the access provisions, there are a number of key 
nutrition provisions that will improve the health and well-being of 
children, including:
    <bullet> Granting the Secretary of Agriculture the authority to 
establish national nutrition standards for all foods sold on the school 
campus throughout the extended school day, including the time before 
and after school.
    <bullet> Adding a performance-based increase in the federal 
reimbursement rate for school lunches (six cents per meal) to help 
schools meet new meal standards for healthier school meals.
    <bullet> Strengthening Local School Wellness Policies by providing 
the Secretary authority to oversee local wellness policies to promote 
improved implementation and transparency, and requiring opportunities 
for public input.
    <bullet> Revising the nutrition standards for meals, snacks and 
beverages served through CACFP to make them consistent with the most 
recent U.S. Dietary Guidelines.
    <bullet> Providing education and encouragement to participating 
child care centers and homes to provide children with healthy meals and 
snacks and daily opportunities for physical activity, and to limit 
screen time.
    <bullet> Increasing USDA training, technical assistance and 
educational materials available to child care providers, helping them 
to serve healthier food.
    These are all excellent steps forward. As the Committee knows, 
because of budget constraints, some of these provisions are authorized 
in the bill only for some states. We will be seeking, as the process 
goes forward, to get broader coverage for these key provisions--to 
reach more states and in some instances, like the summer food 
provision, which only applies to rural areas, to broaden it out to 
suburban and urban areas. And one particular priority for us as the 
bill moves forward is expanding the Afterschool Meal Program to all 
states. The program is currently available in only 13 states and the 
District of Columbia. The program helps ensure that children whose 
parents are working long or non-traditional hours and are struggling 
with low wages can be sure that their children have access to healthy 
nutritious meals, and it helps support high quality educational and 
enrichment programs after school, on the weekends, and during school 
holidays.
    Moving forward on a reauthorization bill that provides critical 
support for low-income children can't wait. We urge you, Mr. Chairman 
and Committee members, to mark up and report out H.R. 5504, and to 
include the additional program improvements mentioned earlier--and the 
funding necessary--to strengthen the child nutrition and WIC programs. 
This will ensure significant movement towards the goals we all have of 
ending child hunger and dramatically reducing childhood obesity.
                                 ______
                                 
    Chairman Miller. Thank you.
    Dr. Sanchez, welcome.

 STATEMENT OF DR. EDUARDO J. SANCHEZ, VICE PRESIDENT AND CHIEF 
      MEDICAL OFFICER, BLUE CROSS AND BLUE SHIELD OF TEXAS

    Dr. Sanchez. Chairman Miller, Ranking Member Kline, members 
of the committee, thank you for the opportunity to testify 
today on children's health, childhood obesity, child nutrition, 
and the importance of passing H.R. 5504. My comments are a 
summary of my written testimony.
    My name is Eduardo Sanchez. I am a father of four. I have 
practiced medicine in a federally qualified health center. I 
directed the Texas Department of Health and Texas Department of 
State Health Services over a 4-year span, and now I am the 
chief medical officer for Blue Cross Blue Shield of Texas, a 
division of Health Care Service Corporation, a non-investor-
owned health insurance company that operates plans in Texas, 
Illinois, New Mexico, and Oklahoma.
    Healthy children are key for national security, economic 
competitiveness, and to bring down the cost of medical care in 
our nation. The prescription for a healthy America is healthy 
eating and moving more. The Improving Nutrition for America's 
Children Act is a vital part of getting the prescription right.
    There are roughly 10 million obese children and adolescents 
age 5 to 19 in the United States. That is more children than 
there are people in 40 of the states in the United States.
    It is 20 million children and adolescents if we include 
overweight and obesity. And the poor and some racial ethnic 
groups have higher rates of obesity than others.
    Most of these children attend public school. This bill will 
make it possible for more children in school to have access to 
the healthiest food options possible.
    The economic impact of childhood obesity is unreal and 
cannot be understated. Obese children are more likely to become 
obese adults. Obese adults are more likely to have a whole host 
of other medical conditions. Nationally, obesity-related 
medical costs are nearly 10 percent of all annual spending and 
are estimated--or were estimated to be $147 billion in 2009. 
The aggregated cost of obesity in the United States over the 
next 10 years will approach, if not exceed $2 trillion.
    In Texas, we estimated the cost of adult obesity in 2005 at 
$10 billion--that is roughly $500 per Texan per year--and 
projected that the cost would be approximately $40 billion by 
the year 2040, four times the cost, but only two times the 
population.
    The bill we are talking about today is estimated to cost 
about $8 billion over 10 years. That is less than one-tenth of 
the price of obesity in just the state of Texas over the same 
10 years.
    Arkansas has looked at the cost impact of obesity in its 
Medicaid and SCHIP programs and sees higher rates of illness, 
more doctor visits, and higher costs as early as 10 to 14 years 
old--in fact, 8 percent higher costs--and among 15-to 19-year-
olds, 29 percent higher costs.
    The annual cost of childhood obesity in the United States 
is just over $14.3 billion. But with 4,000 children and 
adolescents who are diagnosed with Type 2 diabetes annually. 
That is something we used to call adult-onset diabetes now 
occurring in children. These costs will grow.
    I have painted a bleak picture, and you have a unique 
opportunity to make a difference. In communities across the 
country, we are seeing the positive results of comprehensive 
efforts to improve the health of children with nutritious food 
and physical activity, but these are isolated success stories 
that can only be repeated with passage of this bill.
    Schools provide a natural setting to promote healthy 
habits, but research shows that schools aren't as healthy an 
environment as they can be. Children spend a lot of time in 
school and eat 30 percent to 50 percent of their calories there 
on school days.
    In medicine, we sometimes talk about lost opportunities, 
when a child or an adult is in the office, for example, is due 
for a screening test or a vaccine, but leaves without that test 
or vaccination. Not providing children healthy food is a lost 
opportunity.
    The Improving Nutrition for America's Children Act is a 
strong bill that includes a number of important provisions to 
help shift the balance and make it easier for children to make 
healthy choices at school. H.R. 5504 will improve meal quality, 
update nutrition standards for all foods and beverages at 
school, strengthen local wellness policies, and provide needed 
resources for training, technical assistance, and nutritional 
education.
    It increases the reimbursable rate for lunches by 6 cents. 
The bill also includes a number of provisions to increase 
access and make it easier for kids to participate in child 
nutrition programs throughout the year, not just during the 
school day.
    This is a smart bill that can realize a fairly quick return 
on investment. I urge you to work with your colleagues in the 
House to secure funding and pass this bill soon, as time is 
running out and our children deserve our attention. The health 
of America's children depends on a prescription for healthy 
food and more physical activity.
    This bill will improve the quality and healthfulness of 
food in America's schools, improve the health of America's 
children, reverse the childhood obesity epidemic, reduce the 
burden of diabetes, heart and other chronic diseases, and 
therefore demand for very expensive medical care, and finally, 
improve the readiness, willingness and ability of our future 
civilian and military workforce to compete for jobs and defend 
our nation.
    I thank you for your time, and I thank you for your 
interest.
    [The statement of Dr. Sanchez follows:]

       Prepared Statement of Eduardo Sanchez, Vice President and
       Chief Medical Officer, Blue Cross and Blue Shield of Texas

    Chairman Miller, Ranking Member Kline, Members of the committee, 
thank you for inviting me to testify today on children's health, 
childhood obesity, child nutrition, and the importance of passing H.R 
5504 to strengthen child nutrition programs.
    My name is Eduardo Sanchez, Vice President and Chief Medical 
Officer for Blue Cross and Blue Shield of Texas, a Division of Health 
Care Service Corporation, which operates three additional Blue Cross 
and Blue Shied Plans in Illinois, New Mexico, and Oklahoma. HCSC is the 
nation's largest non-investor-owned health insurance company serving 
12.4 million members.
    I am a physician trained in family medicine and in public health. I 
practiced medicine for ten years in Austin and served as Commissioner 
of the Texas Department of Health and then the Texas Department of 
State Health Services from 2001 to 2006. I have long been interested in 
childhood obesity and the incredible burden it places not only on 
individual children themselves, but on schools, their families, the 
workplace, governments, and, of course, our health care and economic 
systems. As Commissioner of Health in Texas, I worked closely with my 
agriculture and education state agency counterparts to address 
childhood obesity. And because the scope of my responsibilities in 
Texas included oversight of the Women, Infants, and Children program, 
WIC, I have a keen appreciation for the importance of the Improving 
Nutrition for America's Children Act. Although I will be speaking about 
childhood obesity, I want to make clear that childhood hunger and 
obesity are counter-intuitively linked. The access, availability, and 
affordability of healthy food for families are all critical factors for 
promoting health, preventing hunger, and combating obesity.
    You are, no doubt, familiar with the alarming statistics on 
childhood obesity in all of our states and in all of our communities. 
The recently released F as in Fat report from Trust for America's 
Health highlights that we have a long way to go to comprehensively 
address and reverse this epidemic. And sadly, wide disparities remain 
among different racial and ethnic groups. There are roughly 10 million 
obese children and adolescents age 5 to 19 in the United States. That 
is more children than there are people in each of 40 states across the 
country.
    In my home state of Texas, the incidence of obesity is higher than 
the national average--in fact, we rank seventh in obesity rate among 10 
to 17 year olds--tipping the scales at over 20% compared to the 
national average of about 16%.\1\ And, while all categories of children 
are impacted, the poor, African Americans, Hispanics, American Indians, 
and Pacific Islanders are disproportionately more overweight and obese 
than their white counterparts. In a state like Texas, with a 
dramatically shifting demographic profile and significant numbers of 
families and children in poverty, we feel this burden even more. This 
has tremendous relevance nationwide, as the demographic profile of our 
communities, our states, and indeed, our nation, shifts.
    Obesity threatens the health of our young people, their future 
potential, and our nation's global competitiveness. Obese children miss 
more days of school than their healthy-weight peers.\2\ They're at 
increased risk for a variety of serious health conditions, including 
asthma, heart disease and type 2 diabetes.\3\ Some experts warn that if 
obesity rates continue to climb, today's young people may be the first 
generation in American history to live sicker and die younger than 
their parents' generation.\4\ And as we have heard from Major General 
Monroe, childhood obesity is threatening our military readiness. The 
27% who are too overweight to serve in our military did not become so 
overnight, and they represent our entry level workforce. Obese children 
become obese adults. If current trends continue, that 27% cohort of 
young people becomes more overweight with each passing decade. 
Childhood obesity challenges local, state, and national budgets and 
will put U.S. businesses at a competitive disadvantage by reducing 
worker productivity and increasing health care costs.\5\
    The impact of obesity on public health and children's well-being is 
real and bears significant cost. From a national perspective, obesity-
related medical costs are nearly 10 percent of all annual medical 
spending\6\ and were estimated to be $147 million in 2009.\7\ Very 
conservatively speaking, the aggregated cost of obesity in the United 
States over the next ten years will approach, if not exceed, two 
trillion dollars. Put another way, in the state of Texas, we estimated 
the cost of obesity in 2005 at $10 billion (a cost of $500 per Texan 
per year) and projected that the cost would be approximately $40 
billion in 2040--a quadrupling of the cost but only a doubling of the 
population. The bill we are talking about today is estimated to cost 
about $8 billion dollars over 10 years--that is less than one tenth the 
cost of obesity in just the state Texas over the same ten years!
    Our sister state, Arkansas has examined the cost of obesity among 
its own state employees--something every employer (including government 
agencies and large corporations) should consider. For the State of 
Arkansas, the yearly claims cost associated with obesity now exceeds 
that of tobacco, with obese employees costing over 50% more than their 
counterparts who don't smoke, have a normal BMI, and do some 
exercise.\8\
    These costs start early in life. Arkansas has looked at the cost 
impact in its Medicaid and SCHIP programs and sees higher rates of 
illness, more physicians' visits, and increases in costs as early as 10 
to 14 years of age.\9\
    For the nation, childhood obesity is associated with annual 
prescription drug, emergency room, and outpatient costs of $14.1 
billion, plus inpatient costs of $237.6 million.\10\ Given that 
approximately 4000 children and adolescents are diagnosed with type 2 
diabetes annually in the United States,as a consequence of childhood 
obesity, these costs will grow significantly.\11\
    I realize that I have painted a bit of a bleak picture of the 
health of America's children, about child obesity, and the threat it 
poses not only to children, but to our nation's well being. But I am 
hopeful. With the nation's attention on health costs, the recent 
passage of health care reform legislation with an emphasis on 
prevention and wellness, First Lady Michelle Obama's focus on childhood 
obesity, the report from the White House Task Force on Childhood 
Obesity and the phenomenal efforts of the private sector such as the 
Robert Wood Johnson Foundation and advocates across the country, we 
have a unique opportunity to make a difference. And we are beginning to 
see the positive results of comprehensive efforts to improve the health 
of children with nutritious food and physical activity in communities 
and states across the country. Of particular interest is research from 
the Diabetes Prevention Project that shows that healthy eating and 
regular physical activity can reduce the likelihood of developing 
diabetes in adults by over 50%.
    Healthy eating and physical activity promote heart health, bone 
health, and prevent diabetes in children, and schools provide a natural 
setting to promote healthy habits. Given that kids spend so much time 
there and eat 30-50% of their calories there on school days, we have a 
captive audience. The research shows that fit kids are smart kids--
promoting health in children improves academic performance, behavior, 
and reverses childhood obesity. Having access to healthy food is an 
important aspect of promoting children's health.
    Addressing the challenges of poor nutrition and obesity will take 
action from all levels of government, businesses, health care 
organizations, public health advocates, schools, families, and 
individuals--we all have a stake in making real changes, including hard 
choices, to improve the health of this generation and generations of 
children to come. The child nutrition and WIC programs are critical 
tools for making this change.
    Blue Cross and Blue Shield of Texas (BCBSTX) is pleased to be a 
part of the system response to childhood obesity in Texas. BCBSTX and 
HCSC take the long view when making commitments to programs such as 
those focused on childhood obesity. While addressing this problem today 
may not provide an immediate return on investment in the traditional 
sense, we fully understand the generational impact of action or 
inaction when it comes to childhood obesity.
    In the school environment, we have supported OrganWise Guys, a 
program that brings science-based nutrition, physical activity, and 
other lifestyle behavior messages to children in school settings and 
effects healthy changes, and we are providing modest financial support 
to the school district in Seguin, Texas to provide the Coordinated 
Approach to Child Health (CATCH) program, another evidence-based 
coordinated school health program.
    We provide financial support to MarathonKids, a program that 
encourages physical activity and healthy eating among elementary school 
children in Texas. It is one of the arrows in the quiver to promote 
health and prevent childhood obesity. More than 100,000 children 
participate in this four month program in Texas. We are supporting 
MEND, a community-based, family-centered childhood obesity treatment 
program in Dallas, Texas provided through a partnership with the YMCA. 
We are in the second phase of providing the Blue Cross and Blue Shield 
Association Pediatric Obesity and Diabetes Prevention Toolkit for 
physicians and their patients in Texas. As a health plan, we are 
addressing adult overweight and obesity in the workplace and at home. 
We understand that the key to better health overall is living healthy 
by eating smart and moving more.
    So, here we sit today, debating and discussing one of the most 
important pieces of legislation that, if enacted--let me restate that--
when enacted, has the potential to impact millions of our nation's 
children in a positive way. I applaud you, Mr. Chairman, your 
Committee, and your staff for your leadership. The ``Improving 
Nutrition for America's Children Act'' (H.R. 5504) is a strong bill 
that includes a number of important provisions to help shift the 
balance and make it easier for children to make healthy choices at 
school.
    More than 50 years ago, our nation launched the National School 
Lunch Program. Interestingly, the language that characterized the 
rationale for the policy and program in 1946 is still quite relevant 
today:\12\
    ``The educational features of a properly chosen diet served at 
school should not be under-emphasized. Not only is the child taught 
what a good diet consists of, but his parents and family likewise are 
indirectly instructed.''
    ``It is hereby declared to be the policy of Congress, as a measure 
of national security, to safeguard the health and well-being of the 
Nation's children and to encourage the domestic consumption of 
nutritious agricultural commodities and other food. * * *''
    H.R. 5504 will improve meal quality, update nutrition standards for 
all foods and beverages at school, strengthen local wellness policies, 
and provide needed resources for training, technical assistance and 
nutrition education. The bill also includes a number of provisions to 
increase access and make it easier for kids to participate in child 
nutrition programs throughout the year--not just during the school day. 
And program access goes hand-in-hand with healthy food and beverages 
choices. For example, improving meal quality and reducing unhealthy 
options in vending machines often results in increased participation in 
school meal programs--a win-win situation. In Texas, Susan Combs, 
former Commissioner of Agriculture, understood that relationship and I 
know that Jim Weill will talk about important investments to improve 
access.
Meal Quality
    While schools across the country are working hard to provide 
nutritious meals to children, inadequate reimbursement rates and 
limited training and technical assistance hamper their efforts. In 
fact, the majority of meals served in schools today fail to meet the 
2005 Dietary Guidelines for Americans. For example, in the 2004-2005 
school year, nearly one-third of schools served whole milk, one of the 
largest sources of saturated fat in children's diets. An analysis by 
USDA of school food service operations across the country found that 
French fries were one of the most frequently offered vegetables to 
students, regardless of grade. Only 5 percent of schools offered whole-
grain breads, and a majority of schools offered only a limited variety 
of fruits and vegetables.\13\ This bill goes a long way in improving 
meal quality. First and foremost, it calls for increasing the 
reimbursement rate for lunches by 6 cents. It also provides much needed 
training and technical assistance resources to food service operators, 
replaces high fat milk with healthier low fat options, strengthens 
accountability and program transparency, and continues efforts to 
improve commodities.
National School Nutrition Standards
    This bill grants USDA the ability to update the nutrition standards 
for all foods served and sold--like those in vending machines, school 
stores, and a la carte in the cafeteria--to ensure they are health 
promoting and consistent with current dietary recommendations and 
nutrition guidance. The existing standards must be revised. While a 
number of states and districts have made strides in improving standards 
for competitive foods, many fall short of current recommendations.
    According to a report by Bridging the Gap, in the 2007--08 school 
year (the latest year for which we have data), 62% of public elementary 
school students were able to purchase competitive foods or beverages 
through school stores, vending machines and a la carte cafeteria lines. 
Such venues typically offered less-healthy items. The picture is worse 
for middle and high schools.\14,15\
Training, Technical Assistance and Nutrition Education
    I cannot underscore the importance of training and technical 
assistance resources, as well as nutrition education and promotion 
priorities outlined in the bill. We all get that improving meal quality 
and providing only healthy options are key--what we sometimes forget is 
the work behind the scenes to make sure that food service operators 
have the skills and knowledge to make needed changes, and that kids are 
given opportunities to fully benefit from healthier options through 
education and promotion. The old saying ``If you build it they will 
come'' may work for baseball fields but we know it does not work for 
kids and food. How many times have we all tried to get our kids to eat 
the healthier options only to find it hidden under the table or thrown 
in the trash? It does no good to invest in improving meal quality 
without also investing in the necessary training, technical assistance 
and nutrition education and promotion that go hand-in-hand with 
increased reimbursement rates and meal standards.
Local Wellness Policies
    H.R. 5504 builds on the local wellness policies introduced in the 
last reauthorization and calls on school districts to implement their 
policies in a transparent way that involves parents. The bill also 
ensures there is a wellness committee for each school district so that 
the success of the wellness policies are periodically reviewed and 
updated as necessary. This particular piece is important and consistent 
with our experience in Texas where every independent school system is 
required by law to have a School District Health Advisory Council 
(SHAC). SHAC's are often the entity tasked with developing and 
implementing local wellness policies and provide a permanent 
infrastructure to enhance the effectiveness and sustainability of the 
policies. This has worked well in Texas and it is important to carry 
this nation-wide as H.R. 5504 proposes.\16\ The bill further dedicates 
funding to the USDA to provide technical assistance to districts to 
assist them in overcoming challenges to establishing and implementing 
effective policies.
    I know you and your colleagues have many pressing issues these days 
but renewal of the child nutrition programs cannot wait any longer--
this has already been delayed for more than a year and our children's 
health and well-being cannot be put on hold. This is a smart bill and I 
urge you to work with your colleagues in the House to secure funding 
and pass this bill soon--time is running out and our children deserve 
our attention. The health of America's children depends on a 
prescription for healthy food and more physical activity. This bill can 
play a significant role in improving the health of America's children, 
reversing the childhood obesity epidemic, reducing the burden of 
diabetes, heart and other chronic diseases and demand for expensive 
medical care, and finally, improving the readiness, willingness, and 
ability of our future civilian and military workforce--to compete and 
defend our nation.
    I thank you for the time and your interest.
                                endnotes
    \1\ F as in Fat: How Obesity Threatens America's Future, June 2010
    \2\ Geier, A, Foster G, Womble L, et al. ``The Relationship Between 
Relative Weight and School Attendance Among Elementary 
Schoolchildren.'' Obesity, 15(8): 2157--2161, August 2007.
    \3\ Overweight and Obesity, Health Consequences. Centers for 
Disease Control and Prevention, 2009. www.cdc.gov/obesity/causes/
health.html (accessed June 2009) (No authors given.)
    \4\ Olshansky S, Passaro D, Hershow R, et al. ``A Potential Decline 
in Life Expectancy in the United States in the 21st Century.'' New 
England Journal of Medicine, 352(11): 1138--1145, March 2005.
    \5\ Christeson W, Taggart AD, Messner-Zidell S. Ready, Willing, and 
Unable to Serve. Washington, DC: Mission: Readiness, 2009.
    \6\ F as in Fat: How Obesity Threatens America's Future, June 2010
    \7\ Finkelstein E, Trogdon J, Cohen J, Dietz W. ``Annual Medical 
Spending Attributable to Obesity: Payer- and Service-Specific 
Estimates.'' Health Affairs, 28, July 2009.
    \8\ Unpublished data, Arkansas Center for Health Improvement.
    \9\ Card-Higginson P, Thompson JW, Shaw JL, Lein S. Cost and health 
impact of childhood obesity among Medicaid/SCHIP enrollees. 2008 
AcademyHealth Annual Research Meeting, Washington, DC, June 9, 2008.
    \10\ Cawley J. ``The Economics of Childhood Obesity.'' Health 
Affairs, Vol. 29 (No. 3): 364-371, 2010.
    \11\ Centers for Disease Control and Prevention. National Diabetes 
Fact Sheet, 2007. Atlanta, Ga: US Dept of Health and Human Services; 
2007.
    \12\ http://www.fns.usda.gov/cnd/lunch/AboutLunch/
ProgramHistory.htm
    \13\ Condon E, Crepinsek M, Fox M. School Meals: ``Types of Foods 
Offered to and Consumed by Children at Lunch and Breakfast.'' Journal 
of the American Dietetic Association, 109(2): S67-S78, February 2009.
    \14\ Chriqui JF, Schneider L, Chaloupka FJ, Ide K and Pugach O. 
Local Wellness Policies: Assessing School District Strategies for 
Improving Children's Health. School Years 2006-07 and 2007-08. Chicago, 
IL: Bridging the Gap Program, Health Policy Center, Institute for 
Health Research and Policy, University of Illinois at Chicago, 2009.
    \15\ Turner L, Chaloupka FJ, Chriqui JF and Sandoval A. School 
Policies and Practices to Improve Health and Prevent Obesity: National 
Elementary School Survey Results: School Years 2006--07 and 2007--08. 
Chicago, IL: Bridging the Gap Program, Health Policy Center, Institute 
for Health Research and Policy, University of Illinois at Chicago, 
2010.
    \16\ http://www.dshs.state.tx.us/schoolhealth/sdhac.shtm
                                 ______
                                 
    Chairman Miller. Thank you.
    General Monroe?

 STATEMENT OF PAUL D. MONROE, MAJOR GENERAL, U.S. ARMY (RET.), 
         EXECUTIVE ADVISORY COUNCIL, MISSION: READINESS

    MG Monroe. Chairman Miller, Ranking Member Kline, thank you 
for this opportunity.
    My name is Paul Monroe, and I am a retired Major General. I 
served this great nation for over 48 years in the United States 
Army and the California Army National Guard. Currently, I am 
the founder and principal of Monroe Executive Associates, which 
advises developing organizations on leadership and diversity.
    I am testifying today on behalf of Mission: Readiness, a 
national nonprofit organization of over 150 retired admirals 
and general officers who are dedicated to ensuring our nation's 
continued security and prosperity through smart investments in 
the upcoming generation of American children.
    I have written remarks that I would submit for the record. 
For the next few minutes, I would like to tell the committee 
members why more than 150 retired generals and admirals feel so 
strongly about this bill and its importance to our future 
military readiness.
    Make no mistake: Childhood obesity does threaten our 
nation's security. When 1 in 4 of our young adults is too 
overweight to defend our country, then something is seriously 
wrong.
    A decade ago, only one state had 40 percent or more of its 
young adults overweight or obese. Today, that is true in 39 
states, according to the Centers for Disease Control and 
Prevention. You can see the figures for each state on a chart 
and a report we recently released with Senator Dick Lugar and 
Secretary Vilsack, ``Too Fat to Fight.''
    Military concerns about the health and fitness of our 
children are not new. The National School Lunch Act of 1946 was 
originally passed as a matter of national security. At the 
time, General Lewis Hershey and many of our other military 
leaders recognized that poor nutrition was a significant 
factor, reducing the pool of qualified candidates for military 
service.
    In the past, retired admirals and generals stood up to make 
it clear, as Secretary Vilsack said, that America is only as 
healthy as our nation's children. Now childhood obesity is 
undermining our national security, and we need to start turning 
it around today.
    The trends are truly alarming in the context of American 
military readiness. Since 1995, the nonprofit--excuse me, the 
proportion of recruits rejected during their physical exam 
because they were overweight has increased by nearly 70 
percent. Today, otherwise excellent recruit prospects, some of 
whom may have generations of sterling military service in their 
family history, are being turned away because they are simply 
too overweight.
    What can we do to address this problem? We cannot and 
should not legitimate the choices that parents make with their 
children at home. It is up to parents to decide what children 
are fed outside of school and in their packed lunches.
    But we can do more to make sure that the food and beverages 
of our schools provided to our children are nutritious. As much 
as 40 percent of a child's daily calorie intake occurs at 
school. And the school setting plays an important role in 
shaping the eating, exercise habits of our youth.
    Mr. Chairman, Mission: Readiness supports efforts by you 
and members of this committee to get new legislation on the 
books that would achieve three basic goals.
    First, we need to get the junk food out of our schools. 
Second, nourish more children who need access to healthy meals. 
And, three, educate kids and their parents to help them adopt 
lifelong healthy eating and exercise habits.
    You may hear today that the United States military is 
currently meeting its recruitment goals, and that is true, not 
only because of the severity of the recession, but also because 
of a strong sense of patriotism among many of our young people.
    However, if history is any guide, the challenges of finding 
and recruiting qualified young adults will again become much 
more challenging when the economy recovers. The truth is, we 
cannot depend on a weak economy to build a strong military.
    When you look at the long-term scenario, it is clear that 
too many young people are not reaching their full potential, 
and a major factor is what they eat and drink each day. One 
study found that even an extra 130 calories per day make a 
difference between whether a young child grows up----
    Sorry. The clock is ticking. We urge Congress to take 
action as soon as possible, since the current child nutrition 
law will expire at the end of September. It is a hopeful sign 
that the House approved a sense of Congress resolution as part 
of the defense appropriation bill supporting full funding of 
the child nutrition package, in part because it addresses the 
national security concerns of our retired military leaders.
    It is also a hopeful sign to see members here today, 
because Congress cannot afford to put this off. We cannot 
afford to raise another generation where 1 in 4 of our young 
adults is too overweight to serve the country.
    This is not just about looking good in uniform. It is about 
being healthy and fit to do the work of the nation. The grim 
reality is that we live in a dangerous world. As long as 
outside threats to our national security exist, we are well 
served to maintain a high level of military readiness.
    The admirals and generals of mission readiness are in 
strong support of H.R. 5504, and we respectful request, in the 
interests of national security, that the distinguished members 
of this committee work to move this important legislation 
toward enactment. Doing so will help improve the health of our 
nation's children and ultimately strengthen national security.
    Thank you for this opportunity to speak before the 
committee this morning.
    [The statement of General Monroe follows:]

          Prepared Statement of Paul D. Monroe, Major General,
           U.S. Army (Ret.), on Behalf of Mission: Readiness

    Chairman Miller, Ranking Member Kline, and distinguished members of 
the Committee, thank you for inviting me to testify at this hearing on 
H.R. 5504, the ``Improving Nutrition for America's Children Act.'' I am 
honored to have the opportunity to speak today in support of this 
historic legislation.
    My name is Paul Monroe and I am a retired Major General. I served 
this great nation for over 46 years in the United States Army and the 
California Army National Guard. Currently, I am the founder and 
principle of Monroe Executive Associates, which advises developing 
organizations on leadership and diversity.
    I am testifying today on behalf of MISSION: READINESS, a national, 
non-profit organization of over 150 retired Admirals and Generals, who 
are dedicated to ensuring our nation's continued security and 
prosperity through smart investments in the upcoming generation of 
American children. We are concerned by recent data from the Department 
of Defense indicating that 75 percent of all young Americans aged 17 to 
24 are unable to join the military primarily because they failed to 
finish high school, have criminal records, or are physically unfit. 
This disquieting reality threatens to diminish our military strength 
and put our national security interests at risk.
    Military concerns about the fitness of our children are not new. In 
fact, the National School Lunch Act of 1946 was originally passed as a 
matter of national security. At that time, there were legitimate 
concerns that malnourishment would render American youth unfit to 
defend the nation. Today, it is obesity that threatens the overall 
health of America and the future strength of our military. It is 
imperative that we act now, as we did in 1946, to ensure that our 
children grow up fit to defend our nation, if need be.
    Obesity is the leading medical reason young adults are not 
qualified to serve. Obesity rates among children and young adults have 
increased dramatically in recent decades. By now most of us have heard 
that in the past 30 years, child obesity rates have more than tripled. 
New data from the CDC paints an even starker portrait. In the last 
decade alone, between 1998 and 2008, the number of states reporting 
that 40 percent or more young adults were overweight or obese rose from 
one state to 39. To put this problem into perspective, today's young 
Americans between the ages of 18 and 24 would have to collectively lose 
390 million pounds in order to be at a healthy weight.
    As retired Generals and Admirals, my colleagues at MISSION: 
READINESS and I are deeply troubled by the negative effect that obesity 
is having on our ability to recruit qualified candidates for military 
service. At least 9 million young adults, or 27 percent of all young 
Americans ages 17 to 24, are too overweight to enlist. Since 1995, the 
proportion of candidates who failed their physical exams due to weight 
problems increased by a staggering 70 percent. This all-too-common 
disqualifier is limiting the pool of available recruits and eroding our 
military readiness. Make no mistake about it; the obesity epidemic 
poses a genuine threat to our national security.
    Beyond its harmful impact on the overall number of youth who are 
able to qualify for military service, obesity also imposes a great 
fiscal burden on our nation. Every year, the military discharges over 
1,200 first-term enlistees before their contracts are up because of 
weight problems; the military must then recruit and train their 
replacements at a cost of $50,000 for each man or woman, thus spending 
more than $60 million a year.
    Turning the tide of obesity in this country is certainly not an 
easy task. We do not pretend there is one single action that we as a 
nation can take to remedy this problem. However, it is crystal clear 
that one pivotal step we must take is to improve the quality and 
nutritional value of food and beverages served in our schools.
    The school setting is critical for shaping the lifelong eating and 
exercise habits of our youth. Research published in Health Affairs 
shows that as much as 40 percent of a child's daily caloric intake 
occurs at school. What children eat in school can either be part of the 
problem, or part of the solution.
    Fortunately, this Committee is poised to consider legislation that 
effectively addresses the issue of nutrition in schools. H.R. 5504 the 
``Improving Nutrition for America's Children Act,'' includes provisions 
that will raise the quality of all foods and beverages served on school 
grounds. Specifically, it will require the Secretary of Agriculture to 
establish a new set of nutrition standards for foods and beverages 
served through the school breakfast and school lunch programs that are 
consistent with the most recent Dietary Guidelines for Americans. The 
bill will also require the Secretary to establish similar science-based 
standards for all foods and beverages sold competitively. Further, H.R. 
5504 will provide an additional 6 cent per meal reimbursement, on a 
performance basis, to help schools; make necessary equipment upgrades; 
train and hire staff; and purchase fresh fruits, vegetables, lean 
meats, whole-grains and low-fat dairy.
    Current nutrition standards for the school lunch and school 
breakfast programs have been in place since 1995. We are long overdue 
for an update.
    In addition to making improvements to nutrition standards and 
overall meal quality, H.R. 5504 also includes provisions to promote 
nutrition education. The bill will direct the Secretary to provide 
funds, equal to one half cent per reimbursable lunch served, to states 
for nutrition and wellness promotion. It will also instruct the 
Secretary to award competitive grants for the purpose of supporting 
community partnerships that are designed to promote wellness. Nutrition 
education is vital to maintaining a healthful environment for youth. In 
many cases, the habits that children form in their early years persist 
into adulthood. The journal Health Affairs reports that 80 percent of 
children who were overweight at ages 10-15 were obese at age 25. 
Properly managed, nutrition education programs can provide children and 
their families with the knowledge, skills, and motivation needed to 
make lifelong healthful choices.
    Last, H.R. 5504 includes proposals that will help simplify 
enrollment and increase access to child nutrition programs. Increasing 
access to nutritious food is equally important as improving the quality 
of school meals. While it may seem counterintuitive, it is well 
documented that hunger and food insecurity also contribute to obesity.
    Many children who experience persistent hunger are also obese, 
because they more frequently have access to unhealthy foods or snacks 
instead of regular, nutritious meals. Recent research by Rachel Tolbert 
Kimbro of Rice University and Elizabeth Rigby of the University of 
Texas at Houston, published in Health Affairs has shown that subsidized 
meals can help low-income children maintain a healthy weight.
    Increased access to school lunches and breakfasts can help remedy 
this problem by helping to ensure that children regularly get enough 
food to eat and the food they eat will be nutritious enough to help 
them develop healthy eating habits to avoid obesity.
    The grim reality is that we live in a dangerous world. As long as 
outside threats to our national security exist, we are well served to 
maintain a high level of military readiness. The Admirals and Generals 
of MISSION: READINESS are in strong support of H.R. 5504 and we 
respectfully request, in the interest of national security, that the 
distinguished members of this Committee work to move this important 
legislation toward enactment. Doing so will help improve the health of 
our nation's children and, ultimately, strengthen national security.
    Thank you.
                                 ______
                                 
    Chairman Miller. Thank you very much.
    It is the intent of the chair to recognize those who did 
not have an opportunity to ask questions of the Secretary, the 
previous panel. So we will begin with Mr. Scott, then Mr. 
Platts, Mr. Tierney, Ms. Clarke, Mr. Kildee, and then we will 
come back around to the chair and the ranking member.
    Mr. Scott?
    Mr. Scott. Thank you, Mr. Chairman.
    Dr. Sanchez, a previous question was asked about the 
relationship of hunger and obesity. Can you explain how the 
choice of healthier foods will not only address hunger, but 
also reduce obesity?
    Dr. Sanchez. First, thank you for the question. Childhood 
obesity and childhood hunger, in my estimation, are two sides 
of the same coin, and it is the reality for children who are 
poor or in some way disproportionately affected by obesity 
because of race, ethnicity, other factors that, in those 
families--sometimes the healthier foods are the more expensive 
foods, and it is not inconceivable that a child who may 
outwardly look to be overweight or obese might go a day or two 
without having any food. And in America, hunger sometimes looks 
different than we have thought about hunger in the past.
    So those two things are not incompatible, and you can have 
a child who maybe is getting the foods that he or she ought to 
be getting during the week and perhaps on the weekend, that 
food is more difficult to attain.
    My church is seeing record numbers of families coming to 
get food assistance, and I think that that is the reality 
across the nation. But healthy--if you had a question, I 
apologize.
    Mr. Scott. No, go ahead.
    Dr. Sanchez. Healthy food is--healthful food, nutritious 
food is going to address both the issue of childhood obesity--
of childhood obesity, because those healthy foods would be the 
preferred food choices. The Blue Cross Blue Shield association 
is working with pediatricians and family physicians across the 
nation, providing them a toolkit that has a simple 5-2-1-0 
message, which incorporates the notion of five fruits and 
vegetables a day for all kids, limited sweets, limited amount 
of screen time, 1 hour of physical activity.
    Those are healthful and healthy food messages that we are 
delivering that are meant to be the foods that one prioritizes 
over less healthy options. Healthy foods for children who are 
hungry are going to reduce hunger and promote health in the 
long run.
    Mr. Scott. Thank you.
    Mr. Weill, can you talk about the value of automatic 
enrollment to reduced--free or reduced breakfast and lunch and 
the idea of, if you have a high-poverty school, where you spend 
more in administration than you would save on the few people 
who actually pay, letting everyone have the free or reduced 
meals?
    Mr. Weill. On the direct certification question, which is 
the first one, which is taking kids who are currently receiving 
TANF or food stamps or under the bill, also Medicaid, and 
making sure that they are automatically enrolled without the 
need for a separate application in the school meals program, 
that the issues here are that there are many kids who are 
eligible under current law, but not getting school lunch, 
school breakfast because the paperwork doesn't get done for any 
number of reasons. You know, schools put it in backpacks, and 
it doesn't get home, or whatever, language issues.
    So direct certification--the bill tightens up the direct 
certification process, so many--fewer of those kids fall 
through the cracks, and we make sure that these kids who are 
already eligible are certified eligible for the program.
    The paperless proposal, which is also an excellent 
proposal--like the direct certification one--would say that in 
high-poverty areas, we would do away with paper applications 
altogether and allow school districts or bunches of schools to 
use alternative methods of determining what share of the kids 
should be free and get federal reimbursement on that basis, 
reduced price and pay.
    This has been tried in Philadelphia--it has worked well--
where they do a household survey, so the use of census data or 
other survey data----
    Mr. Scott. Do they actually end up saving money in that 
process?
    Mr. Weill. I am sorry?
    Mr. Scott. Do they end up saving money in that process?
    Mr. Weill. Yes, it saves money on the paperwork side, and 
it increases participation in the program among eligible 
children.
    Mr. Scott. And let me ask one last question. Is the 
reimbursement rate for the meals sufficient?
    Mr. Weill. No. And the bill, which improves the 
reimbursement rate for lunch in schools that meet IOM standards 
takes an important step forward there. And as Secretary Vilsack 
indicated earlier, probably the shortfall in reimbursement is 
greater in breakfast than it is in lunch.
    Chairman Miller. Congressman Platts?
    Mr. Platts. Thank you, Mr. Chairman.
    Certainly honored to be a co-sponsor with you of this 
legislation and the reauthorization and appreciate your holding 
this hearing. I thank all of our witnesses for being here.
    I will be fairly brief, and that is just to thank each of 
you for partnering with the committee to share your knowledge 
and the importance of this issue. I mean, we are certainly in 
extremely difficult financial times, so we have got to do a 
good job of prioritizing.
    And when it comes to domestic issues, the health and 
education of our nation's children, I think, is one of our 
highest priorities here on the domestic front, and that is what 
this legislation that we are looking at is all about.
    And I look at it as kind of preventative care. We can pay a 
little now and save a lot later and do right by the kids in the 
meantime, or we can, you know, pay less now and pay a lot more 
later and not do right by the kids.
    And so I hope that, with your assistance and your 
expertise, to help educate us committee members and the full 
House and Senate will be successful in the reauthorization and 
the advancements that are in here.
    And, Dr. Sanchez, I think you in your written testimony 
highlight what we really are talking about here in the short 
and long term. And I am going to quote just one of your 
sentences or one paragraph here about how many obese children 
and the huge percentage of our nation's children that are obese 
today--and you reference your home state, 20 percent above the 
national average of 16, and how they are more likely to miss 
school. That harms their education.
    They are at increased risk of a variety of serious health 
conditions, including asthma, heart disease, and Type 2 
diabetes, and that if we don't change the direction we are 
heading, that this generation will be the first to live sicker 
and die younger than their parents' generation. That is not 
acceptable.
    And I think what we are after here is to change that 
direction and do right by children and ultimately do right by 
every American who is paying taxes into the federal government, 
that they are getting a better return, that we do better in the 
meals we are providing.
    As you referenced, eating healthy is more expensive in many 
instances. And so we have lower income who are buying more 
processed food, less healthy and more obese, more health care 
costs, less prepared to do well in school. You know, that is a 
formula that is just not acceptable.
    And so my main point here, as I say, thanks for your being 
here and each of you bringing your perspectives, insights, and 
working with the committee as we go forward, and that we 
acknowledge the additional cost of doing right by our children, 
but also acknowledge the benefit to those children and 
ultimately to our nation, as the general reflected, the 
military readiness benefit, as well as the long-term economic 
benefit in so many ways.
    So with that, Mr. Chairman, I yield back.
    Chairman Miller. Thank you.
    Mr. Tierney?
    Mr. Tierney. Thank you, Mr. Chairman.
    Mr. Weill, I was hoping that you might address for me just 
briefly at least the issue that you testified about, access 
year round to school meals on that, and tell me--well, if you 
will speak to that. You know, how many children are actually 
currently in the summer school food program? And what are your 
thoughts about increasing that?
    Mr. Weill. The summer food program has struggled to reach 
kids, in part because there aren't enough summer activity and 
educational programs to serve the meals and in part because 
there is too much paperwork. And the bill starts to address 
these problems.
    As I said in my testimony, only 16 kids get summer food, 
summer lunch on an average day in July for every 100 who get 
school meals during the regular school year. And we know from 
the studies that both food insecurity among kids and obesity 
spike in the summer. In a way, the summer is, in a bad way, a 
control group for what happens if you don't have a school meal 
program.
    So the provisions of the bill to increase summer 
participation are important. And the rural provision in 
particular, as I indicated, we would like to see extended to 
urban and suburban areas.
    Did you also ask about after school or----
    Mr. Tierney. Would have been my next question, so go ahead.
    Mr. Weill. So many kids now are in after-school programs 
until 6:00, 7:00, or later in the evening because of their 
parents' work and commuting situation that they really need 
more than the snack that the federal government supports now. 
They need supper when programs run that late.
    And the pilot program that does that in 13 states and the 
District of Columbia we support extending to all states in this 
legislation, as well as some other provisions that are in here 
that reduce paperwork and make it easier to do that.
    Mr. Tierney. On the summer program, you have mentioned the 
rural aspect of it, but isn't the suburban area also important, 
because they have a lower concentration of poverty?
    Mr. Weill. Absolutely. I should have brought with me, we 
have on our Web site maps of every state which show where 
changing the test from--the area eligibility tests from 50 
percent to 40 percent, what areas that would add to coverage in 
the program, and that is predominantly rural and suburban 
areas, but also some urban areas, as well.
    Mr. Tierney. Thank you.
    I had a question for the gentleman from the Heritage 
Foundation. I am sorry. Your name has escaped me at the moment.
    Mr. Rector, if I could, you indicate in your written 
remarks, at least, that the poor people are increasingly 
becoming overweight because they eat too much and they exercise 
too little and they appear to eat too many high-fat foods and 
foods with added sugars. And then you go on to say that, you 
know, a promising alternative to the situation is to simply 
limit the amount of low-nutrient, energy-dense foods, such as 
soft drinks, candy, chips, and French fries that schools 
provide or make available to students.
    So that sounds like you are in favor of having some sort of 
regulation or law that applies to schools and limits that kind 
of intake. Would that be accurate?
    Mr. Rector. No. I think that that is a fairly promising 
area, although----
    Chairman Miller. Hit your microphone, please.
    Mr. Rector [continuing]. It can be greatly oversold. But 
wait. I think that this is an issue that clearly can be decided 
at the local school. I don't think that there is any necessity 
for this committee to jump in and become the soft drink czar 
for the nation, so I would strongly suggest that that is not an 
appropriate response, because we can make mistakes, you know?
    Mr. Tierney. Well, share with me what you think might be an 
appropriate response. Should there be any federal dollars at 
all applied in this direction? If so, how?
    Mr. Rector. In the--I am sorry, I didn't understand.
    Mr. Tierney. Toward the issue of nutrition in 
schoolchildren?
    Mr. Rector. Yes, I think that you need to provide some 
school assistance. However, it is very important to put this in 
an overall budget context.
    For the most part, all of these programs are discussed in 
what I call the great charade, which is a pretense that these 
programs are the only thing that stand between children and 
starvation.
    Mr. Tierney. Well, I have--I don't want to----
    Mr. Rector. There are 70 different programs that we have to 
have.
    Mr. Tierney. Excuse me. I have to interrupt you, so what I 
am asking you is, what is your plan? I know what you think the 
criticism of the existing plans are, but what is your plan 
going forward? I want to give you that opportunity.
    Mr. Rector. For school nutrition, I would think that 
schools should have a continuing discussion about the offering 
of things such as soft drinks in the schools. I don't think you 
need a federal mandate on that. And I also think that you 
really ought to evaluate these programs.
    I think it is astonishing that you spend this money without 
any scientific evaluation whatsoever.
    Mr. Tierney. Well, I think it is astonishing--I just gave 
you an opportunity to tell me how you would spend the money, 
and the only thing you can----
    Mr. Rector. I would spend the money on evaluation. I just 
said that.
    Mr. Tierney [continuing]. Just evaluation. Thank you.
    Chairman Miller. Thank you.
    Ms. Clarke?
    Ms. Clarke. Thank you very much, Mr. Chairman.
    My question is for Dr. Sanchez and Major General Paul 
Monroe. While our discussion is focused on food and nutrition, 
I would just like to pivot for a moment to focus on fitness and 
ask a question of you.
    Recently, my office participated in a rally in New York 
City, urging Mayor Bloomberg to keep open our Douglas and 
DeGraw pool, which is affectionately known in our community as 
the Double-D pool. Double-D serves a dual purpose of teaching 
children to swim and is also a safe place for children to 
exercise.
    Having access to safe places to exercise is especially 
important in minority communities, since 25 percent of African-
American and Hispanic children are obese.
    Fortunately, because of the community's efforts, the 
Double-D pool will remain open. However, many communities 
across America, especially inner-city neighborhoods, lack safe 
exercise spaces for children, and combating the obesity 
epidemic in our country requires both proper nutrition and 
exercise.
    So here is my question. I would like you to comment on how 
a lack of safe exercise spaces for our children impacts the 
obesity crisis facing our nation.
    Dr. Sanchez. I had the honor and privilege of serving as 
chair of the Institute of Medicine committee that looked at 
what actions local governments could take to address childhood 
obesity. And there is a compelling evidence base for thinking 
about policies that create safe places for children and their 
families to be able to move their bodies.
    There is evidence there about the value of access to 
affordable foods within a neighborhood. So I believe that the 
evidence is fairly compelling.
    I would say that, in the context of the conversation that 
we are having today, insofar as childhood obesity goes, it will 
take a comprehensive, concerted effort to move the needle in 
the direction that we would like to move it.
    Food and movement are two elements. They need to be 
happening in the schools. They need to be happening in the 
homes. And they need to be happening in communities. And that 
combination is a combination that will begin to make a 
difference. And, in fact, in some communities in the nation, we 
are seeing the needle move. As I mentioned earlier, it is 
concerted efforts. This bill is an important part of the 
foundation that will help move us in the direction that we need 
to move.
    If I can make two other points, Congressman Platts, we are 
paying now because Medicaid costs are increasing because of 
childhood obesity. In Arkansas, we are seeing that. I have no 
doubt that that is the case in other states.
    When it comes to healthy foods being more expensive perhaps 
than not-so-healthy foods, I would say this bill incorporates 
in it some nutrition education that then leads to smarter 
shopping, because there are times of year where some foods that 
are fresh are very inexpensive to purchase, but you have got to 
know what you are buying and when.
    And then, lastly, poverty links obesity and hunger. What we 
do in our communities and our schools can lead to better 
performance in schools, higher graduation rates, and in the 
long run, decreased poverty.
    MG Monroe. Congresswoman, physical fitness is extremely 
important. The Army specifically has begun to conduct a pre-
basic training course because so many of our young people come 
unprepared, and they experience injuries while they are going 
through basic training.
    Most of us here are concerned about the fiscal 
responsibility, but consider this: 1,200 people a year are 
discharged because they are obese and out of shape. They fail 
to meet the minimum requirements, and they are discharged in 
their first term.
    It requires $50,000 to train someone in basic training, so 
everyone we lose, we have to recruit and spend that much money 
again, so we are talking about $60 million a year in costs 
there. And that pales in comparison to those that Dr. Sanchez 
just mentioned, the obesity that is related to heart disease, 
diabetes, cancer, and other health problems.
    I don't know what the answer is, as far as physical 
fitness, but that is one of the programs that seems to be 
dropped, along with art, music, when school districts try to 
make their budget. But they are doing not only the military, 
but the country a disservice by not emphasizing physical 
fitness.
    Chairman Miller. The gentlewoman's time has expired.
    Mr. Kildee?
    Mr. Kildee. Thank you, Mr. Chairman.
    Mr. Rector, you talked about the temporary or paucity of 
results of certain nutrition programs, the BMI program. Have 
there been any studies of the possible differences of results 
between different socioeconomic groups?
    I say that, because I taught generally 10th grade, and the 
junior highs were 7th, 8th and 9th. And the first day of 
school, I could tell those who came from one feeder school, 
junior high school, and those who came from another. And I was 
generally always right on that, their socioeconomic condition, 
and that one part of where I was raised was much less than the 
other.
    Is there any study that has been made on nutrition that 
takes place up to that, say, through the 9th grade?
    Mr. Rector. You see variations in what children eat at home 
based on the parents' education, okay, that you I think see 
wiser food choices as education goes up. It doesn't correlate 
very well with income.
    But what I would say--I appreciate your question, but most 
of the problems that we see with regard to either adult or 
child obesity are pretty widespread in our society. I mean, we 
have people who are overweight in every income class and 
increasing, largely as a result of the fact that people take in 
more calories than they expend in exercise.
    And so that exercise to caloric balance is at the core of 
this. And I really don't think it is very socioeconomic in 
nature.
    One particular thing I would say is that there is a lot of 
misinformation about this, which is one thing that is very 
commonly said is, well, poor people are overweight because they 
don't have enough money to buy good foods, and so they are 
forced to buy junk foods.
    As I said in my testimony, I have researched this. Junk 
food is a very expensive form of calorie. It is not something 
that you would buy if, in fact, you are running out of money.
    I mean, we as--when you are running out of money and food 
in your household, you say, ``Oh, boy, we had better get down 
to the store and get a bunch of Triscuits and Pepsi and some 
chips so we can tide through the end of the month.''
    It is, in fact, a very expensive form of calorie. In fact, 
Pepsi and Coke per calorie cost as much as milk. So I think 
what we have there is people overeat those things, and that 
contributes to obesity, but they do it all up and down the 
socioeconomic spectrum, and it is because those foods are very 
palatable.
    And I do think that it would be good to have an education 
system that began to show to people, ``These are probably--
these are not very good food choices.'' But I don't really 
think it is due to the fact that people, for example, don't 
have enough resources to buy more nutritious food.
    In particular, if you really are running out of food, you 
are running--you don't have enough to bring bulk food into the 
home, junk food is probably the last thing you would buy. You 
would buy basic staples which used to be more common in all 
households in the United States.
    Mr. Kildee. Thank you very much.
    Thank you. Thank you, Mr. Chairman.
    Chairman Miller. Thank you.
    Chef Colicchio, this discussion has sort of gone back and 
forth here. Some of this is--what encourages me about this 
legislation that the committee is--we have been able to put 
together is that it really incorporates a lot of other people 
into this issue. I mean, we didn't do this without soft drink 
manufacturers, without food processors, without other people 
looking at this, because they have been receiving a message 
from local school boards and states about competitive food 
sales, about sweets on campus, about vending machines. These 
decisions are being made locally all the time, and they have 
now come in and said, ``Let's think about a beverage policy, as 
opposed to just fighting every day that we can keep a sweetened 
drink on campus.''
    But a lot of this is about presentation. You are in the 
business of presentation. And we see some, you know, small 
studies done, just one on the presentation of the food, where 
it might be placed in the cafeteria in proximity to the 
students, to the checkout, changes in the uptake rates of 
carrot sticks or celeries or fresh tomatoes or whatever it is 
that is being offered as opposed to other things on that line.
    And I assume in your business, as you try to present food 
to your customers, that is a big part of the decision.
    Mr. Colicchio. Sure. I think what is happening is that 
advertising to kids for fast food and for junk food is--we 
heard earlier testimony, just a tremendous amount of money that 
goes into it, and I think what is happening is that school 
lunch programs are starting to mimic fast food lines.
    And so things that are offered in the school lunch room are 
based on things like chicken nuggets and high-calorie, you 
know, carbonated drinks. And I think what is going--I mean, 
there is a sort of school of thought saying, well, to get the 
kids to eat more, you know, give them sort of what they want or 
what they are being told is something that they want.
    But, again, I think, as I mentioned in my testimony, we are 
adults, and we need to actually start telling our kids that 
there is a healthier alternative. You know, going to Mister 
Softee----
    Chairman Miller. That is sort of like the automobile 
industry said, ``The reason we are selling all these SUVs is 
because that is what America wants.'' No, they were selling 
them because they had four or five times the profit per 
vehicle, and it turned out they got trapped in that market, and 
we----
    Mr. Colicchio. Right, right. They are telling Americans 
what they want----
    Chairman Miller. But for the federal government, we lost 
that industry.
    Mr. Colicchio. Sure. You know, again, kids will make a good 
choice if they are given the opportunity. You know, we know it 
from--my wife and I mentor a young girl who lives in Brooklyn, 
New York. And halfway through the month, when dollars run out 
from food stamps and from SNAP programs, they are forced to get 
the least expensive food available to them, which is usually 
sugar drinks. There is a sugar drink they sell that will give 
you calories, and they are empty calories, providing no 
nutrition at all.
    We found that when we took her into our home and fed her 
things like asparagus, she couldn't believe how good it was. 
When we took her to a farm and had her pick strawberries, she 
had no idea they actually came out of the ground and that they 
were so delicious.
    And these things you don't find in school lunchrooms. You 
are finding cheap, inexpensive, high-calorie fat and sugar 
foods.
    Mr. Scott, the question that you asked about how does 
obesity correlate to poverty--I think that was the question--
again, when you are forced to choose between a Happy Meal that 
costs a dollar, it is cheap, but there is very little nutrition 
involved, there are a lot of calories, empty calories from 
sugar and starch and fat.
    And so it is affordable, but we are providing our kids no 
nutrition at all and just a tremendous amount of calories. And 
so kids are getting more than a 2,000-calorie, you know, meal. 
That is what is making them fat.
    Chairman Miller. You know, one of the things we are trying 
to do in this legislation is to really modernize this program. 
We have a program that was really designed to force 
agricultural products through the largest consumer, I guess, 
outside of the U.S. Army on food.
    So you get corn or you get wheat and then you send it out 
and you get back a pizza, you get back a corn dog. You send out 
a whole chicken, you get back a Chicken McNugget. That works 
really well for the farming community. It doesn't work terribly 
well for the nutrition of our children.
    But as the Secretary was pointing out, with some equipment 
changes, with some alternatives, those schools now have some 
alternatives available to them at relatively low cost to 
provide fresh fruits and vegetables or more wholesome products 
from the programs than what was happening.
    And I think they were--it was easy. You know, you talked 
about your mother working in a school line. That is the program 
I went to. People were behind there making the meals from 
scratch. That is not going to happen today. Many schools don't 
have kitchens. But that doesn't mean we then have to surrender 
to high-calorie, high-fat foods in the name of our children. It 
is just not going to work.
    Mr. Colicchio. No. And, you know, it is interesting that 
early on Secretary Vilsack talked about the farm bill, because 
I think that that is something--another way to address this. 
Whole foods are more expensive for various reasons, and I think 
that the key to this is trying to get the cost of whole foods 
down.
    Why is it that processed foods are so cheap and yet whole 
foods, a head of cauliflower is expensive? It shouldn't be that 
way, and maybe that is a place for discussion in the farm bill.
    But, again, my mother was always frustrated because she 
couldn't get a hold of fresh vegetables and that she was forced 
to use a lot of processed foods. So, yes, it is--this is a 
major issue.
    Chairman Miller. Dr. Sanchez, I just want to thank you for 
your statement. And I think this is what we have been trying to 
do in this legislation. You say that addressing the challenges 
of poor nutrition and obesity will take action from all levels 
of government, business, health care organizations, public 
health advocates, schools, families, and individuals.
    I know in my area, well, Blue Cross is a big provider, but 
as is Kaiser. And both of these organizations are working with 
schools, working with their covered patients to try to develop 
this.
    You know, I think it is unfair to stand that we haven't 
solved obesity on the head of the school lunch program, the 
child nutrition programs. We have got a long ways to go in our 
community, but what we do see is a huge change in attitudes and 
education and receptivity to this message about what this is 
costing us.
    Again, as we went through this health care debate and as we 
continue to see these figures, the drivers of health care costs 
that you have pointed out, and this is an attempt to take this 
opportunity, kids are in the class, they are here, they are 
after school, and to see whether or not we can bring that 
information, we can bring some of those foods to this part of 
the day, but there are other parts of the day that families are 
going to have to take responsibility for, health providers are 
going to have to take responsibility for.
    But to put this into that conversation that is now so 
valuable in this country, along with, as many of my colleagues 
have mentioned, exercise and the needs to combine healthy 
eating and exercising and getting kids up out of the thumb 
exercises on computers or games or however they are doing that, 
as important as much of that is.
    Mr. Kline?
    Mr. Kline. Thank you, Mr. Chairman. Again, thanks to our 
witnesses.
    I want to pick up on what the chairman just said about 
there being a huge change in attitude. Clearly, we have seen 
that. Now we know that 90 percent of schools have eliminated 
soft drinks, caloric soft drinks. You get diet soda, you get 
water, you get sports drinks, and that has been a voluntary 
effort. The beverage association took that on without any 
federal legislation here.
    I just want to touch on a couple of things, because I don't 
have a lot of time. Dr. Sanchez mentioned that this bill cost 
$8 billion. We need to keep in mind that this is some $8 
billion over and above the current about $20 billion baseline. 
There is a lot of money here.
    Mr. Weill, I think your organization is suggesting that we 
broaden these programs. This bill has numerous so-called pilot 
programs in it where there are 13 states or some number of 
states and you would like to see all states included, as I 
understand your testimony, and I am sure you realize that that 
is billions and billions of dollars more on top of the $8 
billion that is already there, so that is something we will be 
looking at as this bill comes up for markup, presumably in a 
week or 2, whenever it comes up.
    We will, of course, be looking at that, because that is an 
awful lot of money. And one of the problems when you start a 
pilot program with some number of states--of course, let's 
arbitrarily pick 13 here--that means you have got some 37 
states that don't have it, they want it, and that just leads to 
a whole lot more spending, as you go down the line.
    Chef, I mean, I am sure that when you prepare the asparagus 
that your kids, my kids, every kid would love to have the 
asparagus, and, of course, we are all envious of your skills 
and we are very grateful that you are here today.
    I hear the buzzer buzzing, so I am going to go to Mr. 
Rector, as I run out of my time, because we have had--I have 
heard a number of the witnesses and others say for some time 
that things like, ``We know from the studies,'' or, ``Studies 
show us,'' or, ``The evidence says,'' and yet in your 
testimony, you are saying we don't have a study that would 
really address this issue and show us the effectiveness with a 
control group.
    I would like to give you some time, because I know you were 
trying to respond to an earlier question by saying that your 
plan would be to know the facts before we start. So can you 
just take this opportunity, the closing minute or 2, and talk 
about the sort of discrepancy, where clearly there are 
studies--and you are suggesting there aren't studies with 
control groups--can you take some time to address that?
    Mr. Rector. Yes. In most government programs, you have 
evaluations in which you have a treatment group that receives 
the program, and then you have a randomly selected control 
group that does not receive the program. There are different 
ways of doing that.
    And then you evaluate the difference between those two 
groups in terms of the outcome. That is the way you would test 
a drug, for example.
    In these programs, that is never done. There is no control 
group. And therefore, there are very sophisticated studies that 
try to sort of synthetically assume what would have happened in 
the absence of the program, and they produce very contradictory 
results, and they are not very reliable.
    What you find is when you do a real evaluation on any kind 
of program, including programs I like, like abstinence 
education, is that a lot of programs don't have any effect. You 
do get some effect, but the effect is always far less than you 
thought, okay? So it is very easy to say, well, we have got a 
problem with childhood obesity, and if we just throw this kind 
of money in here and do this here, all these wonderful things 
are going to happen.
    But, in fact, when you find when you do the evaluation that 
you get either no effect or an effect that is a lot smaller 
than you had hoped it was going to be. And it is very 
important, before you start throwing out billions and billions 
and billions of dollars, that you actually step back and try to 
figure out what, in fact, doing this particular thing is going 
to do.
    Now, I will go back again to school breakfast. There are 
always claims about, oh, well, this is going to improve 
academic achievement. I think there is a great theory of why 
that would be. It seems plausible to me. But, in fact, there is 
not a single evaluation with a control group to substantiate 
that claim.
    And the couple that exist as alleged scientific studies 
have massive methodological problems with what are called 
selection bias that really make them laughable. And there are 
only a handful of those.
    So before you--you know, we are going bankrupt. We are on 
the path to Greece, okay? And we are spending an astonishing 
amount of money assisting low-income and poor people with 
children, again, over $30,000 per household, cash, food, 
housing, medical care, social services, not general education, 
amazing amount of money.
    And yet somehow we are told that, despite we are spending 
$30,000 for every household with children in the bottom third 
of the population, that we have kids teetering around here 
that, you know, can't study because they don't have enough food 
in their stomachs.
    I think that most of those claims are exaggerated. And if 
you--and it is very important before you start piling on more 
spending and going further down the road to Greece that you 
actually evaluate these things so that you are getting more 
effect for each dollar that you spend.
    Mr. Kline. All right, thank you.
    I yield back, Mr. Chairman.
    Mrs. McCarthy. Thank you again, Chairman Miller.
    You know, again, going through all the hearings that we 
have gone through over the last several years, and basically a 
large part of my subcommittee has been working on obesity. So a 
lot of the things that I am hearing today, we have taken those 
ideas and put them into the bill. I had five standalone bills 
that we have been able to put four of them into the main bill.
    The whole idea about the legislation that we are going 
through is a large part on education, because there has come a 
point in this country where people are not being educated about 
the food, the processed food that they are eating, which goes 
to the child.
    So this legislation also looks at, how are we going to cut 
down costs? Because there are a lot of duplicative programs and 
make it more streamlined.
    So I think that we are covering almost everything on what 
the debate is, but I will go back and say that the food that 
these children are eating is certainly raising the health care 
costs. Again--and Chairman Miller had said, that was the whole 
idea about the health care bill, to take the whole thing and 
look at it holistically.
    We have facts that children in this country, higher rates 
than ever, are Type 2 diabetes. We are seeing as a fact that 
young children are raising their cholesterol levels way above 
where they should be. So those facts alone, this bill is trying 
to look at.
    Now, I guess, you know--and we are also looking at very 
strongly not just for the federal government to be involved in 
this, but to have the partnerships. As you have done, Chef--I 
am going to say this wrong--Colicchio, and also Dr. Sanchez, 
you know, by the partnerships that you have been able to do to 
bring everybody together, again, more education than an awful 
lot of other issues.
    So I guess my question to the panel would be--especially to 
you, Tom--how do you describe your establishments, public-
private partnerships, to make real changes in schools and to 
improve nutrition? I mean, obviously, that is what you have 
been doing. It has been very responsive.
    I will be honest with you. I am a very bad eater. But I 
started working or looking at the programs that have been 
challenging for schools, and I find it fascinating. And data--
we will have data, because many of my schools that are already 
doing this kind of a model are working with hospitals so they 
have the data.
    And so far, the data is showing kids do better, they are 
not as restless, and they are more attentive, and overall their 
quality of life has improved tremendously. So that data is 
coming through. And, by the way, we are collecting data.
    Chef?
    Mr. Colicchio. Yes, thank you. Our First Lady sort of 
brought a group of chefs--1,000, around--to the south lawn and 
asked us to go into schools and to start educating and also 
working with local--creating local community farms.
    We are actually creating a farm in New York right now that 
will bring in probably three local public schools to use it as 
a classroom, primarily to educate. And some of the fruits and 
vegetables produced on that farm will go into the school lunch 
system, but it is really primarily to educate children on how 
food is grown and why eating--you know, making healthier 
choices translates into healthier children.
    Also, in New York City, there has been some pilot programs 
where they are providing lunches in the classroom in first 
period, not in the lunchroom. A lot of the children--there is a 
stigmatism associated with coming in early. You are a poor kid. 
And so they don't actually participate in some of the morning 
programs.
    But we are finding that, when kids come into first period 
and they are getting a lunch, that they are more attentive, 
there are less incidents where they are going to the 
principal's office for behavior issues and things like that.
    And so maybe this isn't an absolute controlled study, but 
if you go into the schoolrooms, you go into the schools and you 
talk to the teachers and talk to the principals, they will tell 
you it is working.
    Mrs. McCarthy. Dr. Sanchez, quickly, because we are running 
out of time--we have a vote--even though we don't have, quote, 
right now all the information that we need, but would you not 
agree that where we are going and going forward hopefully we 
can deal with--certainly starting from Head Start--that is 
where I believe we should start so we can prevent some of these 
kids on going to be, by the time they are in the early teens, 
not to have diabetes and not to have high blood pressure and 
cholesterol problems?
    Dr. Sanchez. I wholeheartedly concur. I think that the 
evidence base is growing. I would agree with Mr. Rector that 
the randomized control trial, which is the gold standard for 
pharmaceutical products, is not necessarily the gold standard 
for what goes on in communities.
    The evidence is building. The methodologies are becoming 
more and more sound. And the evidence is fairly compelling.
    And, again, there are success stories. There are stories of 
what you can do in Head Start that makes a difference. There 
are stories of what you can do in school systems that are 
moving the needle in the direction that we want to move the 
needle.
    Public-private partnerships, I believe, are essential. In 
North Texas, we are trying to make the case that child obesity 
is a corporate North Texas issue. And getting corporate North 
Texas----
    Chairman Miller. I am going to intervene here. I am sorry. 
I just--I wanted to get to Mr. Thompson. Thank you. The 
gentlewoman's time is expired. Thank you----
    Mrs. McCarthy. Thank you.
    Chairman Miller [continuing]. Before we leave for a vote.
    Mr. Thompson. Thank you, Chairman.
    Major General, thanks for your service to the country and 
your continued service with Mission: Readiness. Very much 
appreciated.
    Very simply, in your testimony, you explained that there is 
not one single action that we can take to remedy the problem of 
obesity in the nation, and you focused on the role the schools 
play in child nutrition. Just briefly, what is one action, one 
action, starting with the parents can take?
    MG Monroe. Well, going back a little farther than that, 
parents need to be educated, also, and just more nutritious 
diet and exercise. In the military now, what we have done, 
there is no--we haven't studied empirically. It is just the 
reaction of what is happening. We have a lot of broken bones in 
basic training because a lack of exercise and a lack of 
nutritious meals.
    The military tries to correct that. Unfortunately, we have 
also allowed fast food restaurants on military bases. And even 
the dining facilities, they have opened up that type of food 
service, if you will.
    So they have the regular balanced food. Every military 
organization has a food service officer that pays attention to 
the balance of nutrition in the food. But at the same time, we 
still have corn dogs over at the side, and it is just defeating 
that purpose.
    But if there was some way we could educate parents, maybe 
through--once a school's--through PTAs and things like that, 
that this is what is beneficial for your child, and these are 
some of the things that you can expect if they are not eating 
nutritious foods and if they are not exercising.
    Mr. Thompson. And what would be one thing, based on your 
work with Mission: Readiness, one thing? If you had a priority 
of what schools should do, what would that one thing be?
    MG Monroe. Well, some of it has begun, is to remove those 
sugared sodas that they have in the restaurant, and provide 
more healthy lunches, because a lot of kids do eat in the 
cafeteria. My wife is a retired school principal, and she was 
there when they used to cook in the kitchen. They still have a 
kitchen. And all of a sudden, in order to save money, the 
district contracted and they get corn dogs and Cheetos and 
things of that nature. And it just doesn't help the children.
    Again, as I mentioned earlier, we get rid of physical 
education programs, which we really need in order to keep our 
people healthy and to make sure that we have those folks that 
are qualified to enlist in the military, because they have had 
nutritious meals and they have had the exercise that they need.
    The first thing I would say that parents can do is get 
their kids moving.
    Mr. Thompson. Thank you.
    Mr. Chairman, I yield back.
    Chairman Miller. Ms. Chu--one question----
    Ms. Chu. Okay, I will just ask one question, which is 
research has shown that there is a strong connection between 
well-fed healthy students and achievement. And we certainly 
need to improve our lowest performing schools. And to ensure 
that our lowest performing schools that are at the lowest 5 
percent make a turnaround, it seems that it is critical for us 
to incorporate wraparound services, such as free and reduced 
price meals.
    To that end, do you--what do you think about schools 
designating the lowest performing schools under ESEA as 
automatically certified for school meal programs?
    Mr. Weill. I think it would be great to focus, given the 
limited resources, to focus more the expansions in the lowest 
income schools, so I think that is an excellent idea.
    I would just add, related to that, that in the debate, as 
Dr. Sanchez says, there is more and more compelling evidence of 
the effect of these programs. But also, the other evidentiary 
base that we have that the committee could look to is talking 
to teachers, because when these programs get into the schools, 
get into the classrooms, the teachers are the biggest advocates 
for school breakfast and school lunch and better nutrition in 
these programs.
    Ms. Chu. Thank you. I yield back.
    Chairman Miller. Thank you very much.
    Thank you for your time and your expertise and bearing with 
us during the set of votes. We are not going to make you do it 
a second time.
    It is the intent of the committee to mark up this 
legislation on the week that we return after the July 4th 
break, so just put people on notice of that. And if there are 
no further comments or questions, the committee will stand 
adjourned.
    And, again, thank you so much for your time.
    [Additional submission of Mr. Miller follows:]

       Prepared Statement of the Food Research and Action Center

    Chairman Miller, thank you for your work on the Improving Nutrition 
for America's Children Act (HR 5504) and for holding today's hearing.
    According to the Food Research and Action Center, over 15% of 
households in Washington's 2nd Congressional District experience food 
insecurity. We need to do more to make sure that every child gets the 
nutritious food he or she needs to be healthy.
    The Improving Nutrition for America's Children Act is a great step 
forward towards the important goals of reducing childhood hunger and 
obesity. It provides over $8 billion to help school districts, non-
profits, and community organizations improve access to food for low-
income children while giving the Secretary of Agriculture much-needed 
authority to strengthen nutritional requirements for food served in 
schools.
    I am particularly pleased that HR 5504 includes provision that will 
help non-profits and community organizations serve food to low-income 
children after school and during the summer. Specifically, Section 113 
of the legislation will allow non-profits in 10 states to serve 
nutritious meals and snacks after school, on weekends, and during the 
summer, ensuring that they can help low-income children access healthy 
food 365 days a year. This expansion of the enormously successful 
``Miller Pilot'' in California is a great approach to helping low-
income children get nutritious meals at times when they are most 
vulnerable to hunger.
    We have a moral obligation to ensure that all children get enough 
to eat, and your efforts will help us get closer to President Obama's 
goal of ending childhood hunger in America by 2015. I look forward to 
working with you to pass the Improving Nutrition for America's Children 
Act in the coming weeks.
                                 ______
                                 
    [Additional submissions of Mr. Kucinich follow:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                                ------                                

    [The article, ``Television viewing, fast-food consumption, 
and children's obesity,'' by Hung-Hao Chang, Rodolofo M. Nayga, 
Jr., Contemporary Economic Policy, July 2009, may be accessed 
at the following Internet address:]

        http://edlabor.house.gov/documents/111/pdf/publications/
                       20100701hearingarticle.pdf

                                 ______
                                 
    [The article, ``Fast-Food Restaurant Advertising on 
Television and Its Influence on Childhood Obesity,'' by Shin-
Yi-Chou, Inas Rashad and Michael Gross, Journal of Law and 
Economics, November 2008, may be accessed at the following 
Internet address:]

        http://edlabor.house.gov/documents/111/pdf/publications/
                      20100701hearingarticle3.pdf

                                 ______
                                 
    [Additional submissions of Mr. Weill follow:]

                   Food Research and Action Center's
               Child Nutrition Reauthorization Materials

    School Nutrition Programs:
    <bullet> Providing Grants for Universal and In-Classroom School 
Breakfast Programs. A one pager that outlines the importance of 
supporting universal and in-classroom breakfast. http://www.frac.org/
pdf/cnr--priority--breakfast.pdf
    <bullet> How to Expand Participation in School Breakfast. An in-
depth policy brief on the School Breakfast Program. http://
www.frac.org/pdf/CNR06--breakfast.pdf
    <bullet> Eliminating paper applications for free school meals. A 
one pager that recommends strategies to improve the process for 
qualifying low-income children for free school meals and ways to allow 
high poverty schools to provide free meals to all students. http://
www.frac.org/pdf/cnr--priority--paperless.pdf
    Afterschool and Summer Nutrition Programs:
    <bullet> Reaching More Children in Need of Afterschool and Summer 
Nutrition: Improving the Area Eligibility Test. A one pager that 
outlines the need to lower the area eligibility requirement from 50 
percent to 40 percent. Area eligibility is how afterschool and summer 
programs qualify to participate in the child nutrition programs.
    http://www.frac.org/pdf/cnr--priority--area--eligibility.pdf
    <bullet> Expand the Afterschool Meal Program Nationwide. A one 
pager that outlines the need to expand the Afterschool Meal Program so 
that every state can participate. Currently, the program is only 
available in 13 states and the District of Columbia. http://
www.frac.org/pdf/cnr--priority--afterschool.pdf
    <bullet> Increasing Access to Summer Meals. A one pager that 
outlines ways to improve Summer Food so that more children can 
participate. http://www.frac.org/pdf/cnr--priority--summer.pdf
    <bullet> How to Increase Low-Income Children's Access to Nutritious 
Meals and Snacks After School. An in-depth policy brief on the 
Afterschool Nutrition Programs. http://www.frac.org/pdf/CNR02--
afterschool.pdf
    <bullet> How to Increase Low-Income Children's Access to Nutritious 
Meals in the Summer. An in-depth policy brief on the Summer Nutrition 
Programs. http://www.frac.org/pdf/CNR04--summer.pdf
    Child and Adult Care Food Program:
    <bullet> Allow child care centers and homes the option of serving a 
third meal. A one pager that outlines the importance of allowing 
children to receive three meals if they are in child care for more than 
eight hours. Currently, they can only receive two meals and a snack. 
http://www.frac.org/pdf/cnr--priority--cacfp--thirdmeal.pdf
    <bullet> Improving the Area Eligibility Test for the Child and 
Adult Care Food Program. A one pager on that outlines the need to lower 
the area eligibility requirement from 50 percent to 40 percent. Area 
eligibility is how child care homes qualify to participate in the Child 
and Adult Care Food Program. http://www.frac.org/pdf/cnr--priority--
area--eligibility--cacfp.pdf
    <bullet> How to Promote Access to Good Nutrition in Child Care 
Settings. An in-depth policy brief on ways to increase low-income 
children's access to nutritious meals and snacks while they are in 
child care. http://www.frac.org/pdf/CNR03--CACFP.pdf
    Nutrition Quality:
    <bullet> How Improving Federal Nutrition Program Access and Quality 
Work Together to Reduce Hunger and Promote Healthy Eating. An in-depth 
analysis of how the child nutrition programs combat both hunger and 
obesity. http://www.frac.org/pdf/CNR01--qualityandaccess.pdf
    <bullet> How Competitive Foods in Schools Impact Student Health, 
School Meal Programs, and Students from Low-Income Families. An in-
depth policy brief that outlines the impact of competitive foods. 
http://www.frac.org/pdf/CNR05--competitivefoods.pdf
                                 ______
                                 
                                                     June 16, 2010.
Hon. Harry Reid, Majority Leader; Hon. Mitch McConnell, Minority 
    Leader; Hon. Richard Durbin, Assistant Majority Leader; Hon. Jon 
    Kyl, Assistant Minority Leader;
United States Senate, Washington, DC 20510.
    Dear Senators Reid, McConnell, Durbin and Kyl: We the undersigned 
organizations are writing to ask for your help in achieving passage of 
a robustly funded and comprehensive child nutrition reauthorization 
bill before the end of the 111th Congress that will ensure more low-
income children have access to these valuable programs and take a 
strong step forward to meet the challenge of ending childhood hunger by 
2015.
    According to the USDA nearly one in four children in the United 
States is food insecure: that is, some 17 million children who face 
hunger. Child nutrition programs offer the healthiest and most 
nourishing meals that many children receive each week. For many poor 
children, they may be their only fully-balanced meals. Moreover, there 
are many poor children who do not have access to nutrition programs at 
all. This is particularly true for children living in low-income and 
rural areas where breakfast, child care and after school, or summer and 
weekend food programs are not available to them.
    Data on child nutrition program participation illustrate the point 
that there are millions of low-income children who do not have child 
nutrition programs available to them. In FY2009, 19.5 million low 
income children received free and reduced price school lunches. This 
compared to only 9.1 million receiving free and reduced price 
breakfasts, and only 2.2 million children in summer food programs. 
Moreover, only 3.1 million children are in child care centers and homes 
with federally supported child nutrition programs. Clearly these are 
large gaps in service that must be filled quickly if we are to 
accomplish an end to childhood hunger, and time is running out to reach 
this goal by 2015.
    Our organizations are united in the call for completion of a strong 
and fully funded child nutrition reauthorization bill before the end of 
this year. Two hundred twenty one members of the House of 
Representatives have written to Speaker Nancy Pelosi, urging her 
assistance in identifying resources to achieve President Barack Obama's 
commitment of $10 billion in additional funding for child nutrition 
over 10 years. We therefore respectfully request that you bring S.3307 
to the Senate floor with the full funding increase proposed by the 
President, with the right mix of funding, and on a schedule that 
assures that this year this important legislation can fill the gaps in 
access that remain for millions of our nation's poorest children.
            Respectfully,

                       [Signatures as of 6/14/10]

National Organizations
9to5, National Association of Working Women
Action for Children
Afterschool Alliance
Alliance to End Hunger
American Academy of Pediatrics
American Baptist Home Mission Societies
American Commodity Distribution Association
American Community Gardening Association
American Federation of State, County, and Municipal Employees
American Federation of Teachers
American School Health Association
Americans for Democratic Action, Inc.
Association of Nutrition Services Agencies
Bread for the World
Catholic Charities USA
Center for Law and Social Policy
Child Care Network
Child Welfare League of America
Children's Defense Fund
Children's Health Watch
Church Women United
Christian Reformed Church in North America
Coalition on Human Needs
Community Action Partnership
Community Food Security Coalition
Conference of Major Superiors of Men
Congressional Hunger Center
Disabled Veterans Committee on Housing
Early Care and Education Consortium
Easter Seals
eGovernment Payments Council of the EFTA
End Hunger Network
Evangelical Lutheran Church in America
Feeding America
First Focus Campaign for Children
Food Research & Action Center (FRAC)
Friends Committee on National Legislation
Half in Ten Campaign
Human Relief Organization
Islamic Circle of North America
Jewish Council for Public Affairs
Jewish Reconstructionist Federation
Knowledge Learning Corp.
Land O' Lakes, Inc.
Leadership Conference of Women Religious
Learning Care Group
Lutheran Services in America
MAZON-A Jewish Response to Hunger
Meals on Wheels Association of America
Mennonite Central Committee
Muslim Public Affairs Council
National Advocacy Center of the Sisters of the Good Shepherd
National Association of County Human Services Administrators
National Association for Family Child Care
National Association for the Education of Young Children
National Black Child Development Institute
National CACFP Forum
National Collaboration for Youth
National Council of Churches of Christ, USA
National Council of Jewish Women
National Council of La Raza
National Education Association/
National Farmers Union
National Immigration Law Center
National Recreation and Park Association
National Rural Health Association
National Summer Learning Association
National WIC Association
National Women's Law Center
NETWORK: A National Catholic Social Justice Lobby
Presbyterian Church U.S.A. Washington Office
Progressive National Baptist Convention RESULTS
Salvation Army
Sargent Shriver National Center on Poverty Law
Save the Children
School Food FOCUS
School Gardens Across America
School Nutrition Association
Service Employees International Union
Share Our Strength
Single Stop USA
Sodexo
Sodexo Foundation
Sojourners
The Episcopal Church
The Jewish Federations of North America
The Leadership Conference on Civil and Human Rights
The National Center for Children and Families
The National Policy and Advocacy Council on Homelessness
The Society of St. Andrew
The Sponsors Association
The United Methodist Church-General Board of Church and Society
Union for Reform Judaism
United Church of Christ
United Fresh Produce Association
Universities Fighting World Hunger
USAction
Voices for America's Children
WhyHunger
Women of Reform Judaism
YMCA of the USA
YWCA
Zero to Three
State/Local Organizations
            Alabama
Auburn University
Bay Area Food Bank
Food Bank of North Alabama
Jefferson County Child Development Council Inc.
Legion of Mary
            Alaska
Alaska Center for Public Policy
Food Bank of Alaska
            Arizona
Arizona Association of Family Day Care Providers
Arizona Child Care Association
Arizona Community Action Association
Arizona Council of Human Services Providers
Association of Arizona Food Banks
Boys and Girls Clubs of Metropolitan Phoenix
Community Food Bank, Inc.
Desert Mission Food Bank
Grand Canyon Synod--ELCA
St. Mary's Food Bank Alliance
United Food Bank
Yuma Community Food Bank
WHEAT
            Arkansas
Arkansas Action for Peace
Arkansas Advocates for Children and Families
Arkansas Affiliate American Association of Family and Consumer Services
Arkansas Health Care Access Foundation
Arkansas Homeless Coalition
Arkansas Hunger Alliance
Arkansas Public Policy Panel
Arkansas United Methodist Church Hunger Action Task Force
Black River Area Development Corporation
Carroll County Community Foundation
Catholic Adoption Services
Catholic Charities of Arkansas
Christ Episcopal Church
City Connections, Inc.
Community Crisis Intervention Services, Inc.
Family Resource Service of Lonoke
Feed the Children
First United Methodist Church-Russellville
First United Methodist Church-Springdale
Flint Street Fellowship Food Pantry
Food Bank of Northeast Arkansas
FPC Food Pantry
Great Beginnings
Hill's Community Learning Center
Kids 1st Inc.
Manna from Heaven Food Pantry
Melbourne-Bethesda-Cushman UMS
Methodist Federation for Social Action
Neighbor to Neighbor
North Little Rock Mayor's Youth Council
Project HOPE Food Bank
Southeast District Arkansas Conference United Methodist Women
Saint Paul's Episcopal Church
South West Arkansas Food Bank
The Vine and The Branches, Inc.
Total Deliverance Cathedral Church
            California
9to5 Bay Area
9to5 Los Angeles
A World Fit For Kids
ACT for Women and Girls
Alameda County Community Food Bank
Auburn Adventist Community Services
Auburn Interfaith Food Closet
Breastfeeding Task Force of Greater Los Angeles
California Association for the Education of Young Children
California Association of Food Banks
California Breastfeeding Coalition
California Emergency Foodlink
California/Nevada Community Action Partnership State Association
California Roundtable
California School-Age Consortium
California School Nutrition Association
Central Valley Association for the Education of Young Children
Child Care Food Program Roundtable
Child Development Centers
Child Nutrition Program of Southern California
CHILDS-PACE
Christian Church (Disciples of Christ)
Community Child Care Council (4Cs)
Community Food Bank of San Benito County
Continuing Development Inc.
Contra Costa Child Care Council
Family Resource & Referral Center
FCEOC Head Start
FIND Food Bank, Inc.
Food Bank of Contra Costa and Solano
Food Bank of the Rockies
FOOD Share
Fresno County EOC Head Start and Early Head Start
Full Circle
Genesis House, Inc.
Good Samaritan Baptist Church
Greater Richmond Interfaith Program
Imperial Valley Food bank
Interfaith Food Bank
International Institute of Los Angeles
Islamic Information Service
Libreria del Pueblo
Los Angeles Coalition to End Hunger & Homelessness
Los Angeles Regional Foodbank
Lord's Pantry
Napa ValleyFood Bank/CANV
National Association of Social Workers-California Chapter
National Council of Jewish Women, California State Public Affair
Newport-Mesa Federation of Teachers
North Coast Opportunities Rural Communities Child Care
Orange Children & Parents Together, Inc
Parent Voices El Dorado County
Partnership for Children and Youth
Placer Food Bank
Revolution Foods
Rose Foundation for Communities and the Environment
San Francisco Food Bank
Saint Joseph Center
Second Harvest Food Bank of Orange County
Second Harvest Food Bank of Santa Clara and San Mateo Counties
Second Harvest Food Bank Santa Cruz County
Sister Evelyn Mourey Center, Inc
Sisters of Mercy
Sparrow Project
St Vincent de Paul, Dixon
St. Vincent de Paul, Concord
The Resource Connection Food Bank
United Ways of California
Valley Oak Children's Services
Ventura County Health Care Agency
Western Center on Law and Poverty
Wu Yee Children's Services
Youth Leadership Institute
            Colorado
9to5 Colorado
ACS Community LIFT
Arvada Community Food Bank
Care and Share Food Bank
Cherry Creek Schools Food and Nutrition Services
Colorado Children's Campaign
Colorado Coalition to End Hunger
Colorado Community Action Association
Colorado Legacy Foundation
Colorado Office of Professional Development
Colorado Progressive Coalition
Colorado Social Legislation Committee
Colorado Statewide Parent Coalition
Congregation B'nai Chaim
Daniels Fund
Denver Urban Ministries
Early Childhood Education Association of Colorado
Family to Family
Feeding Colorado
Food Bank for Larimer County
Food Bank of the Rockies
GreenLeaf
Hope Morrison, Inc.
Hunger Free Colorado
Inter-Faith Community Services
Lutheran Advocacy Ministry--Colorado
Luv In Action
Metro CareRing
Metro Denver Health and Wellness Commission
Mountain Family Center
OUR Center
Overstreet & Associates
Share Our Strength-Colorado
Sisters of Charity of Leavenworth
Weld Food Bank
            Connecticut
Community Health Network
Connecticut Association for Human Services
Connecticut Food Policy Council
Connecticut Public Health Association
Connecticut Voices for Children
Collaborative Center for Justice
End Hunger Connecticut!
Foodshare
Jewish Federation of Eastern Fairfield County
MACC Charities
Poor People's Alliance
            Delaware
Food Bank of Delaware
District of Columbia
Ample Harvest
Capital Area Food Bank
D.C. Hunger Solutions
Mary's Center for Maternal and Child Care
Summit Health Institute for Research and Education, Inc.
            Florida
Academy 2000, Inc.
AME Missionary Society
Association of Early Learning Coalitions
Boca Helping Hands
CCB/CSC Million Meals Committee
Caring For Others Ministries
Central Florida Teen Challenge
CharityExpressInc.
Children's Services Council of Broward County
Circle of Life
Community Crusaders
Community Foundation for Palm Beach and Martin Counties
Community Partnership Group
CROS Ministries-United Methodist Church
Easter Seals of S. Florida
EBPrest
ECHO (Emergency Care Help Organization)
Episcopal Charities of Southeast Florida
Evangelical Christian Bible Ministries International
Family Assistance Coalition, Inc.
Family Central.org
Farmworker Association of Florida, Inc.
Florida Conference AMEC Women's Missionary Society
Florida Impact
Florida Organic Growers
Gainesville Commission on the Status of Women
Gulfstream Goodwill
Harry Chapin Food Bank of SW Florida
Holy Name of Jesus Food Pantry
Hope International Church
Housing Partnership
IBEW #728 AFL-CIO
ISF Group, Inc.
Jesus Loves You Outreach Ministries, Inc.
Lutheran Social Services of Northeast Florida Inc
Million Meals Committee
Mt. Sinai M.B. Church
New Hope Charities
Okeechobee County School District
Palm Beach County Community Food Alliance
Rescue Outreach Mission
Safe Earth Alliance
Second Harvest Food Bank of Central Florida
Second Harvest North Florida
South Brevard Sharing Center
St. George's Center, Inc.
St. Luke's United Methodist Church
St. Paul A.M.E. Church, Tallahassee
Strong WoMen Network
Tampa Jewish Federation
The Blue Foundation for a Healthy Florida
The Children's Forum, Inc.
The Children's Trust
The Christian Sharing Center
The First Community Christian Pentecostal Church of God
The Jewish Community Relations Council of the Greater Miami Jewish 
        Federation
The Sharing Center-Sanford
Treasure Coast Food Bank
True Tabernacle of Jesus Christ Ministries, Inc
Tuskawilla United Methodist Church
United Methodist Women
Zoe Ministries
            Georgia
9to5 Atlanta Working Women
Atlanta Community Food Bank
Chatham County Nutrition Program
Feeding the Valley, Inc.
Georgia School Nutrition
Macon Bibb County Economic Opportunity Council
The West End Center, Inc.
            Hawaii
Aunty Jill's Playgroup
Child Care Business Coalition of Hawaii
Family Support Hawaii
Hawaii Breastfeeding Coalition
It's A Small World Daycare
Kimberley Limasa's Day Care
Knight's Day Care
Little Learners Preschool, LLC
Maui Economic Opportunity, Inc.
PATCH
Saint Joseph Preschool
Seagull Schools
Shen's Daycare
Waiokeola Congregational Church
Wesley Children's Programs
            Idaho
Idaho Interfaith Roundtable Against Hunger
Monastery of St. Gertrude
Sandpoint Food Group
Tables of Hope
            Illinois
Arcola Food Pantry
Chicago Lights Elam Davies Social Service Center
Chosen Tabernacle Ministries
Clifton Community Food Pantry
Coalition on Human Needs
Community Service Center
Corner Stone Food Pantry
Dominican Sisters of Sinsinawa
Eastern Illinois Foodbank
Feeding Illinois
Generations of Hope
Grassroots Collaborative
Greater Chicago Food Depository
Illinois Action for Children
Illinois Hunger Coalition
Illinois Maternal and Child Health Coalition
Lutheran Advocacy--Illinois
Lutheran Church of St. John
Marillac Food Pantry
National Council of Jewish Women, Illinois State Public Affairs
Northern Illinois Food Bank
Northside Anti-Hunger Network
Oak Park River Forest Food Pantry
Palestine Food Pantry
Respond Now
River Bend Foodbank
Rural Grace Pantry
SAM Food Pantry
Salt and Light
Sixth Grace Presbyterian Church
St. Cletus Food Pantry
Vital Bridges NFP, Inc.
Voices for Illinois Children
YWCA-Illinois
            Indiana
Catholic Charities Archdiocese of Indianapolis
Catholic Charities Terre Haute
Children's Bureau, Inc.
Church Women United in Indiana
Coalition on Human Needs
Community Harvest Food Bank of Northeast Indiana, Inc.
Disciples Home Mission
Feeding Indiana's Hungry, Inc.
Food Bank of Northwest Indiana
Food Finders Food Bank
Freestore Food Bank-Cincinnati
Hoosier Hills Food Bank
Indiana Coalition for Human Services
Jewish Community Relations Council-Indiana
KALP NETWORK, INC.
Lafayette Urban Ministry
Second Harvest Food Bank of East Central Indiana
Terre Haute Deanery Pastoral Center
The Madison Literacy Coalition
UAW Local 287
            Iowa
Child and Family Policy Center
Environmental Nutrition Solutions
Food Bank of Iowa
Food Bank of Siouxland
Iowa Food Bank Association
Northeast Iowa Food Bank
River Bend Foodbank
Sisters of St. Francis
            Kansas
Children's Mercy Family Health Partners
Church
Church World Service-Great Plains Office
Communities In Schools of Kansas
Douglas County Child Development Association
El Centro, Inc.
Family Resource Center, Inc.
First Lutheran Early Education Center
First Street Church of God
GraceMed Health Clinic, Inc.
Harvesters--The Community Food Network
Heart of Kansas Family Health Care
Heritage Preschool
Hillview Christian Children's Center
Jewish Community Center
Jewish Community Relations Bureau of Kansas City
Kansas Action for Children
Kansas Association for the Medically Underserved
Kansas Chapter, American Academy of Pediatrics
Kansas Children's Service League
Kansas City Kansas Community College Campus Child Care Center
Kansas Food Security Task Force
Kansas Health Consumer Coalition
Kansas National Education Association
Open Arms Lutheran Child Development Center
Partnership for Children
Rawlins County Dental Clinic
Salina Health Education Foundation
Salina RESULTS Group
Society of Saint Andrew
Tender Hearts
The Family Resource Center
Tri-County Smart Start
United Way of Wyandotte County
Winter Center for Restorative Justice, Inc.
Women's Community Y, Leavenworth
            Kentucky
Calvary Baptist Food Pantry
Community Farm Alliance
Jewish Community Relations Council of Louisville
Family and Children First
God's Pantry Food Bank
Kentucky Council of Churches
Kentucky Equal Justice Center
Kentucky Out-of-School Alliance
Kentucky Task Force on Hunger
Kentucky Youth Advocates
Louisville District United Methodist Women
Northern Kentucky Community Action Head Start
Saint Paul's Food Pantry
Sisters of Charity of Nazareth
            Louisiana
Agenda for Children
Avoyelles Coalition
Children's Coalition of Greater Baton Rouge
Food Bank of Central Louisiana
Food Bank of Northeast Louisiana
Food Bank of Northwest Louisiana
Louisiana Food Bank Association
LUNCH Program
National Council of Jewish Women, Louisiana State Public Affairs
Second Harvest Food Bank of Greater New Orleans and Acadiana
The Edible Schoolyard New Orleans
            Maine
Campaign to Promote Food Security
Catholic Charities Maine
Cultivating Community
Every Child Matters in Maine
Maine Alliance for Children's Care
Maine Children's Alliance
Maine Equal Justice
Preble Street
            Maryland
Advocates for Children and Youth
Disciples Justice Action Network
Hillcrest School-Based Health Center
Interfaith Works, Inc.
Maryland Hunger Solutions
Mary's Center for Maternal and Child Care, Inc.
PeterCares House
Public Justice Center
RKM Direct
The Family League of Baltimore City, Inc.
The National Center for Children and Families
            Massachusetts
ABCD, Inc.
Associated Early Care and Education of Boston
Boston Collaborative for Food and Fitness
Cape Cod Child Development Program
Catholic Charities, Archdiocese of Boston
CitySprouts Inc.
Community Action
Community Day Care of Lawrence
Daily Bread Food Pantry Inc.
Ellis Memorial of Boston
Guild of St. Agnes Child Care Program of Worcester
Harvard Prevention Research Center on Nutrition and Physical Activity
Massachusetts Association of Early Education and Care
Massachusetts Citizens for Children
Massachusetts Law Reform Institute
Massachusetts Nutrition Board
New England Farmers Union
Newton Community Service Centers
North Star Learning Programs of New Bedford
Pathways for Children of Gloucester
Project Bread-The Walk for Hunger
Promise the Children
The Food Bank of Western Massachusetts
The Greater Boston Food Bank
United South End Settlement of Boston
Valley Opportunity Council of Holyoke
Worcester Advisory Food Policy Council
Worcester Comprehensive Child Care Services
Worcester County Food Bank
            Michigan
Center for Civil Justice
Center for Food Safety
Christian Reformed World Relief Committee
Congregation of St. Joseph
Feeding America West Michigan Food Bank
Focus: HOPE
Food Bank of Eastern Michigan
Good Samaritan Family Services
Joy Community Association
Legal Services of Eastern Michigan
Mid Michigan Child Care
National Council of Jewish Women, Michigan State Public Affairs
Saint Christine Christian Service
Sisters of Mercy
Sprout Wellness
United Way for Southeastern Michigan
            Minnesota
Boys and Girls Club of Northland
Child Care WORKS
Copeland Valley Youth Center
Jewish Community Center of the Greater St. Paul Area
Jewish Community Relations Council of Minnesota and the Dakotas
Jewish Family and Children's Service of Minneapolis
Jewish Family Service of St. Paul
Kiddy Karousel Child Care Center
Kids Against Hunger
Lowell COMPASS Afterschool, YMCA Program
Metro Meals on Wheels
Minnesota Child Care Association
Minnesota Council of Churches
Minnesota FoodShare
Moose Lake Area Food Shelf
New Horizon Academy
North Central Food Bank
Ready 4 K
Safe Haven Shelter for Battered Women
Second Harvest Heartland
Second Harvest North Central Food Bank
St. Anthony Park Lutheran Church
Tri-Community Food Shelf
Mississippi
Mississippi Food Bank Network
MS Chapter NASW
Public Policy Center of Mississippi
            Missouri
American Jewish Congress-St. Louis Region
Bread for Life Food Pantry
Gateway to Hope
Harvesters--The Community Food Network
Hawk Point Food Pantry
Jewish Community Relations Council of St. Louis
National Council of Jewish Women-Missouri
State Public Affairs
Saint Louis Area Foodbank
Second Harvest Community Food Bank
Southeast Missouri Food Bank
            Montana
Big Timber Community Food Bank
Child Care Partnerships
Community Food and Agriculture Coalition of Missoula County
Community Health Partners
Community Services Fellowship
Council on Aging
Family Promise of Gallatin Valley, Inc.
Family Service, Inc.
Fergus County Nurses Office
Libby Food Pantry Inc.
Livingston Food Pantry
Missoula Food Bank
Montana Dietetic Association
Montana Food Bank Network
Montana Rescue Mission
North Missoula Community Development Corp.
Pantry Partners Food Bank
Poverello Center, Inc.
Rocky Mountain Development Council
Sustainable Living Systems
The Salvation Army Missoula
Tobacco Valley Food Pantry
United Way of Yellowstone County
Wibaux Food Bank
            Nebraska
Blue Valley Community Action Partnership
Food Bank for the Heartland
Food Bank of Lincoln, Inc.
Sisters of Mercy West Midwest Justice Team
            Nevada
Bethel Food Pantry
Boys and Girls Club Mason Valley
Boys and Girls Club of Truckee Meadows
Catholic Charities of Southern Nevada, Las Vegas
Community Foundation of Western Nevada
Desert Springs Baptist Church Food Pantry
Elko Friends in Service Helping
Eureka County Senior Center and Food Distribution
Faith Lutheran Church
Fallon Seventh Day Adventist Food Outreach
Food Bank of Northern Nevada
High Sierra Area Health Education Center, Reno
Inter-Tribal Council of Nevada
Lutheran Advocacy Ministry in Nevada
Nevada Hispanic Services, Inc., Reno
Northern Nevada RAVE Family Foundation
Progressive Leadership Alliance of Nevada
The Children's Cabinet, Reno
Three Square
            New Hampshire
Children's Alliance of New Hampshire
Every Child Matters in New Hampshire
Food Solutions New England
New Hampshire Farm to School
New Hampshire WIC Directors Association
Seacoast Family Food Pantry, Portsmouth
Southern New Hampshire Services, Inc.
            New Jersey
Abundant Life Community Development Corp
Abundant Life Fellowship Church
ALPS Daycare & Preschool
Andres Gautier Ministries
Association for Children of New Jersey
Capital Health
Cathedral Kitchen
Catholic Charities
Catholic Charities BECS
Catholic Charities, Diocese of Trenton
Catholic Charities, Emergency and Community Services
Center for Food Action in NJ
CWA Local 1037
Collier Youth Services, Wickatunk
Community FoodBank of NJ/Southern Branch
Curbing Hunger Inc.
El Centro Day Care
Elijah's Promise
First Baptist Church Harrisonville
Food Bank of South Jersey
Greater Woodbury Cooperative Ministries Food Pantry
Highland Park Community Food Pantry
HOPES CAP, Inc.
ICNA-NJ
Interfaith Food Pantry
Jewish Federation of Greater Middlesex County
Koinonia Family Life, Inc.
Living Hope Christian Center
Meeting Emergency Needs with Dignity
Mercer Street Friends Food Bank
Mobile Meals of Trenton
Mt. Calvary Baptist Church
My Brother's Keeper
National Council of Jewish Women, State Public Affairs Network
New Jersey Anti-Hunger Coalition
New Jersey Farm To School Network
Outreach Ministry of Cecil Deliverance Tabernacle
Park Avenue Community Church
Puerto Rican Action Committee of Southern New Jersey, Inc.
Regional Office, Church World Service / CROP Hunger Walks
Society of St. Vincent de Paul
Spoken Word Evangelistic Church Food Pantry
St. Mary Street United Methodist Church
St. Paul's Food Basket
St. Vincent De Paul OLMC Conference
St. Vincent De Paul Society
The Apostles' House
Touch New Jersey Inc.
Wiley Church food pantry
            New Mexico
Bread for the World-New Mexico
Lutheran Office of Governmental Ministry-New Mexico
New Mexico Appleseed
New Mexico Collaboration to End Hunger
New Mexico Community Foundation
New Mexico Voices for Children
NM Center on Law and Poverty
Pegasus Legal Services for Children
            New York
Bethlehem Neighbors for Peace
Brooklyn Food Coalition
Brooklyn-Queens NOW
Broome-Tioga BOCES
Caroline Food Pantry
Catholic Charities-Brooklyn and Queens
Catholic Charities Diocese of Albany
Catholic Charities-New York
Center for Children's Initiatives
Child Care Council of Nassau
Child Development Council
Church Women United-New York
Citizens' Committee for Children of New York, Inc.
City Harvest
Colesville Community Pantry
Colonie Senior Center Services
Community Action Agency of Franklin County
E S Foods
Early Care and Learning Council
Eveline's Food and Health Connection
Family Enrichment Network
Federation of Protestant Welfare Agencies
Food Bank of Central New York
Food Bank of the Southern Tier
Food Bank of Western New York
Food for All
Foodlink
Got Breakfast? Foundation
Gray Panthers of Suffolk County
Harpursville United Methodist Church
Health and Welfare Council of Long Island
Healthy Kids Initiative
Infant Jesus Church
Island Harvest
Just Food
JustFaith
Long Island Cares, Inc.
MNYS Russian Mission
Muslim Women's Institute for Research and Development
New York City Alliance for Child Nutrition Reauthorization
New York City Coalition Against Hunger
New York School Nutrition Association, Inc.
New York State Community Action Association
North Fork Housing Alliance, Inc
Nutrition Consortium of New York State
Opportunities for Otsego, Inc.
Pro Action of Steuben and Yates, Inc.
Regional Food Bank of Northeastern New York
Rural Health Network of South Central New York
Saint Peter Damian Fraternity SFO
Schenectady Inner City Ministry
School Food FOCUS
Schuyler Center for Analysis and Advocacy
SER of Westchester Inc.
Single Stop USA
Springs Union Free School District
The POINT Community Development Corporation
Tioga Central School District
West Side Campaign Against Hunger
            North Carolina
Action for Children NC
Children First
MANNA Food Bank
St. Brendan Social Action
            North Dakota
SENDCAA
United Way of Grand Forks, East Grand Forks and Area
            Ohio
Akron Canton Regional Food Bank
Attica Community Food Pantry
Banquet Table Food Pantry Trinity Friends Church
Bellevue Fish and Loaves Food Pantry
Butler County Educational Service Center
CALL Food Pantry
Camp Aldersgate
CareSource
Catholic Charities
Children's Advocacy Center of Portage County
Children's Hunger Alliance
Christ's Community in College Hill
Christian Corner Community Center
Church Women United
Churches United Pantry
Cleveland Foodbank
Community Resource Services
Episcopal Diocese of Southern Ohio
Faith Food Pantry
Faith House Academy
Faith Ministries Christian Center Emergency Assistance Pantry
Felicity Community Missions
Freestore Foodbank
Greater Victory Christian Ministries
Heartbest of Sandusky: Pregnancy Center and Maternity Home
Help Open Peoples Eyes Ministries
Hope Center
H.O.P.E. Ministries, Akron
Humility of Mary Health Partners
Hunger Network in Ohio
Jewish Community Relations Council of the Jewish Federation of 
        Cincinnati
KinderNest Child Development Center
KinShip
Lighthouse Food Pantry
Local Matters
Lorain County Alcohol and Drug Abuse Services
Mahoning Country Bridges Out of Poverty
Malvern Christian Care Center, Inc.
Mid-Ohio FoodBank
Miller Avenue United Church of Christ
Miriam House-Catholic Charities
Mother Cabrini's Cupboard Food Pantry
Mount Healthy Alliance, Inc.
Mount Olivet Alliance Church
Neighborhood Ministries
Nevels Temple Mission
Oberlin Community Services
Ohio Association of Child Care Providers
Ohio Association of School Nurses
Ohio Association of Second Harvest Foodbanks
Ohio Catholic Social Services
Ohio Chapter, American Academy of Pediatrics
Ohio Council of Churches
Ohio School Based Health Care Association
Open Door Community Church
Orrville Area Boys and Girls Club
Pentecostal Tabernacle Food Pantry
Philippians 4:19 Food Ministry
Pike County Outreach Council of Churches, Inc.
Positive Education Program
Prince of Peace Lutheran Church
Second Harvest Food Bank Clark, Champaign, Logan Counties
Second Harvest Food Bank of the Mahoning Valley
Second Harvest Food Bank of North Central Ohio
Shared Harvest Foodbank
Sisters of Charity
Sisters Helping Sisters Food Pantry
St. John Lutheran Church
St. Patrick Catholic Church Food Pantry
Upper Room Cultural Development Corp.
Talbert House
TAPP House/TC, Inc.
The Center for Community Solutions
The Counseling Center
The Elyria Hospitality Center Pantry
The Helping Hands Network
The Lord's Pantry
The Love Center Food Cupboard
The Potter's House Ministries, Inc.
The Salvation Army-Hamilton Corps.
The Village Network-Canton
Union Baptist Church Food Pantry
United Way of Ashtabula County
Upper Room Cultural Development Corporation, Ravenna
Washington Food Pantry
West Alexandria Day Care Center, Inc.
West Ohio Food Bank
Word of Life Church, New Philadelphia
Young Adult Community Development, Inc.
            Oklahoma
Bethel Baptist Church Food Program
Bristow Social Services
Christ Cupboard
Christ's Food Center, Inc.
Circle of Care
Community Food Bank of Eastern Oklahoma
Community Outreach Centers, Inc.
Deep Fork Community Action Foundation Inc.
Family and Children's Services
First United Methodist Church, Depew
Food4Kids Backpack Program
Food4Kids Owasso
Gatesway Foundation
Grand Lake Community Ministry
Integrated Concepts, Inc.
Inter-Tribal Council, Inc of Northeast Oklahoma
Locust Grove Ministerial Alliance
MCM Food Pantry-Muskogee
Moon Church of God Pantry
MoveOn Tulsa
Oaks Indian Mission
Open Table UCC
Osage Nation Prevention Program
Regional Food Bank of Oklahoma
State of Change
Sugarloaf Christian Fellowship Food Pantry
The Salvation Army
Trinity Full Gospel Church Food Bank
Victory Park Baptist Church Soup Kitchen
Wagoner Area Neighbors, Inc.
Youth Services of Osage County, Inc.
            Oregon
Adelante Mujeres
CARE Connections
Change Takes Action
Child Care Development Services Inc
Children First for Oregon
Children's Institute
Church Women United
Eat Think Grow
Florence Food Share
Half-Pint Daycare and Preschool
Human Services Coalition of Oregon
Jackson-Josephine 4-C Council
Lane Workforce Partnership
Lutheran Advocacy Ministry of Oregon
Mid-Willamette Valley Community Action Agency
Montavilla Farmers Market
Neighbors For Kids
North by Northeast Community Health Center
Nutrition First CACFP--Community Action
Oregon Food Bank
Oregon Hunger Task Force
Oregon Pediatric Society
Organic Fresh Fingers, Inc.
Our Savior's Lutheran Church Summer Lunch Program
Portland Chapter of Hadassah
Portland Dietetic Association
Rogue Valley Farm to School
Society of St. Vincent de Paul
Soroptimist International of Florence
Southern Oregon Child and Family Council
St. Pius X Catholic Church/Faith Cafe
St. Vincent de Paul Portland Council
Take Action Now
West Linn Lutheran Church
Willamette Farm and Food Coalition
            Pennsylvania
Adagio Health
Ashley Food Bank
Bernardine Center
Boys and Girls Club, Plymouth Extension
Brashear Association
Bread for the World-Pennsylvania
Bread of Life Food Pantry
Brightside Academy
Care Net Pregnancy Center
Central Pennsylvania Food Bank
Child Development Council of NEPA, Inc.
Church of God In Christ
Church of the Loving Shepherd
Columbia/Montour Tapestry of Health
Commission on Economic Opportunity
Community Food Warehouse of Mercer County
East Liberty Presbyterian Church
Faith Assembly of God
Family and Community Service of Delaware County
Family Health Council of Central PA
Family Links
First Baptist Church, New Castle Food Pantry
Greater Philadelphia Coalition Against Hunger
Greater Pittsburgh Community Food Bank
Greater Washington County Food Bank
H&J Weinberg Food Bank of NEPA
Israel Ben Zion Academy
Jewish Family Services of York
Jubilee Kitchen
Just Harvest
Lincoln Park Community Center, Inc.
Lutheran Advocacy Ministry in Pennsylvania
McGlynn Center
Meadow Lands United Methodist Church
Mid-Valley Hospital
National Association of Social Workers-PA Chapter
National Council of Jewish Women, Pennsylvania State Public Affairs
PA Association of Regional Food Banks
Pennsylvania Association for the Education of Young Children
Pennsylvania Child Care Association
Pennsylvania Council of Churches
Pennsylvania Hunger Action Center
Pennsylvania Partnerships for Children
Pennsylvania School Nutrition Association
Pittsburgh Community Services, Inc.
Pneuma Center Dignity Food Bank
Presbytery of Philadelphia
Public Citizens for Children and Youth
Rainbow Kitchen Community Services
Salvation Army-Chartiers Valley
Sarah Heinz House
Second Harvest Food Bank of NW PA
Second Harvest of Lehigh Valley & Northeast PA
Sisters Place, Inc.
Smithfield United Church of Christ
St. James Church Social Justice and Peace
St. Nicholas Food Pantry
Step by Step, Inc.
Committee, Wilkinsburg
Step By Step, Inc.
TREHAB Food Bank
Unitarian Society of Germantown Green Sanctuary
United Way of Beaver County
Urban League Hunger Services
Volunteers of America-Pennsylvania
Westmoreland Community Action
Westmoreland County Food Bank
YMCA Hazelwood
            Rhode Island
CANE Child Development Center
Connecting for Children and Families
George Wiley Center
Ocean State Action
Parent Support Network of RI
Rhode Island Children's Policy Coalition
Rhode Island Dietetic Association
Jewish Federation of Rhode Island
Kids First
Northern RI AHEC
Parent Support Network of RI
Rhode Island Afterschool Plus Alliance
Rhode Island KIDS COUNT
Rhode Island Foster Parents Association
Sister's of St. Joseph
The Learning Community
Tides Family Services
Washington County Coalition for Children
            South Carolina
Billie Hardee Home for Boys
Charleston Area Children's Garden Project
Children's Trust of South Carolina
Christ Central Columbia
Christ Central, Inc.
Focus on Kids
Harvest Hope Food Bank
Mental Health America of SC
SC Campaign to Prevent Teen Pregnancy
Security Federal Bank
South Carolina Appleseed Legal Justice Center
Sumter Citizens Coalition, Inc.
United Way Association of South Carolina
Unity Missionary Baptist Church
            South Dakota
Bread for the World-South Dakota
Feeding South Dakota-FKA Community Food Banks of South Dakota
South Dakota Voices for Children
            Tennessee
Black Children's Institute of Tennessee
Catholic Charities of Tennessee
Community Shares
Just Faith
Knoxville County Community Action Committee
Manna-Food Security Partners
Second Harvest Food Bank of East Tennessee
Second Harvest Food Bank of Middle Tennessee
St. Ann Catholic Social Ministry
Tennessee Health Care Campaign
Tennessee Justice Center
The Who We Are Counts Institute
            Texas
3T Outreach
Abiding Love Food Pantry
AIDS Services of Austin
Alameda Heights Community Center
Albeight United Methodist Church
Amarillo Family YMCA
Amazing Grace Fellowship Baptist Church Food Pantry
Angelheart Children's Shelter
Austin Faith and Family Magazine
Austin Food Bank
Austin RESULTS Domestic Group
Austin YMBL Sunshine Camps
Baptist Benevolence of Irving
Baptist General Convention of Texas
Bastrop County Emergency Food Pantry
Bethany Faith Food Pantry
Blanco Good Samaritan Center
Blood 'N Fire Foundation
Boys and Girls Clubs of Central Texas, Inc.
Boys and Girls Clubs of the Austin Area
Calvary Baptist Food Pantry
Capital Area Food Bank of Texas
Care Center Ministries
Caritas
Catholic Charities of Dallas
Center for Children and Families
Center for Public Policy Priorities
Central Dallas Ministries
Central Texas Area Food Bank
Central Texas Children's Home
Christian Assistance Ministry
Christian Farms Treehouse, Inc.
Christian Life Commission
Community Lifeline Center
Concord--Food Pantry
Cove House Emergency Homeless Shelter
DeSoto Food Pantry
Driscoll Children's Hospital
East Texas Food Bank
Elgin Community Cupboard
Family Abuse Center
Fannin County Community Ministries
Food Bank of the Golden Crescent
Food Bank RGV
Foundation for the Homeless, Inc.
George Gervin Youth Center
Girls Inc. of Metropolitan Dallas
Good Street Baptist Church Child Care, Inc.
Grace Baptist Church
Greater Love Ministries
Greater Zion Food Pantry
Hands of Mercy
Hays County Food Bank
Helping Hands Ministry of Belton, Inc.
Highland Lakes Family Crisis Center
Hispanic Religious Partnership for Community Health
Holy Redeemer Catholic Church
Hope Center
Houston Food Bank
Islamic Center Of Irving
Joseph's Storehouse Pantry
La Fe Policy Research and Education Center
LACare Food Bank
Lake Cities Community Food Pantry
Lamar County Human Resources Council, Inc.
Loaves and Fishes of Waco
MASDFW
Merced Housing Texas
Methodist Healthcare Ministries
MetroHaven of Love Inc.
Midlothian Senior Citizens Center, Inc.
Montgomery County Food Bank
Mountain View Church of Christ
Mt. Sinai Baptist Church Food Ministry
National Council of Jewish Women, Texas State Public Affairs
New Hope Compassion Outreach Ministries
Northeast Texas Opportunities, Inc.
North Texas Food Bank
Phi Theta Kappa Food Pantry
Primera Baptist Church Food Pantry
Project Transitions, Inc.
Rosanky Baptist Church Food Pantry
Rosewood Baptist Church Food Pantry
Round Rock Area Serving Center
San Antonio Christian Hope Resource Center, Inc.
San Antonio Food Bank
Senior Community Outreach Services, Inc.
Services of Hope, Inc
Share Center
Shared Housing Center
Shiloh Baptist Church
Society of St. Martin Parish Food Pantry
Society of St. Vincent de Paul
South Plains Food Bank
St. Louis Catholic Church Food Pantry
St. Austin Society of St. Vincent DePaul
Su Casa De Esperanza, Inc.
Sustainable Food Center
Taylor's Valley Baptist Church
Texas Association of Family and Consumer Sciences
Texas Baptists (BGCT)
Texas Baptists Christian Life Commission
Texas Early Care and Education Coalition
Texas Food Bank Network
Texas Hunger Initiative
The Annunciation Maternity Home
The Burke Foundation
The Shepherd's Storehouse
The Substance Abuse Council
Trinity Outreach Center and Storehouse, Lubbock
Turtle Creek Recovery
Voices for Children of San Antonio
Walker Community Church
Wolfe City Food Pantry
            Utah
Salt Lake Community Action Program
Utahans Against Hunger
            Vermont
AIDS Project of Southern Vermont
Bennington Coalition for the Homeless
Brattleboro Sunrise Rotary
Central Vermont Community Action Council
Champlain Islands Parent Child Center
Child Care Resource
Community Connections
Community Food Cupboard
COTS
Fanny Allen Foundation
Filkorn Public Relations
Fitz Vogt and Associates
Food Works at Two Rivers Center
Green Mountain Farm-to-School
Greenpeace USA-Vermont
Grounds for Health
Interfaith Council of Northshire
King Street Center
Lamoille Family Center
Mary Johnson Children's Center
Neighbor to Neighbor
Neighborhood Connections Inc. Londonberry
Northfield Senior Center
Northfield Summer Lunch Program
Roxbury Church and Food Shelf
Rutland County Parent Child Center
School Nutrition Association-Vermont
United Way of Lamoille County
Vermont Campaign to End Childhood Hunger
Vermont Dietetics Association
Vermont Foodbank
Vermont Food Education Every Day
Voices for Vermont's Children
Westminister Afterschool Program
Windham Child Care Association
            Virginia
Blue Ridge Area Food Bank
Dunamis Christian Center
Elizabeth B. Sherman Childcare and Preschool
Fauquier Community Food Bank
Federation of Virginia Food Banks
Foodbank of Southeastern Virginia
Foodbank of the Virginia Peninsula
ICNA Council for Social Justice
Hampton Baptist Soup Kitchen
H.E.L.P. Inc.
Islamic Circle of North America VA
Little Zion Baptist Church
Loudoun Interfaith Relief, Inc.
Office of Family and Children's Ministries Christian Church
Open Door Full Gospel Baptist Church
Skyline Community Action Partnership
Society of St. Andrew
Spirit of Truth Christian Ministries
St. Charles Lwanga House, Williamsburg
St. Paul Lutheran Child Care Center
Street Missions and Restoration Team
Voices for Virginia's Children
            Washington
Anti-Hunger and Nutrition Coalition
Ballard Food Bank
Camp Fire USA Central Puget Sound Council
Carol Rowe Food Bank
Children's Alliance
Emerald City Church
Federal Way Community Caregiving Network
Food Lifeline
Forks Abuse Program
Friends of Youth
Genesis House
Lawyers Helping Hungry Children
Lutheran Public Policy Office of Washington State
Lynnwood Food Bank
Marysville Community Food Bank
North Helpline Foodbank
Northwest Harvest
Nutrition First
Olympic Community Action Program
Point Roberts Food Bank
Port Townsend Food Bank
Quilcene Food Bank
South King County Food Coalition
Sultan Food Bank
The Auburn Food Bank
United Way of King County
University District Food Bank
Washington State Food and Nutrition Council
White Center Food Bank
WithinReach
            West Virginia
Scott's Run Settlement House
            Wisconsin
9to5 Milwaukee
Hunger Task Force
School Sisters of St. Francis
Wisconsin Child and Adult Care Food Program Sponsors Forum
Wisconsin Early Childhood Association
                                 ______
                                 
    [Questions submitted for the record and their responses 
follow:]

                             [Via Electronic Mail],
                                             U.S. Congress,
                                     Washington, DC, July 12, 2010.
Hon. Thomas J. Vilsack, Secretary,
U.S. Department of Agriculture, 1400 Independence Ave, S.W., 
        Washington, DC 20250-0002.
    Dear Secretary Vilsack: Thank you for testifying at the Education & 
Full Committee Hearing on, ``H.R. 5504, Improving Nutrition for 
America's Children Act,'' on July 1, 2010.
    Committee Members have additional questions for which they would 
like a written response from you for the hearing record.
    Representative Marcia Fudge (D-OH) has asked that you respond in 
writing to the following questions:
    1. As you know, the Summer Food Service Program offered through 
USDA provides low-income children with free, nutritious meals during 
the summer months when school is not in session. However, nationally, 
in fiscal year 2009, only 1 in 10 of the more than 19 million low-
income children who participated in the free or reduced priced school 
meal program also received meals during the summer months. And, in my 
home state of Ohio, the situation is no different. Although in fiscal 
year 2009, more than 585,000 Ohio children participated in the free or 
reduced priced school meal program, only about 62,000 of those children 
received summer meals. Simply put, as the number of American families 
struggling to put food on the table continues to grow, too many of 
America's kids are going hungry in the summer.
    In an effort to address the ongoing concerns about low-income 
children not having sufficient access to food during the summer months, 
Congress appropriated $85 million in the fiscal year 2010 
appropriations for USDA to develop and test alternative methods of 
providing summer food access.
    Can you update the Committee on the status of projects currently 
being conducted using that funding, as well as any additional plans 
USDA may have to test alternatives during subsequent summers?
    Mr. Secretary, one method I would like to suggest is using the 
National Youth Sports Program. NYSP is a 41 year old sports and 
nutrition program, created by Congress, that was funded by the federal 
government until 2003. At its height, it was serving meals through the 
Summer Food Service Program to 75,000 children from low-income 
communities on more than 200 college campuses across the country. Due 
to lack of funding, it now only serves 7,000 children on 24 college 
campuses and most of the programs will cease to exist next summer 
without federal support.
    Do you have any recommendations for this committee as to how we 
could improve access to summer feeding through legislative improvements 
to the child nutrition laws currently up for reauthorization?
    2. Research shows that starting the day with a nutritious breakfast 
gives kids the energy they need in order to learn. Both H.R.5504 and 
the Senate bill provide a 6-cent addition to lunches that meet 
performance standards.
    Would the Administration support the same reimbursement increase 
for school breakfasts that meet the same performance standards?
    Representative Lynn Woolsey (D-CA) has asked that you respond in 
writing to the following questions:
    1. In 2004, U.S. Department of Agriculture and Centers for Disease 
Control and Prevention (CDC) released a study of competitive foods in 
17 schools and school districts. The study found that 12 of the schools 
and districts increased revenue after improving the nutritional quality 
of their competitive foods and 4 reported no change. In your experience 
as Secretary, do you find this to be the case?
    2. Congress and the U.S. Department of Agriculture have set 
detailed standards for foods sold in the school lunch and breakfast 
programs--from the size of a vegetable serving to what type of milk is 
served. Every year, the federal government invests $12 billion annually 
in those programs, and selling low-nutrition foods in schools undermine 
the taxpayer investment.
    How will passage and implementation of this legislation positively 
impact the local school food authority's effort to produce nutritious 
meals plans?
    3. We know that providing quality, nutritious meals to students is 
essential for their development, and can affect both their physical 
health as well as their preparedness for learning. However, that is 
only half the battle. Even as schools offer students the opportunity to 
select a balanced meal, students don't always make the healthful 
choice.
    How have competitive foods sold in schools had an impact on the 
choices students make in the lunch line and across the school campus?
    Representative Jared Polis (D-CO) has asked that you respond in 
writing to the following questions:
    1. Today, more than 70% of schools exceed USDA's maximum saturated 
fat level for school lunches. The newly-released Draft Dietary 
Guidelines recommend that individuals should ``shift food intake 
patterns to a more plant-based diet that emphasizes vegetables, cooked 
dry beans and peas, fruits, whole grains, nuts, and seeds'' and 
encourages increasing intake of high-quality vegetable protein.
    What will USDA do to implement these new recommendations and ensure 
that all children have a range of healthy choices at school?
    2. How can we ensure healthier options are available and affordable 
to all schools, so that they can reduce fat, saturated fat, and 
cholesterol by offering these options on the lunch line?
    Please send an electronic version of your written response to the 
questions to the Committee staff by close of business on the deadline 
of July 16, 2010. If you have any questions, please do not hesitate to 
contact the Committee.
            Sincerely,
                                             George Miller,
                                                          Chairman.
                                 ______
                                 
                             [Via Electronic Mail],
                                             U.S. Congress,
                                     Washington, DC, July 15, 2010.
Hon. Thomas J. Vilsack, Secretary,
U.S. Department of Agriculture, 1400 Independence Ave, S.W., 
        Washington, DC 20250-0002.
    Dear Secretary Vilsack: Thank you for testifying at the Education & 
Full Committee Hearing on, ``H.R. 5504, Improving Nutrition for 
America's Children Act,'' on July 1, 2010.
    In addition to questions already sent, Committee Members have 
questions for which they would like a written response from you for the 
hearing record.
    Representative Tom Petri (R-WI) has asked that you respond in 
writing to the following question:
    1. One issue that I am very concerned about is how the focus on 
added sugar (as opposed to total sugar) in the debate over nutrition 
standards impacts cranberry products. As you know, Wisconsin is the 
leading producer of cranberries in the U.S.
    Cranberries have a low level of natural sugar and therefore are 
sweetened to make them more appealing. However, my understanding is 
that even with added sugar, many cranberry products, including 
sweetened dried cranberries and cranberry juice, contain less total 
sugar than other products such as 100 percent apple juice or dried 
fruits like raisins. It is also my understanding that numerous studies 
have shown that cranberry products provide additional health benefits, 
primarily related to maintaining urinary tract health. Unfortunately, 
however, the focus on added sugar means that cranberry products are 
considered unhealthy as a result of their added sugar while other 
products, which may have higher levels of total sugar, are considered 
healthy if consumed in moderation.
    What is your opinion regarding the focus on added sugars (as 
opposed to total sugars) in the discussion over nutrition standards? 
Additionally, for similar reasons, should other standards beyond the 
100% juice standard be considered for juice products?
    Representative Cathy McMorris-Rodgers (R-WA) has asked that you 
respond in writing to the following questions:
    1. This past spring, the United States Department of Agriculture 
promulgated an interim final ruling for the Special Supplemental 
Nutrition Program for Women, Infants, and Children's (WIC) program 
excluding white potatoes from the recently revised list of eligible 
foods under the WIC program.
    As a representative from the second largest potato producing state, 
I am concerned that the decision to exclude white potatoes was not 
based on sound nutritional science and will result in a costly and 
confusing policy that is not in the best interest of WIC participants.
    As you know, one of the primary reasons for revising the food list 
was to make it more consistent with the Institute of Medicine's 
recommended dietary intakes (RDA) for individuals. In particular, the 
IOM was concerned about the need to increase RDAs for vitamin C and 
potassium.
    Potatoes are more nutrient dense than many of the vegetables 
already included in the WIC program. In fact, one medium-sized potato 
provides 45 percent of the Recommended Daily Value of vitamin C and 620 
mg of potassium.
    Why were potatoes excluded from this interim rule and will USDA 
reconsider and include white potatoes in the list of WIC eligible 
foods?
    2. In a similar vein, I would like to ask you about the Fruit and 
Vegetable Snack program also implemented by USDA. To date, USDA has 
treated fruits and vegetables in all forms, fresh, frozen, dried, 
canned, the same. Moreover, frozen vegetables and fruits are often 
considered to be as nutritionally dense as fresh fruits and vegetables. 
Would you recommend that Congress include frozen fruits and vegetables 
in the snack program?
    Please send an electronic version of your written response to the 
questions to the Committee staff by close of business on the revised 
deadline of July 23, 2010. If you have any questions, please do not 
hesitate to contact the Committee.
            Sincerely,
                                             George Miller,
                                                          Chairman.
                                 ______
                                 

          Secretary Vilsack's Responses to Questions Submitted

                   representative marcia fudge (d-oh)
    1. Q: As you know, the Summer Food Service Program offered through 
USDA provides low-income children with free, nutritious meals during 
the summer months when school is not in session. However, nationally, 
in fiscal year 2009, only 1 in 10 of the more than 19 million low-
income children who participated in the free or reduced priced school 
meal program also received meals during the summer months. And, in my 
home state of Ohio, the situation is no different. Although in fiscal 
year 2009, more than 585,000 Ohio children participated in the free or 
reduced priced school meal program, only about 62,000 of those children 
received summer meals. Simply put, as the number of American families 
struggling to put food on the table continues to grow, too many of 
America's kids are going hungry in the summer.
    In an effort to address the ongoing concerns about low-income 
children not having sufficient access to food during the summer months, 
Congress appropriated $85 million in the fiscal year 2010 
appropriations for USDA to develop and test alternative methods of 
providing summer food access.
    Can you update the Committee on the status of projects currently 
being conducted using that funding, as well as any additional plans 
USDA may have to test alternatives during subsequent summers?

    A: I appreciate and share your concerns about food insecurity and 
hunger in the summer months, especially among children. We are moving 
forward on the Summer Food for Children projects, funded with the 
appropriation you mentioned, to demonstrate improved approaches to 
summer feeding for low-income children, and to assess their impact on 
food insecurity. Two projects are already underway to test ways to 
strengthen the existing Summer Food Service Program, one in Arkansas 
and one in Mississippi, and we expect to test additional strategies 
next year.
    The Department will also test new ways of delivering summer 
benefits, including the electronic benefit transfer (EBT) delivery 
systems used in the Special Supplemental Nutrition Program for Women, 
Infants and Children (WIC) and Supplemental Nutrition Assistance 
Program (SNAP) to give low-income families with children more resources 
to use at food stores during the summer. We intend to release a 
solicitation in the next few weeks for applications from States to 
operate these projects during the summer of 2011 and beyond. Because 
these new delivery systems will depend on the cooperation of several 
agencies of State government, we will be urging governors to coordinate 
across these agencies to help their respective States submit strong 
applications. We will also seek proposals and award a contract for an 
independent, rigorous evaluation of the effectiveness of this approach 
in preventing or reducing child hunger during the summer.
    In the near-term, the project will provide thousands of low-income 
children in the demonstration communities with enhanced Summer Food 
Service Program (SFSP) services, or with substantial new household food 
benefits during the summer. More importantly, in the longer term it 
will provide critical knowledge about the impact of a cutting-edge 
nutrition intervention on achieving real improvement in food security 
among our children during the summer months.

    Q: Mr. Secretary, one method I would like to suggest is using the 
National Youth Sports Program. NYSP is a 41 year old sports and 
nutrition program, created by Congress, that was funded by the federal 
government until 2003. At its height, it was serving meals through the 
Summer Food Service Program to 75,000 children from low-income 
communities on more than 200 college campuses across the country. Due 
to lack of funding, it now only serves 7,000 children on 24 college 
campuses and most of the programs will cease to exist next summer 
without federal support.
    Do you have any recommendations for this committee as to how we 
could improve access to summer feeding through legislative improvements 
to the child nutrition laws currently up for reauthorization?

    A: As noted above, USDA is in the process of implementing several 
projects to test innovative approaches for improving access of low-
income children to food in the summer. This summer, USDA began two 
statewide, multi-year demonstration projects in Arkansas and 
Mississippi. We plan to conduct rigorous evaluations of the impacts of 
these projects, to provide Congress and the Administration with clear, 
sound, and timely findings to make decisions about potential 
legislative changes. Until the evaluation results are available, we 
cannot say which enhancements to the SFSP structure would be most 
beneficial at expanding the reach of the program.

    2. Q: Research shows that starting the day with a nutritious 
breakfast gives kids the energy they need in order to learn. Both 
HR.5504 and the Senate bill provide a 6-cent addition to lunches that 
meet performance standards.
    Would the Administration support the same reimbursement increase 
for school breakfasts that meet the same performance standards?

    A: Yes, we would support the same increase for the School Breakfast 
Program (SBP), provided that such an increase is tied to compliance 
with new meal pattern requirements for the breakfast program, and that 
funding offsets are available for this purpose.
                   representative lynn woolsey (d-ca)
    1. Q: In 2004, US. Department of Agriculture and Centers for 
Disease Control and Prevention (CDC) released a study of competitive 
foods in 17 schools and school districts. The study found that 12 of 
the schools and districts increased revenue after improving the 
nutritional quality of their competitive foods and 4 reported no 
change. In your experience as Secretary, do you find this to be the 
case?

    A: As noted in your question, USDA partnered with the CDC in 2004 
to collect success stories that showcase how schools and school 
districts could improve the nutritional quality of foods sold on the 
school campus. These stories, which are published in ``Making It 
Happen: School Nutrition Success Stories'' at http://www.fns.usda.gov/
tn/Resources/makingithappen.html, did show that, of the 17 schools and 
school districts reporting revenue information, only one experienced a 
decrease in revenue.
    While USDA has not collected any national data on this question, 
these stories suggest that it is possible for schools to change the 
types of foods they sell to children without negatively impacting their 
bottom line and potentially improving it.

    2. Q: Congress and the US. Department of Agriculture have set 
detailed standards for foods sold in the school lunch and breakfast 
programs-from the size of a vegetable serving to what type of milk is 
served. Every year, the federal government invests $12 billion annually 
in those programs, and selling low-nutrition foods in schools undermine 
the taxpayer investment.
    How will passage and implementation of this legislation positively 
impact the local school food authority's effort to produce nutritious 
meals plans?

    A: The National School Lunch Program regulations prohibit the sale 
of foods of minimal nutritional value, such as carbonated beverages, 
hard candy and water ices, in the foodservice area during meal periods. 
Beyond this, USDA currently does not have the authority to regulate the 
sale of other foods available to students outside of the school meal 
programs during the regular meal service (competitive foods). State 
agencies or local school districts may choose to set their own 
requirements for competitive foods.
    Providing USDA with authority to set specific standards for the 
types of foods offered in both school meals and competitive foods will 
support local school food authorities in their efforts to assure that 
all foods available to students are nutritious and healthful. In 
addition, increasing the levels of reimbursement for meals and linking 
that increase to performance standards will also assist in meeting the 
goals of the Dietary Guidelines for Americans and other nutritional 
standards.
    If given authority to regulate all competitive foods, USDA would 
consult with key stakeholders (including schools and industry 
representatives) to seek their input. Subsequently, based on statutory 
direction, stakeholders' input and science-based nutrition standards, 
we would issue a proposed regulation that would establish baseline 
nutrition standards to define the foods that could be sold outside of 
the school meal programs. Stakeholders and the public would have ample 
opportunity to comment on any proposed regulation.

    3. Q: We know that providing quality, nutritious meals to students 
is essential for their development, and can affect both their physical 
health as well as their preparedness for learning. However, that is 
only half the battle. Even as schools offer students the opportunity to 
select a balanced meal, students don't always make the healthful 
choice.
    How have competitive foods sold in schools had an impact on the 
choices students make in the lunch line and across the school campus?

    A: The evidence is clear that competitive foods have a substantial 
impact on the choices that students make at school. USDA's third School 
Nutrition Dietary Assessment from school year 2004-2005 shows that 
about two in five school children consumed one or more competitive 
foods in the course of the day. The most commonly consumed foods 
include desserts and snacks (e.g., ice cream, cookies, cakes, brownies, 
candy, and potato chips), beverages other than milk, and bread products 
such as crackers and pretzels, corn/tortilla chips, breads and rolls, 
muffins, doughnuts, sweet rolls, and toaster pastries.
    Children in elementary schools consume fewer calories from 
competitive foods than do middle and high school children. Elementary 
school children tend to consume competitive foods outside of a meal; 
whereas 75 percent of middle school children's competitive food calorie 
intake is from the lunch meal.
    On average, children who consumed one or more competitive foods 
obtained over 150 calories per day from low-nutrient, energy-dense 
foods. National School Lunch Program (NSLP) participants were less 
likely to consume competitive foods than those not participating in the 
NSLP, and participants who did tended to consume less than 
nonparticipants.
                   representative jared polis (d-co)
    1. Q: Today, more than 70% of schools exceed USDA's maximum 
saturated fat level for school lunches. The newly released Draft 
Dietary Guidelines recommend that individuals should ``shift food 
intake patterns to a more plant-based diet that emphasizes vegetables, 
cooked dry beans and peas, fruits, whole grains, nuts, and seeds'' and 
encourages increasing intake of high-quality vegetable protein.
    What will USDA do to implement these new recommendations and ensure 
that all children have a range of healthy choices at school?

    A: On October 20, 2009, IOM released ``School Meals: Building 
Blocks for Healthy Children,'' a comprehensive final report with eight 
recommendations addressing new nutrient targets and meal requirements 
for the NSLP and SBP, implementation and monitoring of the new 
requirements, and evaluation and research activities to guide future 
program improvement. FNS is developing a proposed regulation to update 
the school meal patterns and nutrition requirements based on the IOM 
report.
    In collaboration with the Department of Health and Human Services, 
USDA's Center for Nutrition Policy and Promotion (CNPP) is carefully 
reviewing the new recommendations from the Dietary Guidelines Advisory 
Committee and will consider these recommendations as it works towards 
issuing the 2010 Dietary Guidelines for Americans at the end of this 
year. FNS will also consider recommendations to incorporate into the 
proposed regulation for school meals as appropriate.
    Stakeholders and the public will have the opportunity to submit 
comments on the proposed regulation for school meals. In the interim, 
FNS has issued practical guidance and technical assistance to help 
schools move in the direction of the Dietary Guidelines.

    2. Q: How can we ensure healthier options are available and 
affordable to all schools, so that they can reduce fat, saturated fat, 
and cholesterol by offering these options on the lunch line?

    A: Reauthorization of the Child Nutrition Programs provides us with 
many opportunities to improve the nutrition requirements and quality of 
the food provided by the National School Lunch Program (NSLP). 
Increased funding for school meals, as well as our continued 
development of enhanced technical assistance resources available to 
states and school food service professionals, can result in great 
improvements in the nutritional quality of the meals provided by these 
programs.
    In February 2008, USDA's Food and Nutrition Service (FNS) 
contracted with the National Academy of Sciences' Institute of Medicine 
(IOM) to independently review and provide recommendations to update the 
meal patterns and nutrition standards for the National School Lunch 
Program (NSLP) and School Breakfast Program (SBP) consistent with the 
2005 Dietary Guidelines for Americans.
    On October 20, 2009, IOM released ``School Meals: Building Blocks 
for Healthy Children,'' a comprehensive final report with eight 
recommendations addressing new nutrient targets and meal requirements 
for the NSLP and SBP, implementation and monitoring of the new 
requirements, and evaluation and research activities to guide future 
program improvement. FNS is developing a proposed regulation to update 
the school meal patterns and nutrition requirements based on the IOM 
report.
    With the development of the 2010 Dietary Guidelines for Americans 
later this year, FNS will consider how such recommendations apply to 
meal pattern requirements for school meals and incorporate 
recommendations into the proposed rule, as appropriate. Stakeholders 
and the public will have the opportunity to submit comments on the 
proposed regulation for school meals.
    The HealthierUS School Challenge (HUSSC) is a voluntary 
certification for schools participating in the NSLP and is implemented 
under USDA's Team Nutrition initiative. USDA has established the HUSSC 
to recognize schools that create healthier school environments by 
providing nutrition education, nutritious food and beverage choices, 
physical education and opportunities for physical activity. The awards 
recognize schools that have gone above and beyond minimum school meal 
program requirements and have met specific criteria established for 
Bronze, Silver, Gold or Gold of Distinction awards--depending on levels 
of criteria met. Schools that become certified maintain the 
certification for four years from the date they receive the Award.
    The HUSSC is a means by which schools involve children in nutrition 
education activities, taste testing opportunities, and more. As of June 
30, 2010, we had 732 schools in 35 States certified as HUSSC schools. 
With the support of the First Lady, we are committed to seeing the 
number of HUSSC schools double over the next school year to 1250 by 
June 2011, with an additional 1,000 schools per year for two years 
after that, with over 3,000 awards by June 2013.
    FNS continues to offer a wide variety of technical assistance to 
make school meals more healthy, appealing and enjoyable. Several 
resources that address menu planning and ways to encourage children to 
consume fruits, vegetables and whole grains are available on our Team 
Nutrition Web site (www.teamnutrition.usda.gov/library.html). The 
National Food Service Management Institute also offers a wide range of 
training opportunities for child nutrition program professionals 
working in school nutrition and child care settings. These training 
sessions may be customized for State agencies and school food service 
professionals.
    USDA is also exploring ways that insights from the discipline of 
behavioral economics can help to improve food selection and consumption 
by students. USDA has already conducted some research that suggests 
that school cafeteria managers may be able to control many of the 
elements shown to influence food choice, such as how foods are 
presented. Identifying how these elements could be used to cue 
healthier choices may help improve students' diets without sacrificing 
freedom of choice. (See ``When Nudging in the Lunch Line Might Be a 
Good Thing,'' from Amber Waves, Economic Research Service, March 2009, 
http://www.ers.usda.gov/AmberWaves/March09/Features/LunchLine.htm.) 
USDA is also developing an ongoing research program to develop 
practical approaches to put behavioral economics to work in school 
cafeterias.
    USDA is focused on ways to better connect children to their food 
and create opportunities for local farmers to provide their harvest to 
schools in their communities. USDA is supporting Farm to School efforts 
through a number of initiatives, and continues to look for ways to help 
facilitate this important connection. We recognize the growing interest 
among school districts and communities to incorporate regionally and 
locally produced farm foods into the school nutrition programs.
    I am also happy to report that all USDA Foods provided to schools 
consist of commodity products that represent healthy choices. Those 
products have undergone a significant transformation. USDA Foods, which 
represent 15 to 20 percent of the food in school nutrition programs, 
include fruits, vegetables, whole grains and healthy sources of 
protein. States and school districts can choose from over 180 available 
foods. A few specific improvements to USDA Foods include decreasing the 
sodium levels in all USDA canned vegetables, and requiring that all 
USDA canned fruits are packed in light syrup, water, or natural juices. 
Additionally, we offer fresh fruits and vegetables, a variety of lean 
meat choices, and a wide range of whole grain products to schools. We 
will continue to work to make sure schools and states are aware that 
USDA Foods represent a variety of the healthy options that are 
available.
                   representative bobby scott (d-va)
    1. Q: What steps will the Department take to ensure the 
participation of minority and women-owned farms in the Farm to School 
program?

    A: As part of its general mission to increase and support Farm to 
School efforts under the National School Lunch Program, USDA includes 
outreach efforts to reach minority and women-owned farmers through 
various networking opportunities, such as the Know Your Farmer, Know 
Your Food initiative, Farm to School related webinars, and various 
conference attendance.
    As part of USDA's Know Your Farmer, Know Your Food initiative, the 
Food and Nutrition Service (FNS) and Agricultural Marketing Service 
(AMS) formed a Farm to School Team. The purpose of the Farm to School 
Team is to support local and regional food systems by facilitating 
linkages between schools and their local food producers. While still in 
the exploratory phase, a key mission of the Farm to School Team is to 
provide technical assistance and guidance concerning procurement in the 
area of farm to school.
    The Team has been inquiring and gathering information about how the 
procurement requirements are being followed by school food authorities 
in their farm to school efforts, including steps made by school 
districts to utilize small businesses, minority-owned firms, and 
women's business enterprises, whenever possible, as described in 
Program regulations.
    Upon conclusion of the Farm to School Team's site visits in the 
fall of 2010, FNS will develop technical assistance and/or guidance 
materials. Such materials will pay careful consideration to encouraging 
the participation of minority and women-owned firms. As a result of 
this guidance, FNS anticipates that both State Departments of Education 
and Agriculture will be able to assist school systems on what 
exemptions to the bidding processes schools can apply, particularly 
those pertaining to minority-owned, women-owned, small, and socially 
disadvantaged businesses.
    And, finally, as mandated by the 2008 Farm Bill, USDA has created 
an Office of Advocacy and Outreach (OAO). OAO's mission is to increase 
access to programs of the Department, and increase the viability and 
profitability of small farms and ranches, beginning farmers or 
ranchers, and socially disadvantaged farmers or ranchers. The office's 
focus on improving access to USDA programs for historically underserved 
groups'--including minority and women-owned farms and businesses--is 
demonstrative of the Department's commitment to ensuring that all of 
our constituents have the opportunity to participate in and benefit 
from our programs.
                    representative tom petri (r-wi)
    1. Q: One issue that I am very concerned about is how the focus on 
added sugar (as opposed to total sugar) in the debate over nutrition 
standards impacts cranberry products. As you know, Wisconsin is the 
leading producer of cranberries in the US.
    Cranberries have a low level of natural sugar and therefore are 
sweetened to make them more appealing. However, my understanding is 
that even with added sugar, many cranberry products, including 
sweetened dried cranberries and cranberry juice, contain less total 
sugar than other products such as 100 percent apple juice or dried 
fruits like raisins. It is also my understanding that numerous studies 
have shown that cranberry products provide additional health benefits, 
primarily related to maintaining urinary tract health. Unfortunately, 
however, the focus on added sugar means that cranberry products are 
considered unhealthy as a result of their added sugar while other 
products, which may have higher levels of total sugar, are considered 
healthy if consumed in moderation.
    What is your opinion regarding the focus on added sugars (as 
opposed to total sugars) in the discussion over nutrition standards? 
Additionally, for similar reasons, should other standards beyond the 
100% juice standard be considered for juice products?

    A: The consumption of added sugars in the typical American diet 
comes largely from food products that are low in nutrients, meaning 
products such as soft drinks, cakes, cookies, and candies. While we 
recognize that cranberries, lemons and other tart fruits may require 
added sugars to be mixed in with other naturally sweet fruits to 
increase their palatability, we continue to believe that the focus on 
added sugars rather than total sugars is appropriate as we work toward 
developing dietary guidance that will have a positive impact on the 
health of all Americans and reverse the epidemic of obesity which grips 
the country.
    In addition, many cranberry products are allowed in the school meal 
programs. Any 100% fruit juice containing cranberries may be served as 
part of a reimbursable meal and any juice product with a minimum of 50 
percent juice may receive a Child Nutrition Label that indicates the 
contribution that product makes toward the fruit/vegetable requirement 
for a meal. There are no added sugar limitations in the school meal 
programs. Any changes to our existing policies and standards would 
require extensive outreach to stakeholders to obtain their collective 
wisdom on the advisability of any such changes.
              representative cathy mcmorris-rodgers (r-wa)
    1. Q: This past spring, the United States Department of Agriculture 
promulgated an interim final ruling for the Special Supplemental 
Nutrition Program for Women, Infants, and Children's (WIC) program 
excluding white potatoes from the recently revised list of eligible 
foods under the WIC program.
    As a representative from the second largest potato producing state, 
I am concerned that the decision to exclude white potatoes was not 
based on sound nutritional science and will result in a costly and 
confusing policy that is not in the best interest of WIC participants.
    As you know, one of the primary reasons for revising the food list 
was to make it more consistent with the Institute of Medicine's 
recommended dietary intakes (RDA) for individuals. In particular, the 
IOM was concerned about the need to increase RDAs for vitamin C and 
potassium.
    Potatoes are more nutrient dense than many of the vegetables 
already included in the WIC program. In fact, one medium-sized potato 
provides 45 percent of the Recommended Daily Value of vitamin C and 620 
mg of potassium.
    Why were potatoes excluded from this interim rule and will USDA 
reconsider and include white potatoes in the list of WIC eligible 
foods?

    A: The changes made to the WIC food packages were based on 
scientific recommendations from the National Academies' Institute of 
Medicine (IOM). The IOM was charged with reviewing the nutritional 
needs of the WIC population--low-income infants, children, and 
pregnant, breastfeeding and postpartum women who are at nutritional 
risk--and recommending changes to the WIC food packages. The 
restriction of white potatoes, as recommended by the IOM, is based on 
food intake data showing that white potatoes are the most widely used 
vegetable. As such, the IOM stated that encouraging the intake of 
potatoes provides no additional nutritional benefit to WIC 
participants. Additionally, the inclusion of white potatoes does not 
support the goal of expanding the types and varieties of fruits and 
vegetables available to program participants.
    The interim rule revising the WIC food packages was published on 
December 6, 2007, with a comment period that closed February 1, 2010. 
The Food and Nutrition Service received over 8,000 comments on the 
interim rule and is currently reviewing and analyzing comments 
received. Please be assured that after due consideration of the 
submissions, we will carefully review all interim rule provisions 
during the rulemaking process, and expect to issue a final rule 
revising the WIC food packages in June 2011.

    2. Q: In a similar vein, I would like to ask you about the Fruit 
and Vegetable Snack program also implemented by USDA. To date, USDA has 
treated fruits and vegetables in all forms, fresh, frozen, dried, 
canned, the same. Moreover, frozen vegetables and fruits are often 
considered to be as nutritionally dense as fresh fruits and vegetables. 
Would you recommend that Congress include frozen fruits and vegetables 
in the snack program?

    A: As you mention, the National School Lunch and School Breakfast 
Programs, the Child and Adult Care Food Program and the Summer Food 
Service Program allow use of all forms of fruits and vegetables in 
reimbursable meals. Flexibility in the types of products that are 
offered is important for these programs, given variations in the volume 
of meals provided as well as logistical constraints.
    However, the Fresh Fruit and Vegetable Program (FFVP) is designed 
not only to provide children with needed nutrients, but to encourage 
children to learn about and appreciate fruits and vegetables as fresh 
produce. While frozen produce may be nutritionally equivalent to fresh, 
the FFVP's emphasis on fresh produce affords children opportunities to 
learn how different fruits and vegetables are grown and that there are 
any number of ways they can be offered to support a healthful diet. 
Therefore, we recommend that the FFVP continue to focus on fresh 
produce.
                                 ______
                                 
                             [Via Electronic Mail],
                                             U.S. Congress,
                                     Washington, DC, July 12, 2010.
Mr. Tom Colicchio, Chef and Restaurateur,
Craft, 47 E. 19th St., 5th Floor, New York, NY 10003.
    Dear Mr. Colicchio: Thank you for testifying at the Education & 
Full Committee Hearing on, ``H.R. 5504, Improving Nutrition for 
America's Children Act,'' on July 1, 2010.
    A Committee Member has an additional question for which they would 
like a written response from you for the hearing record.
    Representative Marcia Fudge (D-OH) has asked that you respond in 
writing to the following question:
    1. Can you tell us how you believe Congress can support public-
private partnerships, like the ones you have established, in order to 
make real changes in schools and to improve nutrition?
    Please send an electronic version of your written response to the 
questions to the Committee staff by close of business on the deadline 
of July 16, 2010. If you have any questions, please do not hesitate to 
contact the Committee.
            Sincerely,
                                             George Miller,
                                                          Chairman.
                                 ______
                                 
    [Editor's Note: A response was not received from Mr. 
Colicchio prior to the closing deadline of the hearing record.]

                             [Via Electronic Mail],
                                             U.S. Congress,
                                     Washington, DC, July 12, 2010.
Mr. Eduardo J. Sanchez, M.D., M.PH, FAAFP, Vice President and Chief 
    Medical Officer,
Blue Cross and Blue Shield of Texas, 1001 E. Lookout Drive, Richardson, 
        TX 75082.
    Dear Dr. Sanchez: Thank you for testifying at the Education & Full 
Committee Hearing on, ``H.R. 5504, Improving Nutrition for America's 
Children Act,'' on July 1, 2010.
    Committee Members have additional questions for which they would 
like a written response from you for the hearing record.
    Representative Marcia Fudge (D-OH) has asked that you respond in 
writing to the following questions:
    1. The Administration and Congress understand that improved 
nutrition is an indispensable element of health care. This connection 
between good nutrition and good health is most explicit in H.R. 5504's 
provision that expands direct certification for free school meals by 
including Medicaid as a source of automatic eligibility. (Currently, 
only SNAP and TANF enrollment are sources of direct certification.)
    Do you support this expansion of automatic free school meal 
eligibility?
    2. Do you see other connections between health care and nutrition 
that the House and Senate child nutrition bills currently include--or 
ought to include?
    Representative Lynn Woolsey (D-CA) has asked that you respond in 
writing to the following questions:
    1. In your testimony, you discussed some of the issues surrounding 
competitive foods. For those of us who haven't been in a school 
cafeteria for awhile, can you describe some of the foods and 
differences in nutritional value of those foods in the a la carte and 
store versus the traditional meal lines? Why is it so critical that the 
Secretary be provided the authority to set nutritional standards for 
these foods being sold in our schools?
    2. One of the key reasons why national school nutrition standards 
for competitive foods is so important to me is that they can lead to 
stigma within the program, where low income children must take the 
school meal and middle and upper income children may purchase the 
competitive foods. Do you think having national standards will help or 
hurt low income schools?
    Please send an electronic version of your written response to the 
questions to the Committee staff by close of business on the deadline 
of July 16, 2010. If you have any questions, please do not hesitate to 
contact the Committee.
            Sincerely,
                                             George Miller,
                                                          Chairman.
                                 ______
                                 
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                ------                                

    [Whereupon, at 12:41 p.m., the committee was adjourned.]

                                 <all>

</pre></body></html>
